<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





               COMMERCE, JUSTICE, SCIENCE, AND RELATED 
                   AGENCIES APPROPRIATIONS FOR 2018
_______________________________________________________________________





                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION
                               ___________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  HAROLD ROGERS, Kentucky              JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama          DEREK KILMER, Washington
  JOHN R. CARTER, Texas                MATT CARTWRIGHT, Pennsylvania
  MARTHA ROBY, Alabama                 GRACE MENG, New York
  STEVEN M. PALAZZO, Mississippi
  EVAN H. JENKINS, West Virginia

NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
  full committee, and Mrs. Lowey, as ranking minority member of the full
  committee, are authorized to sit as members of all subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                              ___________

                                  PART 6

                                                                   Page
U.S. Census Bureau and the Government 
 Accountability Office.........................................       1
Department of Justice..........................................      73
Federal Bureau of Investigation................................     185



               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ___________


                    U.S. GOVERNMENT PUBLISHING OFFICE

  27-526                    WASHINGTON: 2017



















                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                         PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                  JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                      DAVID E. PRICE, North Carolina
  KEN CALVERT, California                    LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                         SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                 BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania              BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                        TIM RYAN, Ohio
  KEVIN YODER, Kansas                        C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                     DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                 HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                  CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee          MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington          DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                       MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California               GRACE MENG, New York
  ANDY HARRIS, Maryland                      MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                       KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                     PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                   Nancy Fox, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2018

                              ----------                              

                                            Wednesday, May 3, 2017.

                      OVERSIGHT OF THE 2020 CENSUS

                               WITNESSES

HON. JOHN H. THOMPSON, DIRECTOR, U.S. CENSUS BUREAU
KEVIN SMITH, CHIEF INFORMATION OFFICER, U.S. CENSUS BUREAU
ROBERT GOLDENKOFF, DIRECTOR OF STRATEGIC ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE
DAVID POWNER, DIRECTOR OF INFORMATION TECHNOLOGY, GOVERNMENT 
    ACCOUNTABILITY OFFICE

                 Opening Statement--Chairman Culberson

    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee hearing will come to order. And 
today we are receiving testimony from the Census Bureau and the 
Government Accountability Office on preparations for the 2020 
Census.
    From the Census Bureau we have Director John Thompson and 
Chief Information Officer Kevin Smith. From GAO we have Robert 
Goldenkoff and David Powner. Gentlemen, welcome to the 
committee. We thank you very much for your testimony and for 
your service to the United States.
    Article I, Section 2 of the Constitution requires the 
Congress to conduct an actual enumeration of the population 
every ten years. Ever since the first year it was done by my 
favorite founding father, Thomas Jefferson, we have met that 
goal. It hasn't always been under budget. That is a primary 
source of concern for this subcommittee and a focus of our 
conversation today.
    We are responsible as stewards of our constituents' very 
hard-earned and very scarce tax dollars. We want to make sure 
that these very precious and hard-earned tax dollars are spent 
frugally, carefully, and wisely. Today, I hope you will be able 
to discuss with the committee and convince us that the Census 
Bureau is working diligently to ensure not only an accurate 
enumeration but to be sure that it is under budget.
    Unfortunately, I am told that the department plans to 
notify the committee that they are already expecting a $309 
million cost overrun. And that is just in the IT system. It is 
just a real source of concern because this seems to happen 
every ten years. There is a 48 percent increase in cost and we 
want to hear from you today what happened and why. And what is 
being done about it to hold people accountable to ensure that 
this does not happen again.
    One of our biggest frustrations in government is the 
inability to hold people accountable for making bad decisions 
and misspending our very precious and scarce hard-earned tax 
dollars. It is particularly discouraging to see this happen so 
early in the process when in 2008 your predecessor came before 
the committee to ask for a $930 million bailout. GAO has once 
again, placed the Census on its high risk program list, just as 
it did for the 2010 Census. I look forward to hearing from GAO 
about what that means for the cost and schedule of the 2020 
Census.
    I am also concerned that there is a plan to wait until very 
close to the actual Census to do an end-to-end test. I want to 
be sure to discuss that as well. That seems very risky and a 
little nerve-wracking.
    Also, with all the very sensitive personal data that the 
Census is collecting, it makes the Census Bureau a prime target 
for cybercriminals and hostile state actors. And invasions of 
privacy are very important. I know everyone on this committee 
believes that privacy is a right to be left alone and our right 
to privacy is one of our most sacred and important 
constitutional rights. All of us want to be sure that 
Americans' personal data collected by the Census is safe.
    Beyond the 2020 Census, I am very concerned about the 
American Community Survey. I have had a lot of complaints from 
constituents about the intrusive nature of the survey. It has 
over 140 questions on it. I know the world has gotten more 
complicated than it was in 1790 but that original Census had 
only six questions.
    Before we proceed, however, I would like to recognize my 
good friend Mr. Serrano from New York for any remarks that he 
would like to make.
    Mr. Serrano. I want to tell you what an honor and a 
pleasure it is for me to be back here on this committee where I 
was ranking member years ago. And it is no secret in Congress 
that it is my favorite committee. And through some maneuvering 
and fate, I am back again.
    I also come back this time with a different little opening 
statement. I no longer have to make that disclaimer I used to 
make about having a brother who works at the Census because he 
has since retired and enjoying the grandchildren and not 
missing the Census Bureau a lot, but he is watching us on the 
internet right now.
    I am pleased to return as ranking member of this 
subcommittee, Mr. Chairman, at a crucial time for the Census 
Bureau. Preparations for the 2020 Census are at a critical 
juncture, and there is a serious need to ensure sufficient 
funding for the Decennial Census and for the many other surveys 
and products that the Bureau undertakes.
    I believe all of us here can agree on the vitally important 
role that the 2020 Census and the American Community Survey 
play in producing reliable information on housing, 
demographics, and socioeconomic conditions in our country. And 
I believe that it is this committee's job to provide the Bureau 
with the resources to do its job.
    Since 1790, I do not think anybody on this committee was 
around then, a national Census of our population has been 
conducted every ten years, as required by the U.S. 
Constitution. With each Census, additional information has been 
incorporated to help us better understand and address the 
challenges we face as a nation. Incorrect Census data has 
serious and lasting implications for our communities. We have 
an obligation to ensure that the Bureau is able to accurately 
account for every household and that all of the collected 
statistical data remains properly secured.
    The President's skinny budget, as it is called, for Fiscal 
Year 2018 includes $1.5 billion for the Bureau. My concern is 
that this funding level falls short of what is needed to help 
ramp up ongoing preparations for both the 2020 Census and the 
other important surveys conducted by the Bureau as the 
requested total is actually $133.6 million below President 
Obama's request for the previous fiscal year. Normally we would 
expect to see significant increases in the Bureau's budget at 
this point in the decade as we get closer to the Census count 
itself.
    Underfunding and delays in enactment of the Bureau's budget 
have already had consequences. For example, last year the 
Bureau discontinued plans for the 2017 Puerto Rico Census test. 
The overall funding track for the Bureau is well behind the 
levels previously appropriated for the 2010 Census. And I am 
seriously concerned that the Bureau will not be able to match 
the historic levels of compliance from the 2010 Census.
    I am aware that the Bureau plans to save money through 
several innovations, including by implementing an online self-
response option. Although the internet self-response survey has 
a Spanish language option, we must make sure that the field 
testing of a full Spanish language survey prior to the 2020 
Census is in place. It is also important to test non-
traditional addresses located in Puerto Rico and on tribal 
reservations.
    I am also concerned about the steps needed to reduce the 
anxiety that generally arises throughout the minority 
communities during the Census count. These feelings, Mr. 
Chairman, this is very important, of distrust are at an all-
time high as, and I say this with full respect for the office, 
the new President continues to use anti-immigrant rhetoric. In 
prior cycles, the Bureau conducted significant media and 
partnership campaigns to help participants understand the 
importance of the surveys and the fact that they were kept very 
confidential. However, if we continue limiting the Bureau's 
resources we run the risk of facing similar challenges to those 
of the 1990 Census, which had an extremely high non-response 
rate.
    Additionally, migrating from traditional methods of paper 
survey collections to an internet-based model without robust 
cybersecurity funding will ultimately put respondents at risk 
should they opt to use technology. In a world with growing 
cybersecurity threats, the collection and protection of 
personal information online should be a priority. We should 
continue to safeguard individuals using electronic devices and 
ensure the public's trust that their confidential response data 
will remain private. That, Mr. Chairman, as an aside, will be 
one of our greatest challenges and the Bureau's. We want people 
to step up. We want people to be counted. And in a very 
difficult immigration atmosphere, we especially want people who 
are here under our roof to come forward and not be concerned 
that that is going to impact on something else. We cannot use 
the Census Bureau to be the tool that goes after undocumented 
aliens in this country.
    Thank you, once again, to both the Census Bureau and to GAO 
for testifying today. I look forward to discussing these 
important issues with all of you.
    As I close, Mr. Chairman, I'm going to make my first 
request of you. And that is, as you know I was born in the 
American territory of Puerto Rico. And I still cannot 
understand, notwithstanding, and I say notwithstanding, not 
ignoring it, how the Constitution is worded, count the people 
amongst the states. But the Constitution at that time did not 
envision the fact that there would be people living as American 
citizens in places other than the states. So if you look at the 
Census count, you get, say, 350 million Americans. Right? Then 
you get underneath the numbers for Puerto Rico and some of the 
other places. And then you don't get a total of the population. 
Ironically, and I hope no one puts this down as an anti-
immigrant statement, but you could live in New York, or in your 
state, undocumented and you would get counted in the regular 
population. But you could be an American citizen living in the 
Virgin Islands or Puerto Rico and not get counted in the 
regular count. Or your number shows up in the regular count. So 
let's get together and move it up a couple of lines. Thank you.
    Mr. Culberson. I really am so glad to have you back, Mr. 
Serrano, on the subcommittee. I've always enjoyed working with 
you and I was so pleased to see that you would be returning as 
our ranking member. We work together very well.

               Opening Statement--Ranking Member Serrano

    Mr. Serrano. I appreciate it. This committee, as I tell 
you, it's one, it doesn't hurt people. It helps. It has some 
great agencies that we deal with, and if you don't knock the 
Yankees when they get on a losing streak, we'll get along just 
fine.
    Mr. Culberson. This is truly my favorite subcommittee as 
well. It's the only one I really wanted to serve on. I was 
reluctantly appointed to the Appropriations Committee. I 
actually didn't understand what a great committee this was. And 
I didn't want to do it. My answer was no, initially.
    Mr. Serrano. You said no originally? You know how these 
people fought for this?
    Mr. Culberson. That's how I got in. I said, I'm so brutal. 
My answer is going to be no on everything, unless it's NASA or 
the sciences, it's going to be very hard to get me to yes. And 
Tom Delay said, you're perfect. You're hired. And that's a good 
way to approach it because we are stewards of our constituents' 
hard-earned tax dollars. You start out with ``no'' and work 
your way to ``yes.'' This is one of the most important things 
we do with the Census. We want to make sure you have the 
resources you need.
    Mr. Serrano. And if I may, I would like to introduce Mr. 
Kilmer and Mr. Cartwright, members of the committee. And I also 
want to pay great attention to Ms. Meng, a New Yorker, who 
wanted to get on this committee so much. She reminded me every 
single day, and we are glad you are here.
    Mr. Culberson. It is a wonderful subcommittee. One of the 
principal selling points for me, when I was asked to serve on 
Appropriations, was I could be here on this subcommittee to 
help NASA, restore NASA to the glory days of Apollo and as well 
as the National Science Foundation, and to help our law 
enforcement officers. It is a great subcommittee and everything 
we do is pure good.
    So I am delighted to have you here, gentlemen. And we will 
start with you, Director Thompson. Thank you very much for your 
service to the country and we look forward to your testimony. 
We will enter your statement in its entirety into the record. 
We welcome a summary of your written testimony. Thank you, sir.

                  Opening Statement--Director Thompson

    Mr. Thompson. Thank you. Good morning, Chairman Culberson, 
Ranking Member Serrano, and members of the subcommittee. I 
appreciate the opportunity to update you on the 2020 Census. I 
am proud to report that we are on schedule and remain on the 
critical path to readiness.
    The 2020 Census will be the most automated, modern, and 
dynamic Decennial Census in history. The innovations we are 
implementing will lead to significant cost savings and we have 
a very robust testing cycle to prove in these innovations. This 
year we successfully conducted the 2017 Census test. And we are 
well on our way to the 2018 end-to-end Census test.
    The 2020 Census has been added to the most recent high risk 
list from the Government Accountability Office. This is not 
unusual. The 2000 and 2010 Censuses were also on this list, 
which reflects the complexity, scale, and importance of 
conducting a fair and accurate Census.
    This decade the complexity is heightened as we replace a 
paper and pencil based design with innovative technologies. We 
have robust controls in place to mitigate the risks that are 
inherent in carrying out this constitutionally mandated task.
    In the final years of the decade, risk management is 
critical to our operational plan for 2020. As we plan and test 
the 34 operations and roughly 50 systems that comprise the 2020 
Census, we are rigorously managing, monitoring, and mitigating 
risk. The Census Enterprise Data Collection and Processing 
Program, or CEDCaP, as we often refer to it, is an agency wide 
effort to integrate and standardize data collection and 
processing services and is a critical part of our preparations. 
Another important aspect is our ongoing work with our 
colleagues at the GAO and the Office of the Inspector General.
    I discuss the steps we are taking to mitigate risk in 
greater detail in my written testimony. The specific areas we 
are concentrating on include, first, cybersecurity, fraud 
detection, and ensuring the public's trust. We are actively 
securing our systems and devices for the 2020 Census and its 
field tests while ensuring that we prevent fraud and cyber 
attacks.
    Second, ensuring systems readiness. We have developed and 
field tested proof of concept systems and our design is 
supported by findings from Census tests. Now that we have 
awarded nearly all of the key contracts for 2020, we are 
finalizing our system of systems ahead of the 2018 end-to-end 
Census test.
    Third, we are refining our field procedures through 
testing.
    Fourth, we are managing the integrated master schedule for 
the 2020 Census and its supporting programs.
    And lastly, we are documenting and validating our 2020 life 
cycle cost estimates.
    As I mention in my written testimony, we have a cost 
overrun with the CEDCaP program. We regret the substantial 
underestimation of this program's costs for several years. Last 
May, after a rigorous analysis, we selected a commercial off 
the shelf platform integrated with select custom solutions. We 
decided to adopt proven technology in order to reduce risk. 
Following this decision, certified cost estimators produced 
updated program estimates and an independent cost estimate for 
CEDCaP. The latest cost estimate for CEDCaP is $965 million, 
which is $309 million higher than the original estimate from 
2013.
    [The information follows:]
                      clarification for the record
    The Census Bureau would like to clarify the difference in the 
original life cycle figures cited by Director Thompson and Mr. Powner. 
The $548 million figure cited by Mr. Powner only covered Fiscal Years 
2015 to 2020. The baseline of $656 million was set when the Census 
Bureau delivered it to House and Senate on May 16, 2017. The 
differences between the $548 million cited by the Government 
Accountability Office and the $656 million estimate cited by Director 
Thompson are not cost growth. The differences are adding FY 2021 ($86.9 
million) to the original estimate. Other changes include a $19.1 
million increase based on a redistribution of overheads funding 
centralized, IT, administrative, and other services approved as part of 
a reprogramming and transfer notification submitted to the House and 
Senate Appropriations Committees in FY 2016, $0.8 million in 
inflationary adjustments to base for FY 2017, and $1.5 million in 
additional funding for the CEDCaP Program Management Office as part of 
the FY 2017 request.

    The primary reasons for this disparity are our first 
estimate was created by subject matter experts rather than 
certified cost estimators. Secondly, since we had not yet built 
prototypes in 2013, we underestimated how much work it would 
take to translate our business rules into detailed technical 
requirements to deliver a secure, scalable data collections 
system. And thirdly, we had a schedule disconnect that did not 
accurately baseline all of our milestones to the 2020 Census 
integrated master schedule.
    We are committed to transparency with the Congress and our 
stakeholders. We will work to address your concerns as CEDCaP 
continues to mature and evolve. The higher cost estimate 
reflects how much we have learned over the past four years. We 
are confident in the latest estimate because it has been 
independently verified, it employs best practices, and it 
incorporates detailed requirements.
    Although we have experienced a cost overrun, the technical 
implementation of CEDCaP is progressing well. We have 
successfully deployed solutions for the 2017 Census test that 
is now underway and we are well positioned for the 2018 end-to-
end Census test.
    There are many challenges ahead but we are confident that 
with appropriate funding levels we can successfully execute a 
high quality 2020 Census. 2017 and 2018 are critical years in 
the Census cycle. The funding we receive will have a great 
effect on the outcome of the 2020 Census. The 2020 Census 
remains our top priority and we appreciate, and I emphasize we 
appreciate the support we have received from the Appropriations 
Committee. Thank you very much.
    I thank the committee for your interest in our work and I 
look forward to discussing the challenges we face and how we 
are addressing them, and to continue our productive 
relationship with the GAO in the years ahead. Thank you.
    [The information follows:]
    
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Mr. Culberson. Thank you, Director Thompson. And now to 
recognize Mr. Goldenkoff. Thank you for your testimony and your 
written testimony will be entered into the record in its 
entirety.

                   Opening Statement--Mr. Goldenkoff

    Mr. Goldenkoff. Well thank you for having us. We really 
appreciate it.
    Chairman Culberson, Ranking Member Serrano, members of the 
subcommittee, GAO is pleased to be here today to discuss the 
Census Bureau's readiness for the 2010 head count. The single 
greatest management challenge now facing the Census Bureau is 
how to conduct a complete and accurate count of the nation's 
large and diverse population while keeping costs in check. At 
$12.3 billion, the 2010 Census was the most expensive 
enumeration in U.S. history and 30 percent higher than the $9.4 
billion spent on the 2000 Census in constant 2020 dollars.
    While some of that cost growth is to be expected given the 
nation's growing population, the average cost of counting each 
housing unit has escalated from $16 in 1970 to $92 in 2010, 
also in constant 2020 dollars. A key driver of the cost growth 
is that the nation is growing larger, more complex, and more 
reluctant to participate in the Census. To help control costs 
while maintaining accuracy, the Bureau will use new procedures 
and technology for 2020. If they function as planned, the 
Bureau estimates it can enumerate the nation at a cost of 
around $88 per housing unit.
    At the same time, however, these innovations introduce new 
risks and we have become increasingly concerned about the 
Bureau's ability to conduct a cost effective head count. And 
these concerns led us to add the 2020 Census to our high risk 
list earlier this year, as was previously mentioned. So my 
remarks this morning will focus on the Bureau's progress in 
rolling out the new Census taking procedures as well as some 
challenges that the Bureau has been having in developing 
reliable cost estimates. I will then turn it over to my 
colleague, Dave Powner, who will then discuss what the Bureau 
faces in implementing and securing critical IT systems.
    The bottom line is that while the Bureau has made 
considerable progress in redesigning the Census, continued 
management attention and congressional oversight will be needed 
in the short time remaining until Census day to ensure the 
Bureau's preparations stay on track.
    The new Census-taking operations include greater use of 
automated data collection methods to improve the efficiency of 
field operations; use administrative records in place of data 
collected by enumerators in certain instances; verifying 
addresses using aerial imagery and other in-office procedures 
rather than going door to door as was done in prior Decennials; 
and fourth, allowing households the option of responding to the 
Census via the internet.
    While the new methods show promise for controlling costs, 
they also introduce new risks in part because they include new 
procedures and technology that have not been used extensively 
in earlier Decennials, if at all. One of our concerns centers 
on the high number of non-interviews that occurred during a 
2016 test held in Harris County, Texas and in Los Angeles, 
California. At both locations the Census Bureau experienced a 
large number of non-interviews, as much as 30 percent of the 
workload, where either no or insufficient data were collected. 
Going forward it will be important for the Bureau to identify 
and address the factors that contributed to the non-interview 
rate as they could have implications for the cost and accuracy 
of the final population count.
    Another risk area is the quality of the Bureau's estimate 
of the cost of the 2020 Census, which does not conform to GAO's 
best practices. Quality cost estimates can help an agency 
manage large, complex activities like the Decennial, as well as 
help Congress make funding decisions and provide sufficient 
oversight. However, the Bureau's October 2015 cost estimate 
only partially met the characteristics of two best practices, 
and those were being comprehensive and accurate, and minimally 
met the other two best practices, and those are being well 
documented and credible.
    Additionally the Bureau has not published an update to its 
October 2015 cost estimate, yet several events since then, 
including changes in system requirements and testing strategy, 
suggest that the cost of the current design, around $12.5 
billion, could be higher than planned.
    So this concludes my prepared remarks. And I now turn it 
over to my colleague, Dave, who will discuss the risks facing 
the IT systems.
    Mr. Culberson. Thank you very much.

                     Opening Statement--Mr. Powner

    Mr. Powner. Chairman Culberson, Ranking Member Serrano, and 
members of the subcommittee, thank you for inviting us to 
testify on the Bureau's plans to deliver and secure key 
technologies for the 2020 Census. Utilizing an internet 
response, mobile devices for enumeration, and cloud solutions 
are important steps to improve our nation's response rates and 
secure citizens' data. The Bureau's track record for delivering 
IT for previous Decennials is not good. Unfortunately we see 
similar issues with 2020: late starts, schedule pressure, and 
not enough transparency.
    This morning I would like to discuss what needs to be done 
to deliver and secure these technologies for the 2020 
Decennial. There are three areas that require congressional 
attention associated with the technology. They are schedule, 
security, and cost growth. I would like to expand briefly on 
each of these.
    Starting with schedule, the Bureau needs to deliver about 
50 systems for the 2020 Decennial. Some are new systems and 
infrastructure while others are changes to existing systems. 
Clearly the internet response capability, mobile devices, and 
the centralized operations component are critical systems. 
These systems need to be ready between August of this year and 
early 2018 for a key end-to-end test.
    We have concerns about the readiness of the systems for the 
2018 test, as does the technical integration contractor. Also, 
decisions still need to be made about key infrastructure, data 
centers, network and security operations, as well as commercial 
products including those for the internet self-response. These 
pending decisions will further compound the schedule issue. We 
will be tracking these issues and the readiness for all 
systems.
    Turning to security, the Bureau needs to continue its 
diligence in this area since it has been the target of recent 
cyber attacks. We have ongoing work that will focus on the 
Bureau minimizing the threat of phishing, securing 400,000 
mobile devices, ensuring security of cloud services, and 
properly configuring all 2020 systems. To ensure that all 
systems are as secure as possible, the Bureau needs to develop 
security plans, assess security controls, fix known 
deficiencies, and have the proper sign off from both the Chief 
Information Officer and the Head of the Decennial Office to 
ensure that each system is ready for operations. The Bureau has 
such a process but we have concerns about whether this process 
is consistently followed and whether all systems will have the 
appropriate sign off to ensure that personally identifiable 
information is protected. We also recently learned that about 
50 additional security engineers are coming on board to further 
support this process.
    Finally, we have concerns about the cost growth associated 
with the technologies. The Bureau estimates that it will spend 
about $2.4 billion on IT. We expect these costs to rise 
significantly. Specific IT contracts to watch are first of all 
the CEDCaP contract that Director Thompson talked about, which 
is already overrun hundreds of millions of dollars. Also 
another contract is the integration contract that had an 
original price tag of $900 million, and also the call center 
contract whose cost is around half a billion.
    The two previous concerns we discussed regarding schedule 
pressure and additional security will also add to the IT costs 
and will ultimately eat into the anticipated $5 billion in cost 
savings.
    In conclusion, schedule, security, and IT cost growth are 
major concerns that we will continue to monitory for the 
Congress. Mr. Chairman, thank you for holding this hearing and 
I look forward to your questions.
    [The information follows:]
    
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 

                            2020 CENSUS COST

    Mr. Culberson. Thank you, Mr. Powner. We included language 
in our bill last year and this year fencing some money for the 
Census until we made sure that the GAO was in the loop. We 
appreciate your work, Director Thompson, and everyone that 
works on the Census. We know how important it is. We know how 
vital it is. But we really, I know I will be working closely 
with everybody on the subcommittee, we really need to ride herd 
closely on this. And I want to make sure GAO is looped in. The 
list of concerns that Mr. Powner just went through is 
distressing. The 2020 Census looks like it is headed the same 
direction as the 2010 Census with the terrific cost overruns. 
It is just not acceptable, particularly in this environment 
when our taxpayer dollars are so hard-earned and hard to come 
by. They are really going to be scarce in the 2018 budget 
cycle. It is going to be a tough year. So what will the total 
cost of the 2020 Census be, Director?
    Mr. Thompson. Thank you, Congressman Culberson. At this 
point we are working very hard on combining the results of our 
testing over the past four years, looking at what we are going 
to be doing with the 2017 appropriation we just received. And 
we are really looking forward to working with the committee on 
the 2018 appropriation. We are glad we are a priority in the 
President's budget, we are very, very happy about that. And we 
are looking forward to that process. As part of that process, 
we will produce another full cycle estimate of the Census costs 
this summer.

                       CERTIFIED COST ESTIMATORS

    Mr. Culberson. Well I heard Mr. Powner say you are not 
following best practices recommended by GAO and using certified 
cost estimators, that you had to bring in, and I heard you say 
you had to bring in certified cost estimators to reevaluate the 
cost of the CEDCaP system and that resulted in this huge 
overrun.
    Mr. Thompson. So we----
    Mr. Culberson. Why not just, like autopilot, use certified 
cost estimators? Is that not what your recommendation is for 
best practices?
    Mr. Powner. Yes, we need solid baselines.
    Mr. Culberson. Yes.
    Mr. Powner. We need solid baselines so we can measure how 
we are doing.
    Mr. Culberson. Exactly. I mean, why are you not following--
--
    Mr. Thompson. So----
    Mr. Culberson [continuing]. What GAO has recommended just 
across the board?
    Mr. Thompson. So we really appreciated the feedback we got 
from the GAO----
    Mr. Culberson. Yeah.
    Mr. Thompson [continuing]. On 2015. And we have been 
really, really aggressively moving forward to address their 
concerns. So we do have a number of certified cost estimators 
now on staff at the Census Bureau.
    Mr. Culberson.----
    Mr. Powner. We have----
    Mr. Culberson. Are you using them?
    Mr. Powner. Yes.
    Mr. Culberson. GAO is telling me they are not in place. Did 
I misunderstand?
    Mr. Thompson. I don't think the GAO----
    Mr. Powner. So----
    Mr. Culberson. Make sure I understand.
    Mr. Powner [continuing]. They brought on board additional 
security engineers to help with their security processes, where 
we have the sign off that the systems are secured.
    Mr. Culberson. Yeah, on the security. But I mean the 
certified cost estimators, that is what I am asking about.
    Mr. Thompson. Yeah we----
    Mr. Culberson. And the practices GPO recommends.
    Mr. Goldenkoff. Our understanding is that they have been 
beefing up their expertise on the cost estimation side. And it 
is certainly better than it was. This has been a longstanding 
issue with the Census Bureau, you know, going back to I think 
2008 was one of our first reports on the challenges they face 
in developing life cycle cost estimates. They have made a lot 
of improvements since then.
    Mr. Culberson. Good.
    Mr. Goldenkoff. So by developing, by bringing in more 
experts, by trying to develop better processes. But there is 
still a ways to go. And, you know, as we mentioned that it has 
been, the last estimate was October 2015----
    Mr. Culberson. Yeah.
    Mr. Goldenkoff [continuing]. We have not seen anything 
since then. And so we cannot say the extent to which they have 
made progress on our recommendations or if the cost estimates 
have addressed these, our leading practices better than they 
have.
    Mr. Culberson. Okay. Well forgive me for interrupting you, 
Director Thompson. Please continue. And if you could, answer 
that critical question----

                            2020 CENSUS COST

    Mr. Thompson. Well no, I mean we----
    Mr. Culberson. How much is the 2020 Census likely to cost?
    Mr. Thompson. Like I said, our best estimate right now is 
about $2.5 billion for the 2020 Census. That estimate will be 
refined, as I mentioned, over the summer as we get, maybe I 
missed the 2.5, I think Robert said 2.5.
    Mr. Goldenkoff. 12.5.
    Mr. Thompson. I think 12.5. I'm sorry, not two. Not two.
    Mr. Goldenkoff. 12.5.
    Mr. Thompson. I wish it was 2.5. It would be, I'm sorry, 
I'm sorry, I misspoke.
    Mr. Culberson. We'd be delighted. You know?
    Mr. Thompson. Yeah, yeah. I would be, too. I'd be----
    Mr. Serrano. He was ready to endorse it----
    Mr. Thompson. Yeah, yeah. No, no, no.
    Mr. Culberson. Sold. Done.
    Mr. Thompson. I'm sorry, I'm sorry. I'm sorry very much. 
Thank you.
    Mr. Culberson. I think your whole staff back there just had 
a heart attack.

                      COST ESTIMATES DOCUMENTATION

    Mr. Thompson. Yeah. Yeah. I'm sure they did. But 
importantly we are working with the GAO on this. One of the 
things they also mentioned was that we needed to improve our 
documentation. We have been working very hard on improving our 
documentation underlying our estimates. And even more 
importantly, as this next estimate comes out we will be working 
with the GAO to make sure they understand what is in it 
independently from us so they can report to you on the quality 
of that estimate. And we believe, but we have to demonstrate 
this, that they will find it to be acceptable.
    Mr. Culberson. That's terrific. I really want you guys 
working together on this.

                              TRANSPARENCY

    Mr. Powner. I think one item that is very important is when 
there are changes in the baseline costs that needs to be 
disclosed quickly. That is why transparency is very important. 
As an example, and I do not want to pick on this too much, but 
the CEDCaP overrun, we did a report on CEDCaP not that long 
ago. And the CEDCaP, we talk about a $309 million overrun. I 
think it is 417. Because I had a baseline cost of $545 million 
that was in a GAO report, and it went to 965. And if my math is 
right, that is over 400. So again, and that is $100 million. 
There are larger issues than this $400 million. But the point 
here is when baseline costs change, you need to know about it 
and we need to know about it to help in our oversight.
    Mr. Culberson. Instantly.
    Mr. Powner. Exactly.
    Mr. Goldenkoff. Absolutely. And there are other changes to 
procedures that are taking place, with how they are doing their 
address canvassing that could have cost implications. Other 
changes to IT processes. And, you know, so the last estimate 
was 2015. You know, now here it is coming up in two years later 
and more. And now there could be these significant cost 
increases. And it is just we are not sure what is in there and 
how much of the cost and any cost increases are being accounted 
for.
    Mr. Culberson. Director Thompson? What is the cause of 
that? Because transparency is absolutely essential for GAO and 
this committee to know what is going on and to be able to step 
in and help resolve some of these problems before they get out 
of control.
    Mr. Thompson. Exactly. Exactly. So we have been, so the 
reason is is that we have been very, very hard at work looking 
at what it will take to develop our systems. Part of the 
process has been was that last year we started a really, really 
detailed what we call analysis of alternatives on our CEDCaP 
program. And at that time we were looking at a commercial off 
the shelf solution versus building in house solutions. Now I 
will get to why that is important. Because we needed to finish 
that analysis of alternatives and understand what we were going 
to be doing before we could start working on what it would take 
to produce a life cycle cost estimate of that. Now we have done 
that for the CEDCaP program. We have just finished that. But we 
had to put in place the processes we were going to use. We also 
had to bring to bear with the vendor that we selected our 
requirements that we determined through our testing.
    Mr. Culberson. Understandable. The question is really about 
transparency and disclosing immediately. This is news to us. 
You think the cost overrun is likely to be $417 million? Have 
you all been able to get access, as much as you would like, to 
the Census Bureau? I hope you guys are working together. Are 
you?
    Mr. Powner. I think we have a very good working 
relationship. I meet monthly with the CIO and our team has 
access. I think there are still certain areas like this cost--I 
don't know what the IT costs are right now. I had a $2.4 
billion total. I think the IT costs are going to be more than 
like $1 billion more than that. If I did simple math. But 
again, this is where that should be very transparent and 
hopefully this summer----
    Mr. Culberson. Absolutely. That is what I am driving at.
    Mr. Powner [continuing]. Hopefully this summer the IT costs 
and the overall, whatever the increase, we are going to, it is 
likely there are going to be increases. But if we can quickly 
disclose and manage it effectively, that is really what we 
want. I think the access to information is better. I think the 
one thing that we would like to see is just more dashboards. We 
have 50 systems to get ready. We have 50 systems to secure. We 
have costs. Those types of things should be transparent----
    Mr. Culberson. Absolutely. That is what I am driving at.
    Mr. Powner [continuing]. Twenty-five systems ready, 25 
remaining, how many have the appropriate sign off on security. 
That dashboard type of reporting should come to you readily. We 
have to work a little bit to get that information.
    Mr. Goldenkoff. Yeah, and I would echo that. I think we do 
have an excellent working relationship. And also, I have been 
involved with, you know, doing Census issues since 2000. And I 
think that the relationship, the institutional relationship 
between GAO and oversight agencies in particular and the Census 
Bureau has been better than it has ever been. Dave mentioned 
his meetings with the CIO. We have monthly meetings with the 
Census Director. So it is a very open process. We do share 
information.
    I think one of the issues is, that we would like to see, is 
better documentation and this is consistent with the 
transparency. That, you know, it is fine to discuss these 
things when we have these informal monthly meetings. But it 
needs to be much more official than that. It needs to be 
something that we are able to share that we are able to report 
on, and the documentation just is not there.
    Mr. Culberson. Yeah. And it sounds like we have some room 
for improvement here, Director.
    Mr. Thompson. Well, there is always room for improvement. 
And I do not want to downplay the importance of having GAO look 
at what we are doing as an independent entity. And we really do 
plan on being very, very open this summer in terms of what we 
have got, what the estimates are, working with GAO, working 
with your staff.
    Mr. Culberson. Immediate disclosure and full transparency 
is absolutely essential. And the cost overruns of this scale 
are just unacceptable. We have to get this under control. I did 
not mean to take this much time. Let me pass it to my good 
friend, Mr. Serrano.

                         UPDATED COST ESTIMATE

    Mr. Serrano. Thank you, Mr. Chairman. On that last point, 
you, Director Thompson, are telling us that this summer you 
will be able to present a clearer picture of where you are, 
where you are going, and what to expect. Are you folks 
satisfied that based on past experiences with the Bureau and 
past conversations, come this summer you will be able to get a 
better handle? If we were to have another hearing, if you will, 
in the late, in the early Fall, would you be able to feel more 
confident that you know what is going on?
    Mr. Goldenkoff. Well if they deliver on that. And I think 
this has been the issue. We actually tried looking at the 
updated cost estimate. We started an engagement back on the 
Fall when the new estimate was supposed to have been released 
and then it has been delayed, delayed, delayed. And so we have 
not been able to take a look at it. And so that has delayed our 
ability to review it. And that has been problematic. So, yes, 
if it comes out as planned, actually the Summer, we thought it 
was coming out in the Spring, if it is delivered, yes. Then we 
can start our work. But then it is going to take some time for 
us to look through it. It is a pretty lengthy process to apply 
our best practices and all the criteria. So you know, I think 
that, you know, we will see, the deeds will speak louder than 
words.

                           IMMIGRATION STATUS

    Mr. Serrano. Director Thompson, I have a lengthy prefacing 
comment to my question, but I am not going to read it. It is 
well written, anyway. I do not want staff to think I am not 
reading it for a reason. One of the biggest concerns that I 
have, and so many people have in this country, and it should be 
everybody's concern, is that some groups never get counted 
accurately. And we get better, but now, and I am trying to be 
at these hearings, Mr. Chairman, and I mean that sincerely, I 
am trying to be as balanced as possible even though I do not 
work with that network. But you know, just being as balanced as 
possible. But there is a political atmosphere created during 
the presidential campaign where a lot of folks are afraid to 
even take their children to the bus stop because they think 
they are going to get deported. So if they are afraid of that, 
imagine how they are going to feel about putting information on 
a paper or a computer for the Census Bureau about their 
information. So my question to you is are you putting in motion 
anything to attempt to reassure these folks that they should be 
counted and nothing has changed from the past? That this is not 
going to be used to determine immigration status? It has 
nothing to do with immigration status?
    Mr. Thompson. Thank you, Congressman Serrano. So I will go 
back briefly to the 2000 Census, when we started a program 
where we actually started paying for advertising so we could 
get our message on when people would see it. And even more 
importantly we started putting resources into what we call the 
Partnership Program. And the purpose of this was to enlist 
partners. We had our people. We enlisted partners, network 
partners, so that local voices would explain why the Census was 
important and why the data was confidential and would not be 
used for any purpose other than the mandated purposes of the 
Decennial Census. And we saw as a result of that program 
significant gains in the accuracy of the Census relative to the 
1990 Census.
    That program continued in 2010 and we saw more gains. And 
so I cannot stress the importance of being able to work at 
local levels, and we plan to do this. We have already started 
the program. We plan to do this in 2020 and it is going to be 
very critical that we have partners that will step up and speak 
on our behalf. And we will, we would love, you know, we will 
work with you again to make sure we get a lot of the right 
people in your district in New York. Because we want to line 
them up and with you, Congressman Culberson, we will work with 
all members. And I think we had 270,000 or 290,000 partners in 
2010 and we want to try to exceed that goal. But that is how we 
have to solve that problem. We have to do it locally. And we 
have to empower people locally to talk about what is right with 
the Census.
    Mr. Serrano. Yes. Mr. Chairman, we have to make sure that 
we create the kind of atmosphere that he is speaking about, 
that the Director is speaking about. Because--and let me first 
say I am a Catholic so I am not attacking anyone's church or 
religion. But the Catholic Church went as far some Censuses ago 
as to say if you fill out the information we cannot guarantee 
that it will not be used to hurt you. I mean, that was a 
devastating comment coming from the Church. But it came out of 
fear and their feeling that their role was to protect folks, 
not to turn them over to anyone.
    So they have an incredible challenge. We all do. Because we 
want to know who is here. We want to count people. Those other 
issues we have to deal with them, we will deal with them. I 
mean, today we are going to take a vote that deals with issues 
people thought we never were going to deal with. And yet we 
dealt with them. So it is a challenge, and I want to be part of 
that and assist in any way.

                             BUDGET DELAYS

    Very briefly, my last comment, you have had to change some 
of the plans you had because of delays and budgetary delays and 
other things. Do you think that those delays will now cost the 
Census more to be conducted? Or are they just a stumbling block 
that you can get over?
    Mr. Thompson. Congressman, some of them will, if we do not 
adjust for them, would result in increased costs. So for 
example, one of the things we are doing is we are doing less 
in-office address canvassing, and that means we are going to 
have to do more in field address canvassing. So that will be a 
cost increase. In order not to increase the full cycle costs, 
we will have to try to find an offset for that. But some of the 
changes that we have made do have the potential.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Mr. Cartwright.

                               UNDERCOUNT

    Mr. Cartwright. Thank you, Mr. Chairman. I want to follow 
up, if I might. I would preface my remarks by mentioning how 
obviously important this whole business is. I mean, the Census 
is done, you know, appears very early in our Constitution, in 
the text. And that is for a good reason. This is how we decide 
how many members of Congress get allocated to each state. It is 
how we decide how many members each member of Congress 
represents. It is how we decide not only that but in terms of 
federal largesse, where it goes. Things like food stamps, so 
many other federal programs. They refer to the results of the 
last Census to decide how much money goes where. So this is a 
really big deal and it is one where we want to be very careful 
not to be penny wise and pound foolish.
    I want to start with you, Director Thompson. In response to 
my ranking member's question about concern of underreporting, 
people afraid to answer the questions whether it is because 
they are afraid of having some cousin deported, or because the 
Catholic Church scared them, or maybe an even broader concern, 
they are worried about having their cybersecurity violated. We 
have to worry about that. And your answer, Director Thompson, 
was, well, what we did in 2010 was we advertised. We advertised 
and we used local people to encourage people that it was safe 
and their information would be safe, and it is a good idea to 
respond to these questions. And you said it led to significant 
gains in accuracy of the numbers. Something that we are all 
interested in here. We saw more gains, and you said it was 
critical that we have local partners involved in that 
advertising.

                              ADVERTISING

    The reason I raise that is that in your written testimony 
you outline four what I regard to be rather troubling 
concessions you have decided to make in order to meet the 
administration's low budget request. I think some of these are 
penny wise and pound foolish. Your third point, Director 
Thompson, was the elimination of advertising in the 2018 end-
to-end tests that would potentially lead to higher costs later 
that I worry about associated with in-person followups if 
people are afraid for the reasons we have discussed and they do 
not respond to the much more cost efficient methods of reaching 
out and getting information. Then you have to send people out 
to follow up and it is much more expensive. But if you do not 
do the advertising, then it becomes that much more expensive. 
And because you did not have those significant accuracy gains. 
Am I correct in that? You do have the elimination of 
advertising in the 2018 end-to-end test plan?
    Mr. Thompson. Well, yes and maybe not yes. So we 
prioritized our activities based on the budget situation we 
found ourselves in to really focus on making sure that our 
critical systems would be ready to test in the 2018 end-to-end 
test. We made a number of decisions. And one of those was we 
did defer doing an advertising campaign in the 2018 end-to-end 
test. However, we have awarded a contract for advertising to 
Y&R, a company, a good company, that actually as an aside 
happened to work on the 2000 Census. And they are in the 
process of being on schedule to deliver a research plan and 
also a strategic plan for how we go about implementing the 
advertising. We expect to get that sometime this month or this 
Spring. And that will be a great start to go forward with the 
advertising for 2020.
    Mr. Cartwright. Okay. So yes, you are going to eliminate 
the advertising in the 2018 end-to-end Census test, but the 
plan is not to eliminate it in the real show?
    Mr. Thompson. Absolutely no.
    Mr. Cartwright. Okay. So that the statements you made to my 
ranking member still hold true, that the advertising helps 
reassure people that cooperating with the Census is safe and 
will not hurt them?
    Mr. Thompson. Right. We have found there are two components 
to that. One is, you know, advertising, media, different kinds 
of media that you can reach people. And the other one is 
getting people, local people, our people to work with local 
people and organizations to get the word out locally.
    Mr. Cartwright. And forgive me if I missed it, but then why 
would you not do that in the 2018 end-to-end test? Would you 
not want to replicate the same circumstance that you are going 
to use in the actual Census?
    Mr. Thompson. So we made a number of really difficult 
decisions in 2017 and Congressman Serrano mentioned some of 
them. We had to delay some tests. But again, our focus was on 
risk mitigation or minimizing risk. And we saw the biggest risk 
was our systems. We also saw that those were the source of our 
greatest savings for the 2020 Census.

                             CYBERSECURITY

    Mr. Cartwright. Another thing I want to raise is something 
that Mr. Powner brought up, and that is you said security plans 
need to be developed. And if you are going to advertise to 
people that it is safe, and your cybersecurity will not be 
violated, it has to be true. So did you hear his comment when 
he said security plans need to be developed? And are they?
    Mr. Thompson. So I would like to turn this over to our CIO, 
Mr. Kevin Smith, who is responsible.
    Mr. Cartwright. Certainly. Thank you, Mr. Smith.
    Mr. Smith. Thank you, Congressman, for the question. So as 
Mr. Powner said, the security systems are of utmost importance 
to the Census for public trust as well as public confidence. 
There is a federal process we go through for authorities to 
operate, which he has mentioned, that there is a business 
official which is the Head of Decennial, and me as the 
technical official, the CIO of the organization. Where we have 
a third party assess all of the materials provided by the 
developers of the systems who are supporting the systems to 
verify and validate that they have done all the due diligence 
possible to secure the systems. And we go through a regimented 
process of data collection to ensure we have everything in 
place to protect the data before it's done. And that official 
process we share transparently and openly with GAO on these as 
they go forward.

                       AMERICAN COMMUNITY SURVEY

    Mr. Cartwright. All right. I appreciate the chairman's 
indulgence. I have one more question. It's about LGBTQ 
questioning on the American Community Survey. In response to 
letters from more than 75 members of Congress asking that 
questions about sexual orientation and gender identity be 
included in that survey, Mr. Thompson, you wrote that your 
review of the matter concluded there was no federal data need 
to change the planned Census and the survey subjects. Now HHS, 
HUD, and the Department of Justice have all requested that 
sexual orientation and gender identity questions be included in 
future surveys. From many non-Census surveys that have been 
done we know that LGBT people face higher levels of poverty, 
particularly older LGBT people. And that LGBT young people are 
more likely to be homeless. And if we can't see the needs of 
the LGBT community from the Census results, we cannot design 
policies to respond to those needs. Mr. Thompson, how did you 
determine that there was no federal need for this information?
    Mr. Thompson. Thank you, Congressman. I really appreciate 
you asking that. And first let me state that what we said was 
there was not a federal need to have it included on the 
American Community Survey. We were focused on that alone and 
did not address any other federal purposes. But the process we 
go through to put any question or topic on the American 
Community Survey is very formal, and that is the Census Bureau 
facilitates what goes on there. We do not determine the 
policies. We are a statistical agency so we collect, our 
mission is to collect objective data. But having said that, we 
work very closely with many other agencies to solicit from them 
what information they would want to see on the American 
Community Survey. As doing such, we have a very formal process 
that we go through with the Office of Management and Budget to 
work through requirements to determine if something should go 
on the American Community Survey. When we finished our 
assessment of those needs, we did not find the supporting 
information from federal agencies to include that information 
on the American Community Survey.
    Mr. Culberson. Thank you, Director. Ms. Meng.

                               LANGUAGES

    Ms. Meng. Thank you, Mr. Chairman. And thank you, Mr. 
Ranking Member. I wanted to echo our ranking member's comments 
about some groups being undercounted and how we always strive 
to do better. My question specifically relates to my district, 
which is one of the most diverse districts in the country, but 
it also relates throughout the country where there are many 
various communities and groups that have traditionally been 
undercounted. For example, to reach my constituents you would 
need field staff with a wide range of language capabilities. So 
I was curious about the recruitment and the hiring process, and 
how they take these language needs into account.
    The second part of that question is specifically about the 
American Community Survey, which is not currently translated 
into any Asian languages. It is translated into Spanish. On the 
ACS, for example, one of the questions is, how well do you 
speak English? But that question is written in English. And so 
any respondent or any of our constituents who cannot read 
English or have limited English proficiency, would have 
difficulty in even answering this question. What would it take 
for the Bureau to expand the number of languages translated for 
the American Community Survey?
    Mr. Thompson. So let me hit the first part of your question 
about recruiting. So as part of our Census recruiting process, 
our goal, and we really focus on this, is to recruit locally. 
So that we send people into the neighborhoods that are 
representatives of the neighborhoods, and understand the 
culture of the neighborhoods, which would include speaking the 
languages of the neighborhoods and knowing the appropriate 
times or the appropriate ways to contact people in 
neighborhoods. So a key focus of our recruiting is to hire 
people with the right language skills to go into neighborhoods.
    We also have expanded our language program for the 2020 
Census from 2010, for 2020 from 2010. I believe we had two or 
three languages that you could self-respond in in 2010. Now we 
have ten at least and we might be able to increase that a 
little bit. We are doing some more work on that.
    In terms of the American Community Survey, it is always an 
issue of balancing the amount of money we have for that survey 
and the budget is very tight in terms of do we do data 
collection, do we do translation. But we have heard from a lot 
of constituents that there is, there are emerging needs for 
languages. So I would not say no, I would not say yes. But we 
certainly take communicating with our respondents very 
seriously. And at a minimum we do send, we do send people in 
person that do have the language skills to get the job done.

                           ADDRESS CANVASSING

    Ms. Meng. My second question is I know the GAO study 
mentions increased use of, for example, verifying addresses by 
use of aerial imagery. I am specifically concerned about urban 
areas, for example, or areas with newer developments. There are 
many types of unconventional housing, let us say, people living 
in basements or attics, people living in multifamily housing 
where it looks like it is a single family but it has four 
doorbells on the front door that you might not be able to see. 
In some communities you might have a room and there are five to 
ten people living in there. So what are some ways that we can 
better analyze those numbers?
    Mr. Goldenkoff. Is that to----
    Ms. Meng. Either.
    Mr. Goldenkoff. Well I would just like to say, well first, 
I would be remiss if I did not say I was born in Forest Hills. 
So I appreciate the enumeration challenges there. But, you 
know, certainly in an area that is diverse, and you are 
talking, it is not just about data collection and translation. 
It is also having familiarity. It really starts with the very 
front end of the Census when you are building the address list, 
the master address list. Because that is sort of the control 
unit for the Census. And so if you are excluded from the 
address list initially, then it is going to be harder for the 
Bureau to find you down the line. It does not mean that they 
will not find you, but it just makes it more difficult.
    And so that is one of the concerns that we have. It 
certainly makes sense to go to these in-office procedures, 
because there are some cost efficiencies there, but what is not 
clear are, you know, do administrative records about a 
particular housing and address, records from the Post Office--
for example, aerial imagery--are they sensitive enough to 
capture those people who are, you know, living in basements or 
attics or--and that is right now, the big unknown.
    And, you know, we are waiting on the results of a test that 
the Census Bureau conducted to see, is it sensitive--are these 
in-office procedures sensitive enough to capture people living 
in these unconventional living arrangements.
    Ms. Meng. Do you have any updates, Mr. Director?
    Mr. Thompson. So, let me make it clear what we are doing 
here. Our goal is to find areas that are very, very stable in 
terms of the housing unit stock and those, we believe, we do 
not have to canvas. If we have any doubt about the stability, 
like if something has been built, somebody has moved in, 
somebody has moved out, any kind of--and that could be from 
changes in the Post Office addresses or other sources--if we 
have any doubt, then we will go to canvas it in person. That is 
our goal.
    And so right now, what we have been seeing--that is what 
our estimates are based on, is what we are seeing, in terms of 
what we predict as stability. As Robert said, we are also, 
though, doing some work where we are actually sending some 
people out to look at those units that we think are stable to 
make sure that, in fact, they are.
    Ms. Meng. Okay. Thank you.
    I yield back.
    Mr. Culberson. Thank you.
    Thank you, Director.
    Mr. Kilmer.

                         ADMINISTRATIVE RECORDS

    Mr. Kilmer. Thanks, Mr. Chairman. Good to be back with you.
    Mr. Culberson. It is good to have you.
    Mr. Kilmer. Thanks for being with us.
    I want to start with a question, Mr. Powner. Congressman 
Farenthold and I recently introduced a bill called the OPEN 
Government Data Act, which is focused on making government data 
more available both, to the public and to federal agencies, to 
try to drive innovation, to try to drive efficiency within the 
federal government.
    I kind of want to get--you know, as you are--you know, 
obviously, the Bureau, when it collects new data, it also 
utilizes data that the government already has. And I want to 
just get a sense from you, to what extent does that ability to 
access and use datas that other federal agencies are already 
collecting, reduce costs and drive efficiency within the 
agency's mission?
    Mr. Powner. I am going to let Robert take this.
    Mr. Goldenkoff. Sure. No, it is something that it makes 
sense; obviously, if the government already has that 
information on file, why not repurpose it? But, again, just 
like the new procedures for building the master address list, 
the question is the limitations of those and there are certain 
populations that are not always covered by the different 
administrative records.
    And so it just misses--you know, what it gets back to is 
the importance of tests. And all these things are great ideas, 
and we said in our statement here, they do show promise for 
significant cost savings, but we need to make sure that going 
into the census that they are going to function as planned.
    And so we know that there are some limitations to the 
administrative records. They do have promise for, for example, 
determining whether a home is vacant or not. So, in the past, 
the Census Bureau would send an enumerator out to a household 
multiple times and if that house was vacant, if you can 
determine that from postal information, from IRS records, then 
you can see the potential for the cost savings.
    What is not known is how well those procedures work in 
under operational conditions, and so that is why it just comes 
back to rigorous, rigorous testing.

                             CYBERSECURITY

    Mr. Kilmer. Okay. I know my colleague, Mr. Cartwright, 
asked about cybersecurity and, Mr. Smith, I kind of want to 
just touch on that a little bit more because obviously the 
threat of cyber attack is significant.
    And, you know, the federal government has had challenges 
hiring people with cyber expertise. Are--is the Census Bureau 
leaning on the private sector, looking at partnerships for 
trying for address these sorts of problems? And I just want to 
get a--I just want to double-click on that a little bit more.
    Mr. Smith. Absolutely, Congressman. I appreciate the 
question.
    So, we are actually, in the census, not going about the 
cybersecurity challenge on our own; we have public and private 
partnerships. So, we are directly connected with the Department 
of Homeland Security to help assess what we are doing and test 
what we are doing and help make recommendations to make it more 
secure.
    We are also working with private industry through our 
contracts, as well as through third parties, we have that test 
our systems and the security of them. So, as Mr. Powner 
mentioned earlier as well, some of the staff that is being 
hired is from the contractor side to ramp-up to get ready to do 
the security things we need--excuse me--the security things we 
need for due diligence to make sure that we are prepared.
    But we engage within the Census Bureau to compliment the 
skills that are hard to retain in the federal government 
through contracts. There is definitely a salary difference 
between private industry and federal government, which we go 
through those challenges, and part of that is to have the right 
staff support, with a blend of federal employees and 
contractors to help you meet the goals and get the right skills 
in place.
    Mr. Kilmer. Thanks.

                       AMERICAN COMMUNITY SURVEY

    I guess, finally, for Mr. Thompson, I won't re-ask the 
question that Mr. Cartwright did about questions around sexual 
orientation and gender identity within the American Community 
Survey, other than to just say, I joined 71 of my colleagues 
last year in a letter to you asking that those--that that 
information be included.

                              RURAL AREAS

    You have heard from a number of my colleagues around--on 
questions around underrepresentation. And I represent a 
district; we have 77,000 military veterans, a lot of whom live 
in rural areas and, you know, their ability to access important 
federal programs, whether it be education programs or medical 
programs or what have you, is often tied to the census.
    And in the past, rural communities have often been 
undercounted by the census and I just wanted to get a sense 
from you, sort of the flipside of Ms. Meng's question who, you 
know, her concern is urban. I understand and appreciate that 
concern for the cities I represent, but what steps are the 
Bureau taking to ensure that rural counties are fully counted 
in the 2020 Census?
    Mr. Thompson. So, thank you very much.
    So, we do not use the same procedures for the census 
everywhere, so depending on the degree to which an area is 
rural, we will use different techniques--and by ``rural,'' I 
mean the addressing schemes and the sparseness of it. We will 
use different techniques tailored to those areas to make sure 
that we count everyone.
    Sometimes it involves a procedure called ``update leave'' 
where we would walk around physically to the areas and leave a 
questionnaire. In other areas, it is something that we refer to 
as ``update enumerate,'' where we actually walk around and try 
to knock on the doors and get people to respond directly.
    But the idea is that we want to cover the whole country and 
we want to do it well and we will go back the right number of 
times to make sure that we get an accurate count.
    Mr. Kilmer. Thanks, Mr. Chairman.
    Mr. Culberson. Thank you.

                             CYBERSECURITY

    I want to follow-up on the cyber question that Mr. 
Cartwright and Mr. Kilmer mentioned to you, Mr. Smith. You said 
you consult with third parties to verify the security of your 
IT products and the websites. What third parties are you 
referring to? I hope you are talking to the FBI about how to 
secure your website and make sure that your IT is secure.
    Mr. Smith. Thank you, Chairman, for the question.
    So, I am not going to give vendor names that we are working 
with, but through the process of security, you have----
    Mr. Culberson. You have private vendors?
    Mr. Smith. Yeah, you have private vendors come in and test, 
try to break in to the systems----
    Mr. Culberson. Right.
    Mr. Smith [continuing]. Test the validity of certain 
artifacts. So, we have those relationships.
    I will say within the federal government, I am working very 
strongly with the Department of Commerce to help us get 
relationships with these other entities to work with. Right now 
we are working very tightly with the Department of Homeland 
Security. We are very open to working with other bureaus, like 
the FBI, other ones that make sense; we just have to move 
forward with those relationships. Right now, we are only 
working with the DHS and the DOC on some of those endeavors and 
the public's face.
    Mr. Culberson. We have a lot of faith in the FBI's cyber 
work; they really do superb work. I would highly recommend that 
you consult with the FBI.
    Mr. Smith. Absolutely.
    Mr. Culberson. I am very concerned because when the website 
for ObamaCare was rolled out, it melted down almost 
immediately. You are going to have a whole lot more traffic.
    Mr. Smith. Oh, yeah.
    Mr. Culberson. That is a big concern. What steps are you 
taking to make sure you are not going to have a meltdown?
    Mr. Smith. Okay. I appreciate the support on the engagement 
with the FBI and we will go through with that. The steps that 
we are taking, there is a very strong balance between the 
performance of a system and the security of the system. And so 
what we have done is take a very layered approach and we have 
isolated parts of the system as much as possible, so when 
someone responds over the internet, we can apply the right 
security parameters to each one of these layers to not hinder 
performance. And it is just the way you go through design and 
architecture to make sure the system is going to be resilient 
and stay online.
    So, we are taking the steps to do that, instead of making 
all of the system in one big space, where if you applied too 
much security to it, it could bring the system performance 
down, we are isolating it at the right levels to make sure the 
benefit is to the end-user responding, as well as the security 
we have to put in place.
    Mr. Culberson. Mr. Powner, could you----
    Mr. Powner. Yeah, if I could just----
    Mr. Culberson. From your perspective, what----
    Mr. Powner [continuing]. Make a suggestion here? So, also, 
when you look at the chief information officers across the 
federal government, we do have, typically, a federal CIO out of 
the White House. That is an unfilled spot currently with the 
current administration, but we have a CIO council that 
coordinates on these issues.
    So, for instance, when you look at sharing a best practices 
in the cyber area, DHS is a good place to start. When you 
mentioned FBI, those connections through the CIO council and 
the federal chief information officer is very key, where you 
can build those types of relationships across agencies to make 
sure that we are doing the right thing. That hasn't always 
worked well, but that is what we really need to strive to do so 
that there is that sharing.
    Mr. Culberson. Yeah, Homeland Security would be another 
good one, but in the absence of someone filling that position, 
I hope you just reach out on your own.
    Mr. Smith. Absolutely. And I am supporting Mr. Powner's 
comments, as well, yeah.
    Mr. Culberson. Could I ask, have you evaluated the security 
steps that the census has taken to secure the information on 
their IT systems, on their website, and could you comment?
    Mr. Powner. So, when you look at the 50 systems that they 
have, they do have a process that, you know, they sign off that 
this is secure to test or to operate. But when you do the 
back--when you step backwards from that signature, you have to 
have plans. You have to do the appropriate control assessments. 
And, you know, Mr. Smith mentioned penetration tests; that is 
very key, especially for public-facing systems, and I know they 
are doing that.
    So, for all those systems, what we are looking at GAO, do 
they have the plans and the appropriate assessments and then is 
that signoff appropriate, given the risks that are disclosed? 
There is going to be some holes and issues--we are not looking 
for perfection--but you want to make sure that, especially--I 
think there is close to two-thirds of those 50 systems contain 
PII information, personally identifiable information--you would 
want to crank up the security control there.
    Mr. Culberson. Absolutely.
    Mr. Powner. So, that is where we kind of look at that. It 
is almost like certain things are more important public-
facing--those that have PII--so, we are evaluating that and 
having a good conversation with his office as well as----
    Mr. Culberson. Okay. Good. Keep us posted. It is really 
important----
    Mr. Powner. Yeah.
    Mr. Culberson [continuing]. To protect the privacy of our 
constituents'----
    Mr. Powner. Absolutely.
    Mr. Culberson [continuing]. Personal information.

                              ADVERTISING

    And I think Mr. Cartwright is also correct about the 
advertising--and my colleague, Mr. Serrano as well--to make 
sure that you are communicating effectively with the public to 
know that they can participate, that it is safe, and that it is 
secure. I understand you are going to be sending out emails as 
well. Will you be doing emails as well to people?
    Because if I get an email with an embedded link in it that 
is asking me to click on a link to go somewhere to do 
something, that is an instant red flag; I throw it in the trash 
if I do not know who it is from.
    Mr. Smith. Thank you for the question.
    So, as I mentioned before, the communications, there is 
coming back with a plan of action to move forward. We are also 
engaging, as I said, with the Department of Homeland Security. 
And we are in--the CIO office, myself, is in very tight 
communications with the decennial office to discuss the type of 
communications we can provide in support of the census, but 
also in support of the right secure communications. We are 
going through the evaluation of those steps right now to see 
which ones make the most sense and which ones do not.
    But your point is very valid, just emails do offer up an 
ability for fishing and other things that could happen, where 
we just have to evaluate what is in the best interests of the 
census.

                              COST SAVINGS

    Mr. Culberson. Director Thompson, the Census Bureau has 
estimated more than five billion in savings for the 2020 
Census; do you think those savings will materialize?
    Mr. Thompson. So, I am very confident in achieving 
significant savings for the 2020 Census right now. And the 
reason I am confident in that is if you look at where the cost 
increases for the census have come, they have come from the 
complexity for the most part. They have come from the 
complexity of conducting the operation to collect the 
information from those that do not self-respond with paper and 
pencil, and that has become increasingly more difficult.
    And the only way you can deal with that in a country as 
diverse as ours and growing diverse, is you have to throw more 
bodies at it. So, we are on track to automate that operation--
get rid of pencil and paper--and that is going to generate 
significant cost savings.
    Mr. Culberson. What level of cost savings? You estimated 
five billion.
    Mr. Thompson. Right. Right.
    Mr. Culberson. I am looking for a number.
    Mr. Thompson. That is our current estimate right now. That 
might change over the summer.
    Mr. Culberson. Okay.
    Mr. Thompson. But there will be significant--I am confident 
there will be significant cost savings.
    Mr. Culberson. That is a good thing. Thank you.
    I want to ask Mr. Powner and Mr. Goldenkoff to comment on 
that. How confident are you that they will be able to achieve 
that five billion in savings?
    Mr. Goldenkoff. I will--I think we would say it is at risk 
and it is starting to erode and the extent to which is unknown, 
but we have started to see some cost increases and one of two 
things, I think, will happen. Either more money needs to be 
added to it or, as Director Thompson mentioned, they start 
doing offsets, looking for cuts elsewhere. And those cuts can 
prove to be a false economy, because they could lower response 
rate down the line, particularly, in undercounted populations.
    So, you know, the specific number at this point is--I 
cannot say, but it is definitely at risk.
    Mr. Powner. Yeah, I think it is highly likely that the cost 
overruns, from a technology point of view, are going to eat 
into that five billion. I think that is highly likely.
    I think the question is, this is doable even with tight 
schedules and securing this and the whole bit. But I think the 
issue is, at what cost? And, historically, if you look at the 
previous decennials, there has been a lot of money thrown at 
this late to bail out late starts, mismanagement, and other 
things and I think you are potentially heading down that path 
again.
    Mr. Culberson. It just cannot happen. We just cannot do 
that this time.

                       IMPROVING COST ESTIMATION

    What, Mr. Goldenkoff, steps could the census take to 
improve its cost-estimation methodology?
    Mr. Goldenkoff. Well, the--you know, if you look at the--
our criteria, our characteristics, as I mentioned, need to be 
comprehensive, well-documented, accurate, and credible. And in 
each one of those areas, I mean we have some specific things 
that the Bureau can do better. For one thing, for example, in 
the area of documentation, the Bureau did not show certain 
calculations. The Census Bureau did not show how sources of 
information were incorporated in the area of being 
comprehensive, which just gets at whether or not it is 
inclusive of all the different costs.
    You know, some of the things that we saw was it was unclear 
if the--well, just all the different costs were included in it 
and it seems now that there are--now we know that there are 
some things, at least in the estimate, that we looked at, were 
not included.
    So, it is basically continuing to follow those leading 
practices and is also, as Director Thompson mentioned, too, 
subject-matter experts are important, but you need people, 
continue to rely on people with cost-estimation expertise----
    Mr. Culberson. Absolutely.
    Mr. Goldenkoff [continuing]. And they take the advice of 
the subject-matter experts. But at the end of the day, it is 
the cost estimators that need to weigh in.
    Mr. Culberson. The census is so important. We want to make 
sure it is done right and that you stay on budget.
    Mr. Serrano, I would really like to work with you in 
working with our authorizers. Congressman Meadows chairs that 
subcommittee--I am not sure who the ranking member is--but 
let's work closely with them, share ideas, put our heads 
together, and see what we can do. I look forward to working 
with you on that.
    And I recognize you, Mr. Serrano, for follow-up.
    Mr. Serrano. Thank you so much. Thank you.

                        RACE AND HISPANIC ORIGIN

    One of the issues that has been discussed in our community 
a lot is this whole issue of combining race and Hispanic origin 
questions into a single question. Some claim people as 
prominent as the NALEO, the National Association of Latino 
Elected Officials, claims that it is a--they believe that a 
``combined question with a detailed checkbox'' approach holds 
great promise as a means for producing less nonresponse, and 
fewer ambiguous and inaccurate responses.
    On the other hand, there are some folks who think that it 
may not help in getting a clear picture across the government 
in terms of who the people are. So, what made you go in that 
direction? How long has this been discussed, and secondly, is 
it a set situation? Is it going to happen? Is it being tested? 
And are you fearful of some of the things that have been put 
forward and supportive of some of the things--positive--that 
have been said.
    Mr. Thompson. Let me first make sure that you know NALEO is 
on our national advisory committee and they are well-
represented; they are there at each meeting and they have been 
giving us advice on this.
    So, our work on this started with the 2010 census, when we 
looked at testing a combined question. Those results proved to 
be very promising in 2010, but they also had some issues 
associated with them that were well-documented through our 
research.
    So, we have designed a program throughout the decade that 
culminated with a test in 2015. We called it our ``national 
content test'' and this test looked at, extensively, at 
different ways to use the combined question that would ask race 
and ethnicity in different ways, compared to asking two 
questions. We have finished that test. We have documented the 
results.
    What we found was that an optimum question design would 
include a question on--a combined question. Because we saw much 
more detailed reporting and we saw very, very accurate 
reporting. But, importantly, another milestone has just 
occurred, and that is--we do not do this unless we have been 
working with the Office of Management and Budget, who would 
have to look at the standards on how you collect race and 
ethnicity--and they just closed a federal register notice on 
this topic. And a number of comments have been received 
regarding the combined questionnaire.
    And we are now into the next steps, where we are going to 
work with OMB to evaluate the comments and put forward a 
proposal, based on those comments, for the race and ethnic 
question for 2020.
    Mr. Serrano. Are you at liberty of telling us what their 
concerns are--what they would be?
    Mr. Thompson. Oh, yeah. No, no, there will be a formal 
response to the comments that come into the federal registry 
notice that will be issued. Each comment must be addressed in 
terms of the deliberations that come about. So, that will be 
there.
    I cannot speak for OMB, but I am sure they will want to 
make the comments that they received as publicly available as 
possible.
    Mr. Serrano. Yeah. Please understand I am not suggesting 
that I oppose this approach, but my question is trying to get 
at, what was the problem that we are trying to fix by doing it 
this way?
    Mr. Thompson. So, one of the issues that we saw was that in 
previous censuses, if we used the two-question format, which 
meant asking Hispanic ethnicity first and then asking race and 
origin, the census has a unique dispensation to ask an other-
race category. And we were seeing the other-race category be 
about, maybe the third-biggest race category, and that was 
because a number of Hispanic respondents would answer ``other 
race'' and write in a Hispanic characteristic like ``Latino'' 
or ``Mexican.'' And then that, you know, does not coincide with 
the OMB definition of race, so that is some other race, but we 
would count them as Hispanic from that response.
    But what we saw was there was some confusion there, and so 
by going to the combined question, we see that we are 
eliminating that confusion. We are also, by the way we have 
designed the combined question, we are getting much more 
detailed responses across race and ethnicity for almost all the 
racial categories.
    Mr. Serrano. So, you would ask: Are you Hispanic? And that 
would be the end of that issue?
    Mr. Thompson. Well, there would be more details to it, I 
mean, are you Hispanic, and then there would be options, you 
know, Latino, Mexican-American.
    Mr. Serrano. I understand.

                             BUDGET REQUEST

    Now, the budget request from the President's so-called 
``Skinny Budget'' for fiscal year 2018 includes $1.5 billion 
for the Census Bureau. This is a very modest increase of only 
$30 million above the amount in the fiscal year 2017; however, 
the request is also a full $133-and-a-half million below 
President Obama's request for the previous year.
    At this point in the decade, particularly given the very 
substantial investments and information technology and field 
infrastructure that will be needed to ensure that the 2020 
Census stays on schedule, shouldn't the fiscal 2018 budget of 
the Census Bureau be much higher than the amount proposed?
    And that is the question. I mean I know it is a direct 
contradiction to Mr. Chairman, who wants it to cost less, but 
my concern is counting everyone, and maybe I am sounding like a 
Democrat--we will worry about the costs later--you know, ha, 
ha. That is so important, because as we said before, Mr. 
Cartwright, you get a good count, you bring dollars into 
communities throughout the country. Those dollars do not sit in 
somebody's bank account; those dollars get used by an 
infrastructure and schools and creating different situations.
    So, the dollars do not die; they move within the economy.
    You know, I find that it has been a while, but we find that 
when we have people who are either still around from the old 
Administration or people who have situations where they have a 
certain amount of time to stay, it is always very careful how 
you ask the questions, because nobody wants to upset the 
President; that is not a good person to upset, but anyway--or 
the Chairman for that matter. That is why I think he is the 
greatest Chairman in the House.
    Any comments on the budget that you are free to make?
    Mr. Thompson. Sure.
    Mr. Serrano. Well, you are free to make whatever----
    Mr. Thompson. No, no, no. So, I think it was--we thought it 
was very, very important at the Census Bureau, that in that 60-
page base--or so, blueprint, that the 2020 Census was mentioned 
as a priority. I think that may have been one of the few 
domestic programs that was mentioned as a priority. We were 
ecstatic that that was the case, because it demonstrates the 
Administration's commitment to a fair and accurate 2020 Census.
    Secretary Ross has also made it very clear that one of his 
top priorities is a fair and accurate 2020 Census. So, we are 
really enthusiastic.
    But the next step will be--I am not going to get ahead of 
the President's budget, you know, coming before the committee, 
but after the President's budget comes before the committee, we 
would be delighted to work with the committee on what we are 
going to do within the scope of that budget and discuss with 
you exactly what will happen. So, we are really looking forward 
to that.

                            U.S. TERRITORIES

    Mr. Serrano. Okay. One last question, Mr. Chairman. I don't 
know, Mr. Thompson, if you yourself were involved in this or if 
you remember when I asked that question years ago of why the 
territories' populations were not included in the final number 
for the United States. You know, I have relatives in Puerto 
Rico who do not get counted in the final number. I get counted 
in the final number.
    If I move back to Puerto Rico tomorrow, I do not get 
counted in the final number. And I remember that part of the 
argument was by some people that it was not constitutional. To 
your knowledge, is that still the argument, that it is not 
constitutional or is it a matter of we haven't done it that 
way, so we are not going to change it?
    Mr. Thompson. I would have to research whether it is 
constitutional or not. I do know that has been a concern that 
you have expressed. It was expressed back, even in 2000, and I 
cannot remember what the resolution--I remember what the 
resolution was in 2000.
    Mr. Serrano. Yeah, they did not get counted in the total 
population.
    Mr. Thompson. Right. I would say, though, that there is 
still time, as we move towards 2020 tabulations to discuss that 
issue. I mean we haven't finalized the set of tabulations 
exactly yet, so that could be discussed.
    But, again, that would--I would really have to look at what 
are the issues associated with that. I do not--I am not 
prepared to say if it is constitutional.
    Mr. Serrano. And I know--and by the way, I know you have 
issues that could be considered, could be by many people, much 
larger than the one I bring up, but, you know, we talk about 
accuracy.
    And, Mr. Chairman, when we put forth the population of the 
United States as such, that is not true, because we are not 
counting the Virgin Islands and the Northern Mariana Islands 
and so on. And if Congress has seen fit to--without a vote, 
unfortunately--but seen fit to have a representative from those 
territories vote in committee and so on, then why cannot the 
census, you know, reflect that population and those Americans 
that live in those territories?
    Mr. Culberson. The Constitution says that it shall take 
place; it is required by law enacted by Congress, so it is up 
to us to decide.
    Mr. Serrano. Right. And I know and see the--I know the 
tricky part here could be that it says you must count the 
people amongst the states and they are not states----
    Mr. Culberson. Uh-huh.
    Mr. Serrano [continuing]. But it did not say that they were 
going to be American citizens.
    Mr. Culberson. Uh-huh.
    Mr. Serrano. They did not envision American citizens living 
in anything other than states and now they live in territories.
    Mr. Culberson. Right. Right. I would imagine it is a pretty 
broad band of authority to Congress to define those kind of 
questions.
    Mr. Serrano. Let's do it. Count my cousin.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And I want to 
thank you, Mr. Chairman, for holding this hearing. This is so 
important in terms of accuracy and cost-effectiveness.
    Mr. Culberson. Yeah, I hope each one of us will take the 
time to go and visit with the authorizing subcommittee and 
compare notes on what they have learned and figure out what we 
can do together to enhance the accuracy of this census.
    Mr. Cartwright. Now, Mr. Chairman, you have used a phrase 
over and over about our hard-earned and scarce tax dollars. I 
like that a lot.
    Now, you are a fan of Thomas Jefferson. He wrote his own 
epitaph on his tombstone and I am wondering if you have left 
instructions for those words to be on yours. You do not have to 
answer that, Mr. Chairman.
    But I am in full agreement that our tax dollars are hard-
earned and scarce and that is why it is so important that we 
get a cost-efficient census and an accurate one.

                               UNDERCOUNT

    And Mr. Smith, this follow-up question is for you. You have 
successfully identified yourself as the computer geek in the 
room. I am pleased that the Bureau is seeking to increase 
efficiencies and decrease costs by taking advantage of 
technological advances, but I do have a concern that this may 
disproportionately help certain well-connected communities--I 
do not mean well-politically connected; I mean well-
cyberconnected communities, which could result in a relative 
undercount of some rural or poorer communities with less 
internet access or utilization.
    Mr. Smith, can you address how you will ensure that 
respondents without the means to access the internet will not 
be undercounted?
    Mr. Smith. Well, thank you, Congressman for your question.
    Part of this is a balance of the technology solutions in 
place to help automate functions and improve the self-response 
in certain areas. But, absolutely, from places that do not have 
a high-interconnectivity rate from the self-response side, we 
will have to offer different ways from the self-respond.
    But from the enumeration side, when we have designed----
    Mr. Thompson. Can I--let me jump in just a little bit, 
because I have been working on the design of this.
    So, we realize that not everyone has access to the internet 
and so we have been analyzing data, using data from our 
American Community Survey and some other data to identify areas 
where we should just mail a questionnaire out to begin with. 
So, about 80 percent of the households in 2020, we estimate, 
will just receive a questionnaire right at the start and say, 
well, if you want to use the internet, you can, but here's a 
questionnaire, fill it out and send it in.
    [The information follows:]
                      clarification for the record
    The Census Bureau would like to clarify Director Thompson's 
statement about the number of households that will receive a paper 
questionnaire. In his testimony, he stated that 80 percent of 
households would receive a questionnaire. The correct figure is 20 
percent.

    Ultimately, every household, if they do not respond, will 
get a chance to respond on the paper questionnaire. But in 
addition to that for this census for the first time, we are 
also offering the opportunity to call in and give your 
interview over the phone; so that is new for the census. So, we 
are offering just lots of different ways for individuals to 
self-respond.

                          GAO RECOMMENDATIONS

    Mr. Cartwright. Okay. The last question I have is on the 
steam that the chairman has opened up with. And we want you 
folks to work together and we want you arm in arm going through 
this process.
    I have served on the Oversight and Government Reform 
Committee for four years and I have seen a lot of the GAO folks 
and they are helpful. They are not annoying efficiency experts 
who are coming to count your paperclips; they are there to help 
you.
    And one concern I had was the February 2017 GAO high-risk 
report raises significant concerns about the Bureau's ability 
to conduct a cost-effective census, primarily because of 
unsubstantiated cost estimates, new unused innovations, 
critical IT uncertainties. Over the past three-plus years, GAO 
has made no fewer than 31 recommendations to help the Bureau 
create and implement a more efficient and accurate census for 
2020, but only five have been implemented as of May 2017.
    So, Director Thompson, we want to see more cooperation and 
not less and five out of thirty-one is a lot less than I 
expect. Will you commit here today to work more closely with 
GAO?
    Mr. Culberson. And I wholeheartedly agree and second that.
    Mr. Thompson. Of course. I mean, we value our relationship 
with GAO. Let me also say that we have prepared an action plan 
for each of the recommendations we received and we have a 
schedule to roll out the result of that action plan and resolve 
the issues.
    Some of the issues we are going to resolve as part of the 
plan for the 2018 end-to-end test. Some other--and I am not 
trying to dodge the issue--but some of the recommendations are 
of longer range and they can only be resolved by doing the 2020 
Census.
    But we are working with GAO to make sure that we are in 
agreement on the schedule for resolving those recommendations 
and we have the recommendations that we have got.
    Mr. Cartwright. Thank you.
    I yield back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Cartwright. Great questions.
    And we obviously want to make sure that you have the 
resources you need to do an accurate and fair enumeration of 
the American population. I want to work closely with all of the 
Subcommittee to find ways to ensure that you are weaving GAO 
into your day-to-day operations. That you are being absolutely 
transparent with us, with the American taxpayers, and with the 
GAO so we know right away if there is going to be a problem. 
That is really important and I wholeheartedly second what Mr. 
Cartwright just said; five out of thirty-one is just not 
acceptable.
    Ms. Meng.

                            KOREAN AMERICANS

    Ms. Meng. Thank you. Director Thompson, I have a specific 
question regarding Korean Americans in this country.
    I have a substantial number of Korean-speaking constituents 
in my district and according to the American Community Survey, 
76 percent of those constituents do not speak English very 
well. With that in mind, I am concerned about the Bureau's 
ability to accurately capture information from and about this 
population.
    I understand that there were almost no Korean responses 
returned or obtained during the 2016 Census test run. If that 
is true, how are you measuring the adequacy of your Korean-
language preparedness and when can we expect the release of the 
full results from the 2016 Census test?
    Mr. Thompson. Let me check. So, we are--we plan to offer 
for this census, self-response options in Korean, both internet 
and paper responses, to assist in their enumeration. We--in the 
2016 test, we did get Korean responses, but they came in on the 
English forms, as opposed to the Korean forms----
    [The information follows:]
                      clarification for the record
    The Census Bureau would like to clarify Director Thompson's 
statement about 2020 Census self-response options. In his testimony, he 
stated the 2020 Census will offer self-response options in Korean, both 
internet and paper responses. The 2020 Census does not plan to offer a 
Korean self-response paper option.

    Ms. Meng. Yes.
    Mr. Thompson [continuing]. Which means that where we 
tested, possibly were in areas--even though we tried to get a 
diverse population where people did have the ability to speak 
English.
    Ms. Meng. Okay. Thank you.
    I yield back.
    Mr. Culberson. I will submit the remainder of my questions 
in writing.
    And Mr. Serrano.
    Mr. Serrano. I will do the same.
    Mr. Culberson. All right. Very good.
    I want to truly thank each and every one of you and your 
staff for your service to the country and I look forward to 
working closely with you to ensure that there is a fair, 
accurate census and that you achieve all those savings you have 
identified and perhaps even more.
    Thank you very much and the hearing is adjourned.
    
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
      

                                            Tuesday, June 13, 2017.

                         DEPARTMENT OF JUSTICE

                                WITNESS

ROD J. ROSENSTEIN, DEPUTY ATTORNEY GENERAL
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order.
    Deputy Attorney General Rosenstein, it is a pleasure to 
welcome you today to your first appearance before the committee 
as we consider the President's 2018 budget request for the 
Department of Justice. We appreciate you being here, and we 
especially appreciate your service to the country.
    We are particularly indebted to all of our Federal, State, 
and local law enforcement officers and honor them for their 
tireless, invaluable, and courageous service to keep the people 
of the United States safe and sound in our communities and our 
country.
    Last month, we observed National Police Week. The lowering 
of American flags to halfstaff on Police Officer Memorial Day 
was a vivid reminder of the sacrifice and the risks undertaken 
every single day by our men and women in uniform in the law 
enforcement community who put themselves at risk to keep us all 
safe.
    Our committee is arm in arm in our determination to do 
everything in our power to support our men and women in 
uniform, to ensure that they are protected, that they have 
everything that they need to help them succeed in their vital 
mission of protecting American lives and property.
    Deputy Attorney General Rosenstein brings to his position a 
distinguished record of public service within the Department, 
including most recently as the U.S. Attorney for Maryland. I 
admire the energy that you and Attorney General Sessions are 
bringing to the Department and encouraged to see your 
leadership in addressing such critical issues as immigration 
enforcement, border security, restoring respect for the rule of 
law above all, because we all know our liberty lies in law 
enforcement, in the work that you do in fighting terrorism, in 
taking a reinvigorated and strategic approach to combating 
violent crime and targeting offenders, and in supporting our 
State and local law enforcement officers.
    In fiscal year 2018, Mr. Rosenstein, this subcommittee will 
strive to provide the Department of Justice the resources that 
you need to support your Federal law enforcement mission, 
including combating cybercrime, terrorism, espionage, gangs, 
and human and drug trafficking. Of course, we expect that our 
constituents' very precious and hard-earned tax dollars will be 
employed frugally and strategically, consistent with Federal 
law. Their needs are great, and it is critical to set 
priorities and leverage scarce resources. I look forward to 
working with the Department throughout the year as the 
appropriation process moves forward.
    Today, we will follow the 5-minute rule in order to keep 
the hearing moving along. But before we proceed, I would like 
to recognize our ranking member, the gentleman from New York, 
Mr. Serrano, for any remarks he would like to make.
    Mr. Serrano. Thank you, Mr. Chairman.
    Although I join you in welcoming Deputy Attorney General 
Rosenstein before the subcommittee, it is important that we 
point out that this is not who should be testifying before us 
today. No insult intended, sir, in any way.
    I am angered that Attorney General Sessions has refused to 
come before this subcommittee to answer urgent and important 
questions about this administration's actions with regard to 
Russia. The American people that care are asking for 
transparency and accountability, and we find ourselves in yet 
another circumstance where a senior administration official is 
refusing to provide it.
    There are serious questions that need answering about 
Russia's interference in last year's election, as well as that 
Nation's possible collusion with senior members of the campaign 
and this administration, including Attorney General Sessions. 
In addition, there are a compounding series of questions about 
whether senior administration officials, including the 
President, have attempted to obstruct this investigation and 
cover up these possible activities. These are not questions 
that are confined to the Intelligence Committee. They belong to 
the American people.
    I believe that this committee has a responsibility to help 
to get to the bottom of this. One would think that if the 
Attorney General were totally blameless for this debacle, he 
would be happy to testify wherever and whenever invited. I 
think it speaks volumes that he has once again rejected our 
invitation.
    In his letter to the subcommittee, Attorney General 
Sessions claimed that since he has recused himself from matters 
related to the Russia investigation, he could not answer the 
subcommittee's questions regarding that subject. However, 
because the American public is not aware of the scope of his 
recusal, we are left wondering why he was involved in important 
decisions that touch upon this investigation, including the 
firing of FBI Director James Comey. It is possible that there 
are future decisions in which common sense would dictate the 
Attorney General's recusal but where he might still attempt to 
intrude. We hope that you will be able to clarify the scope of 
that recusal today.
    Since you have appointed a special counsel, something I 
want to commend you for, I do believe there are significant 
questions regarding the independence of the special counsel's 
investigation. As an appropriator, it is important that we 
ensure that Director Mueller receives the funding and resources 
necessary to do his job fairly and thoroughly. There is some 
ambiguity in the special counsel's regulations, and we will 
need to shed some light on this subject.
    Lastly, before I conclude, let me briefly address the 
Department's budget request for fiscal year 2018. This request 
is profoundly troubling. I represent a district composed 
largely of people of color, people who have been historically 
discriminated against and marginalized. I represent many 
immigrants, people who came to this Nation looking for a better 
life, and I represent people of all faiths, including a 
significant Muslim population.
    I am deeply concerned that the Department's budget request 
does not speak to or respect them. I strongly oppose the so-
called deportation agenda contained in this request, including 
unrelated legislative language to harm sanctuary cities, 
increased funding to further boost criminal prosecution of 
undocumented immigrants, and proposals to hire attorneys to 
take away private citizens' land via eminent domain 
proceedings.
    These efforts are misguided and will harm the Department's 
goals. Fifty-two percent of Federal criminal prosecutions 
already involve immigration violations. At a certain point, 
this obsession with undocumented immigrants harms other 
Department priorities, like terrorism cases, gun violence, and 
corporate fraud cases.
    Another area where the Federal Government seems poised to 
do less is in the area of civil rights. While the funding level 
for the Civil Rights Division is held flat in this request, 
civil rights divisions across other agencies are being slashed. 
These cuts, in tandem with DOJ proposals to undermine programs 
like body-worn cameras, grants, and the Second Chance Act, 
indicate that this administration does not value groups who 
have been historically discriminated against. I oppose these 
proposed cuts at DOJ and elsewhere.
    The Department of Justice has historically been a beacon of 
hope for many Americans. The Department has a proud history of 
protecting those who have historically been discriminated 
against. You act as our Nation's agency of accountability, to 
ensure faithfulness and adherence to our Nation's laws, its 
Constitution, and its values. Unfortunately, this budget 
request fails to uphold these principles.
    Let me conclude with this: As an appropriator, I find it 
insulting that the leader of an agency that we oversee has 
refused to testify before us. These hearings are a basic 
function of our committee, and the Attorney General's actions 
undermine the committee's oversight role, its power, and its 
reputation. Should the Attorney General and his staff fail to 
adhere to our constitutional system's basic checks and 
balances, I believe we will need to revisit the need to fund 
the Office of the Attorney General.
    Thank you, Mr. Chairman.
    Mr. Culberson. At this time, I would like to recognize the 
ranking member, the gentlelady from New York, Mrs. Lowey.
    Mrs. Lowey. I would like to thank Chairman Culberson, 
Ranking Member Serrano for holding this hearing.
    Deputy Attorney General Rosenstein, frankly, you are not 
who I was expecting to see today. Ranking Member Serrano and I 
are disappointed that Attorney General Sessions canceled on us 
for the second time. The Attorney General's refusal to testify 
before this committee does not bode well for transparency, 
openness, and good government from the Department of Justice.
    This is an unprecedented moment in our history. Every day 
we are flooded with news alerts, each more disturbing than the 
last. Ranking Member Serrano and I are very concerned by a 
pattern of behavior from your Department.
    First, there are reports that just days before FBI Director 
Comey was fired, he requested additional funds from the 
Department of Justice to investigate Russian interference in 
the Presidential election. After this request, you penned a 
letter to the President, which the White House has referenced 
as a basis to fire Director Comey.
    We now know that Director Comey asked Attorney General 
Sessions not to be left alone with the President, and yet 
President Trump, after asking Attorney General Sessions to 
leave the room, asked Director Comey to drop the investigation 
into Michael Flynn.
    I remain unconvinced that the Department of Justice and 
this administration can impartially handle the investigation. 
While the appointment of former FBI Director Robert Mueller as 
special counsel is a strong step, your Department has the power 
to remove him, and the White House is reportedly taking steps 
already to undermine his investigation.
    Congress must still create a bipartisan, independent 
commission to make sure every aspect of contacts between 
President Trump, his campaign and associates, and Russia is 
thoroughly analyzed.
    Mr. Rosenstein, I cannot overemphasize the serious nature 
of your responsibilities as one of the top law enforcement 
officials in the country or the expectations of this committee 
that you expend the funds we appropriate to ensure the rule of 
law.
    Aside from the ongoing Russia investigation, I am concerned 
the budget proposed for your Department would make our 
communities less safe. For instance, it would reduce the 
processing of rape kit backlogs by $20 million, cut $15 million 
from the National Instant Criminal Background Check System, 
eliminate funding for body-worn police cameras. President 
Trump's budget request slashing $54 billion from nondefense 
investments would decimate the Department of Justice. In fact, 
even existing sequestration level caps are insufficient and 
would lead to reduced services that American families and 
communities need, including law enforcement, first responders, 
homeland security.
    It is, frankly, time for a new budget deal to end 
sequestration once and for all, in part, to prevent disastrous 
cuts to law enforcement efforts at the Department of Justice.
    I look forward to a productive discussion today, and hope 
that you can shed some light on how this budget request can 
adequately respond to the grave task the Department of Justice 
and its grant programs undertake on a daily basis. Thank you.
    And thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mrs. Lowey.
    We will follow a 5-minute--each one of us will take 5 
minutes on our questions, and I will recognize members in the 
order in which they arrived.
    Deputy Attorney General Rosenstein, you are recognized for 
an opening statement and, without objection, your written 
statement will be entered into the record in its entirety. I 
would encourage you to keep your oral statement to 5 minutes so 
we can have additional time for questions.
    And it is my pleasure to recognize you, sir, for your 
testimony today. Thank you.
    Mr. Rosenstein. Thank you. And good afternoon, Chairman 
Culberson, Ranking Member Serrano, and other members of the 
subcommittee. I am honored to present the President's proposed 
fiscal year 2018 budget for the Department of Justice.
    Our proposed budget advances the interests of the American 
people by allowing the dedicated men and women of our 
Department to continue their outstanding work. We are grateful 
for your strong support, and we look forward to building on our 
successes as we work to protect our Nation, to promote the rule 
of law, and to ensure equal justice for everyone.
    The 2018 budget request shows a strong commitment to the 
Department's top priorities. It provides more funding to fight 
terrorism and cybercrime, reduce violent crime, tackle the 
opioid epidemic, and combat illegal immigration. It also gives 
us resources to support our State, local, and Tribal law 
enforcement partners in their essential work.
    This budget request reflects three important themes: Number 
one, truth in budgeting; number two, increased efficiency; and 
number three, setting of priorities. These changes are critical 
and support the executive order to reorganize government 
agencies to increase efficiency and effectiveness.
    First, the budget is honest. It eliminates from the books 
thousands of previously funded and vacant positions, most of 
which have been vacant for years and, in some cases, never 
filled at all. Second, the budget seeks to identify areas where 
we can afford to cut back without harming our mission. And 
finally, the budget improves the allocation of our precious 
resources so that we can do the most effective work with every 
taxpayer dollar that we spend.
    National security remains our highest priority. We face a 
wide array of evolving threats, from terrorism to espionage and 
cyber intrusions. We also need to come to terms with the going 
dark phenomenon, which, as you are aware, refers to law 
enforcement's increasing inability to lawfully access, collect, 
and intercept real-time communications and stored data, even 
with a warrant, as a result of changes in technology. This 
phenomenon severely impacts our ability to conduct 
investigations and bring criminals to justice.
    Law enforcement officers operate within the Constitution 
and they respect privacy interests, but when there is a 
legitimate law enforcement need to access electronic 
information and we have a court order or other lawful 
authority, public safety is jeopardized if we are unable to 
access relevant information.
    Our Department must keep adapting to new challenges. To 
that end, the budget provides an extra $98.5 million to combat 
terrorism, espionage, and cybersecurity threats. The Justice 
Department also is committed to protecting the American people 
from violent crime and from the adverse consequences of illegal 
drug distribution, both of which are spiking at alarming rates. 
Violent crime is rising in many areas of our Nation, and drug-
related injuries and deaths also are increasing. Rising violent 
crime and increasing drug abuse are devastating many American 
families. The Justice Department is confronting these crises 
head-on, and we need your help.
    The proposed budget provides the Department's law 
enforcement agencies with extra support so they can target the 
worst violent criminals, transnational crime organizations, 
gangs, and drug trafficking rings. It also provides for 230 new 
assistant U.S. attorneys to focus specifically on our effort to 
fight violent crime. These additional resources will enhance 
the ability of Federal law enforcement to assist our State and 
local partners to fight crime and keep communities safe.
    We are focusing on getting illegal drugs off the streets 
through strong enforcement and through our drug take-back 
programs. In addition, we are calling on doctors, pharmacists, 
and pharmaceutical companies to take a hard look at the way 
that they prescribe opioid drugs, in an effort to reduce the 
harmful abuse that occurs when those drugs are overprescribed.
    The American people expect our government also to secure 
our borders and restore a lawful system of immigration. The 
proposed budget provides funding for 75 more immigration judges 
and support teams to reduce the unacceptable backlogs in our 
immigration courts. It also will allow us to hire more deputy 
U.S. marshals and 30 more border enforcement prosecutors so we 
can effectively apprehend and prosecute criminal aliens who 
threaten our communities.
    The Federal Government does not maintain public safety 
alone. 85 percent of law enforcement officers in this country 
are not Federal. They work for our State, local, and Tribal 
partners, and we rely on them heavily. The men and women 
serving on the front lines are our first line of defense to 
keep our communities safe. They deserve our support. This 
budget maintains our commitments to those valued partners and 
prioritizes grant funding to the high-performing programs that 
have proven to be effective.
    This budget funds our priorities while helping to achieve a 
more efficient and cost-effective Department. We will do all we 
can to be good stewards of taxpayer dollars. We have a duty to 
avoid waste and to safeguard the Department's resources so they 
will be available to fight crime and protect people.
    The Department of Justice is home to 115,000 honorable men 
and women who work to serve, protect, and defend the American 
people, and respect the Constitution of the United States.
    And Ranking Member Serrano, I appreciated your comments 
about how you feel about the Department of Justice. I feel the 
same way. That is why I have worked there for 27 years. This 
budget will make it possible for us to do our jobs.
    With the investment set forth in this budget and with your 
support, we will continue to fairly enforce the Nation's laws 
and ensure safety and equal justice for all Americans. And I 
look forward to addressing your concerns.
    I am eager to work with this subcommittee and with the 
Congress in the months and years ahead. I will be happy to 
answer any questions about our proposed budget.
    Thank you.
    [The information follows:]
    
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
                            SANCTUARY CITIES

    Mr. Culberson. Thank you very much, Mr. Rosenstein.
    This morning, I participated in a hearing in the Homeland 
Security Subcommittee, and the Acting Director of Immigration 
and Customs Enforcement, Thomas Homan, testified something that 
we all know fundamentally as Americans, and that is, where 
there is no consequence to breaking the law, we endanger law 
enforcement officers, we endanger the public. And we all know 
that our liberty lies in law enforcement, equal protection of 
the law with due process to everyone.
    I want to focus my, therefore, first round of questions on 
sanctuary cities and the danger they pose to all of us. 
Secretary Homan--or Director Homan testified quite correctly 
that sanctuary cities are a danger to law enforcement and to 
the public, because if he has to send an ICE officer out to 
knock on someone's door because ICE cannot get access to their 
jails and pick someone up for deportation that has been 
arrested and held in custody by a State or local jail, that 
endangers the public and endangers law enforcement, because 
these individuals are going to be out on the street.
    Last year, last summer, I successfully worked with Attorney 
General Lynch to ensure that local and State law enforcement 
agencies complied with Title 8, section 1373 of the U.S. Code, 
which says that local and State law enforcement agencies cannot 
interfere in any way with sharing information with Federal 
immigration authorities about individuals in their custody.
    This followed a finding by the Department of Justice 
Inspector General that 10 of the largest Federal law 
enforcement grant recipients were not in compliance with 1373 
and, therefore, were sanctuary cities. This includes the entire 
State of California was certified as a sanctuary jurisdiction. 
New York City was certified as a sanctuary jurisdiction. So was 
Philadelphia, Cook County, Miami-Dade, Milwaukee, and Clark 
County, Nevada.
    I am pleased to say that New Orleans has brought themselves 
into compliance. They repealed their sanctuary policy. Miami-
Dade County repealed their sanctuary policy.
    But I wanted to ask you, Mr. Attorney General, these 
remaining jurisdictions have to certify this year that they are 
in compliance with Federal law and cooperating 100 percent of 
the time in order to continue to receive Federal law 
enforcement grants this summer. Those assurances from those 
remaining eight jurisdictions are now due.
    And if you could, tell us what is the status of those 
assurances from those eight jurisdictions? Have they changed 
their policies or stopped receiving Federal funds yet? And if 
they have not changed their policy, when will their Federal law 
enforcement grant funding stop?
    Mr. Rosenstein. Yes, Mr. Chairman, I think it is important 
to recognize this is not a partisan political issue. In the 
prior administration, the Inspector General brought to the 
Department's attention that these 10 jurisdictions may not have 
been in compliance with Title 8, section 1373, and the 
Department took appropriate steps to look into that.
    We have notified those 10 jurisdictions that we are 
requesting that they certify whether they are or are not in 
compliance. My understanding is that we have actually heard 
back from three so far that have confirmed that they are in 
compliance with section 1373. There are seven that have not yet 
responded. And we have requested that everybody respond by June 
30, so I am hopeful that we will hear from the other seven 
jurisdictions by June 30.
    Our goal is to ensure that all grant recipients are 
following Federal law. This is not a new law. This is a law 
that was in effect last year. Our goal is to make sure that 
they are in compliance, because that is a condition of Federal 
grants that they be in compliance with Federal law.
    And so I am optimistic, Congressman, that they will all 
respond. If they do not, then the consequence would be that 
they would not be eligible for future grants, unless and until 
they can certify that they are in compliance with Federal law.
    Mr. Culberson. This is very straightforward. If local and 
State law enforcement agencies expect to receive Federal money, 
if you want Federal money, you have to follow Federal law and 
cooperate with requests for immigration information about 
people in your custody and do so 100 percent of the time. That 
is the effect of 1373?
    Mr. Rosenstein. It is not a new requirement to follow 
Federal law. It is something that was brought to our attention 
last year, that some jurisdictions might not be in compliance 
with that requirement.
    Mr. Culberson. Well, I was pleased to spearhead this effort 
and did so quietly. In fact, when Kate Steinle was murdered in 
San Francisco, I just made this my highest priority. And I am 
pleased that Attorney General Lynch changed the policy, and I 
am very pleased that you are implementing this policy. The goal 
is for all these jurisdictions to change their policy so they 
will cooperate with Federal law enforcement authorities in 
order to protect lives and property.
    We don't want anybody to lose their funding, but if they 
choose--it is up to them. The local jurisdictions have a 
choice. If they choose to protect criminal illegal aliens and 
shield them from deportation, then don't ask for Federal money, 
because the funding will stop. And it stops this summer, 
doesn't it?
    Mr. Rosenstein. They will no longer be eligible, unless 
they are able to certify compliance.

                            SPECIAL COUNSEL

    Mr. Culberson. New York City would lose about $15 million, 
based on what they received last year. Philadelphia will lose 
about $1.7 million. The State of California will lose $69 
million, based on what they received in 2016.
    So the days of receiving Federal money and shielding 
criminal aliens are over. You can't have both. And we 
appreciate very much you following through on that policy.
    And I want to recognize Mr. Serrano.
    Mr. Serrano. Thank you.
    Deputy Attorney General, I am concerned that the special 
counsel you appointed--and, once again, I compliment you for 
that--to investigate ties between the Trump administration and 
Russia will not be adequately funded. Politics and budget 
debate should not impede their work. Can you provide this 
committee a copy of the budget request made by the special 
counsel?
    Mr. Rosenstein. Congressman, I don't believe we have it 
yet. Under the regulation, the special counsel I believe has 60 
days to submit his first budget. I know they have been working 
with our Justice Management Division. The leadership of the 
division is here with me today, and I don't believe we have 
those numbers for you yet.
    But I do want to assure you, and if I may, to respond to 
Congresswoman Lowey's inquiry, it has always been my commitment 
that this investigation and every investigation, the Department 
will receive the resources that it deserves.
    And I welcome the opportunity, Congresswoman, to address 
the issue that you raised, because the newspaper in my hometown 
ran a banner headline that said that somebody had asked me for 
resources and not gotten them, and that is untrue. And I 
believe the deputy FBI director clarified that. I don't know 
where that story originated. But I can assure you that I have 
not and I will not deprive this investigation of appropriate 
resources.
    So, yes, Congressman, I can assure you that the special 
counsel will have whatever resources are reasonably required to 
conduct that investigation. That is a matter that is handled 
primarily by our budget, our administrative folks, and I am 
confident he will have the resources he needs.
    Mr. Serrano. And you can get that to us at some time?
    Mr. Rosenstein. As I said, I am not certain that he 
submitted the budget yet, but when he does----
    Mr. Serrano. When it is ready.
    Mr. Rosenstein. Yes, sir.
    [The information follows:]

    The Special Counsel Office (SCO) will prepare a Statement 
of Expenditures for the six-month periods ending September 30 
and March 31. The Justice Management Division (JMD), Internal 
Review and Evaluation Office will review and report on the 
internal controls related to the expenses of the SCO. JMD will 
make these reports available to the public.

    Mr. Serrano. Does Attorney General Sessions' recusal from 
the special counsel's investigation extend to the management of 
the budget for the special counsel?
    Mr. Rosenstein. I would say probably, yes. I mean, our 
budget is not a secret. But I will be making the decisions. If 
there is any dispute, I would be the final authority as to what 
resources are given to the special counsel.

                        ATTORNEY GENERAL RECUSAL

    Mr. Serrano. For that matter, what is the current scope of 
Attorney General Sessions' recusal?
    Mr. Rosenstein. Congressman, the recusal, as I understand 
it--and keep in mind I was confirmed in late April. This had 
already been put into place prior to that. And so there were 
appropriate safeguards in place within the Department to ensure 
that the Attorney General would not be involved in any matters 
from which he was appropriately recused.
    Just to explain you the way this operates. In the Deputy 
Attorney General's Office, we have career officials, and one in 
particular who is responsible for making these ethical 
determinations for the leadership of the Department. And so if 
any matters arise that may implicate that recusal, I have the 
opportunity to consult with him and ensure that those matters 
stop in my office, literally on the fourth floor, and they 
don't rise to the fifth floor, which is where the Attorney 
General's office is located.
    And so as to what the scope of the recusal is, it is 
defined by what he has recused from. But keep in mind, the 
important issue here, Congressman, is when we recuse in the 
Department, it is usually not public. Usually, our recusals are 
private and internal. And we don't announce who we are 
investigating or what we are investigating. Therefore, I am not 
able to tell you I know what is being investigated. The 
Attorney General only knows the general area from which he is 
recused. And so it is my responsibility, in coordination with 
our ethics experts, to make sure that nothing comes to his 
attention that would be within the scope of that recusal.
    Mr. Serrano. What is the mechanism to update that recusal 
as the investigation by the special counsel evolves, if there 
is a need for an update?
    Mr. Rosenstein. I don't think there will be a need for an 
update, Congressman, because he is recused. I am the Acting 
Attorney General for purposes of the special counsel 
investigation. And what that means is, he is just not involved 
in any way in the special counsel's investigation. So there 
wouldn't be a need to update that. That is a full recusal from 
any matters handled by the special counsel.
    Mr. Serrano. And you are saying that you will be keeping a 
close eye on that anyway.
    Mr. Rosenstein. Well, I----
    Mr. Serrano. On the investigation. I am not putting you in 
trouble with the Attorney General.
    Mr. Rosenstein. No, it is the other way around, actually. I 
just wanted to clarify. Director Mueller has independence, and 
so I am not particularly involved in that. But it is my job, to 
the extent there was anything that came to my attention, to 
make sure that the buck stops with me and that the Attorney 
General would not be involved in any decision-making.
    Mr. Serrano. All right. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    It is my pleasure to recognize former chairman of the full 
committee, the gentleman from Kentucky, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Rosenstein--is it Rosenstein?
    Mr. Rosenstein. Yes, sir.

                      FEDERAL PRISON CONSTRUCTION

    Mr. Rogers. Thank you for being here. We are glad to see 
you. We were expecting the Attorney General, but he has been 
called to testify, as we speak, before a Senate Intelligence 
Committee and, therefore, could not be here on that account. 
But thank you for filling in those shoes.
    Let me start out by asking you about Federal prison 
construction. We have a serious overcrowding problem in our 
Federal penitentiaries affecting the health and safety of not 
only prisoners but the guards and the personnel. GAO reports 
that BOP facilities experience 30 percent overcrowding 
systemwide, 52 percent overcrowding among high-security 
penitentiaries.
    With that in mind, this committee and the Congress passed, 
last year, a bill appropriating funds for a new penitentiary in 
Letcher County, Kentucky--therefore, it is of a little bit of 
parochial concern of mine--to help alleviate the crowding.
    In your budget request, you specifically rescind the money 
for that facility. What I want to know is, are you serious?
    Mr. Rosenstein. Thank you, Congressman. My understanding--
first of all, I think I should be clear. The Federal prison 
population, I am sure you are aware, has actually declined 
precipitously over the last several years. It is a decline of 
about 30,000 inmates or 14 percent reduction over the past 4 
years. So the decision about where we need Federal prisons is a 
decision, you know, that we rely upon the Bureau of Prisons to 
tell us what sort of facilities they need. And our fiscal year 
2018 budget does include $80 million to fully open a prison 
that has already been built that had not previously been in 
operation that would add up to 2,500 high-security beds.
    So what we are doing, Congressman, is we are just 
prioritizing our spending, given the tight budget. But we would 
certainly be open to working with the committee on capacity 
issues in the future, if there were a need for additional bed 
space. And I have met with Director Kane, our acting director 
of Bureau of Prisons, and I will continue to talk with him 
about that. And based upon our projections of future prison 
needs, we may well have a need for a prison in that district or 
elsewhere in the future.
    But, again, the tough budget choice that we made here is 
that, given the current volume of inmates in the prison and 
given the projections for the future, the Bureau of Prisons 
just didn't feel that we needed that facility at this time.
    Mr. Rogers. General, the Congress decided this. And it is 
the Congress that controls the purse strings of the country. It 
has been passed. It is the law. The money is there, 
appropriated, authorized, everything in order. We recognize 
there is a problem. We have got terrific overcrowding. Yes, we 
have made some reductions in recent years, but not enough. But 
this has been decided and we expect it to be carried out.

                        OPIOIDS/OPIOID EPIDEMIC

    Now, let me ask you about opioids. This problem broke open 
in my district about 12, 13 years ago. Oxycontin. Now, of 
course, it is ravaging the country, among other types of 
opioids. The Comprehensive Addiction and Recovery Act, which we 
passed last year, streamlined your grant process for several 
crucial efforts, including prescription drug monitoring 
programs, drug courts, first responder training and the like. 
And the 2017 Omnibus, which was signed into law just a month 
ago, fully funds our $103 million commitment to your efforts in 
that regard.
    I understand applications for that funding closed last 
month. Tell us how this newly combined program is being 
received in its first year.
    Mr. Rosenstein. Congressman, if I could just address first 
the issue of the funding in this budget. Obviously, there are 
difficult choices that need to be made about how much money to 
allocate to each issue, but I agree with you that with regard 
to the programs that you have mentioned, they all are valuable 
in the fight against opioid drugs.
    If I can just take a moment to address that, because I 
think there are a lot of important issues that we will talk 
about today. This, I believe, is one of the most important. And 
in my capacity as a U.S. Attorney in Maryland and now as Deputy 
Attorney General, I think I have a special responsibility to 
address this issue of opioid abuse, because it is frightening 
the extent to which opioid abuse is causing havoc throughout 
our country.
    I actually brought with me one demonstrative exhibit, if I 
could show you. It is a chart of drug overdose deaths 
throughout the United States of America. And what this reflects 
is that in 2015, 52,000 Americans lost their lives to drug 
overdose deaths. In 2016, although the numbers are not yet 
final, we anticipate that, based on projections, there may well 
be 60,000 deaths that are attributed to drug overdoses.
    And those numbers are increasing dramatically, and a large 
proportion of it is due to this issue of opioid drugs. And it 
is, as you said, partly a function of oxycodone; it is partly a 
function of heroin; and increasingly, it is a drug called 
fentanyl, which is being brought into the country from China, 
either through the mail or through Mexico, and it is causing 
tremendous distress throughout the country.
    And so we are going to work with you in a variety of ways--
and I know I am out of time--but a variety of ways. Enforcement 
is one. Treatment and prevention also are important. And I 
believe we need to use all available tools to address that 
problem. And we can certainly discuss, you know, the relative 
allocation of resources, but what I can commit to you is that 
in terms of the overall financial commitment by the Department 
to this issue of opioid drug abuse, we are going to have--if 
this budget is enacted, we are going to have more money this 
year, we are going to have more of everything focused on this 
issue, because it is a horrifying trend and we need to work 
together to reverse it.
    Thank you very much.
    Mr. Rogers. Thank you.
    Mr. Culberson. Thank you, Mr. Rosenstein.
    Just to emphasize how urgently important our fight is 
against the opioid epidemic to stop the loss of life, there 
were 58,220 U.S. military fatalities in the Vietnam war. So the 
number of people that have died as a result of opioid overdoses 
has already exceeded last year alone the total number of people 
killed in the Vietnam war. What a tragedy.
    Mr. Rosenstein. If I could clarify the chart, it may be a 
little misleading on the chart that I showed you. That is all 
drug overdoses, but it is I believe about 60 percent of these 
deaths are attributed to opioid drugs.
    Mr. Culberson. Thank you for your work in that regard.
    I want to recognize the gentlelady from New York, Mrs. 
Lowey.

                          FBI DIRECTOR FIRING

    Mrs. Lowey. Thank you.
    And thank you, Mr. Rosenstein, for being before us today.
    On May 9th, you, along with Attorney General Sessions, 
wrote to the President supporting the dismissal of then-FBI 
Director Comey. The rationale for his dismissal was his 
handling of the Clinton email case. President Trump later 
admitted on national television that he fired Director Comey 
because of, quote, ``this Russia thing,'' end quote.
    To what extent, beyond your written recommendation, did you 
consult with the White House on the dismissal of Director 
Comey?
    Mr. Rosenstein. So, Congresswoman, as you know, this may 
well be within the scope of the special counsel's 
investigation, so I am limited in what I can say about it. But 
I would, if I could, I would like to address your question 
about me and my memo. I think it is important for you to 
understand, I don't know what was in anybody else's mind. My 
memo reflected my personal opinion. And I stand by what I wrote 
in my memo, but that is just my opinion.
    I know that I have heard various reports, and I don't 
believe everything I read in the media, but I have heard 
various reports about what role my recommendation allegedly 
played. But also, I saw the President of the United States in 
an interview on TV, and he said he was going to replace 
Director Comey without regard to the memo. And so the 
decisionmaker on this is the President. The President decides 
which political appointees to retain and which to remove, and 
that is his decision.
    So I can only comment from my perspective that the memo 
reflected my views, and I can't testify about what anybody 
else's opinion might have been, nor do I know what was on 
anybody's mind. So I can assure you that if Director Mueller 
believes that that is relevant to his investigation, he has 
full authority to investigate that and to make any appropriate 
findings.
    Mrs. Lowey. Now, did anyone ask you to write the memo?
    Mr. Rosenstein. As I said, Congresswoman, I am not at 
liberty to talk about that now. And the reason for that is that 
if it is within the scope of Director Mueller's investigation--
and I have been a prosecutor for 27 years--we don't want people 
talking publicly about the subjects of ongoing investigations. 
If there are other witnesses or subjects, we don't want them 
hearing what other people may have said about it. And so that 
is the reason why I am not at liberty to talk about it here.
    I have no reservations about my role, and I hope I will 
have the opportunity at an appropriate time to talk more freely 
about it. But given my responsibilities with regard to this 
investigation, I hope you appreciate it is important for me, in 
my capacity, not to compromise the investigation by talking 
about any of these things publicly.
    Mrs. Lowey. Just somewhat related, at any point do you get 
the impression that the FBI was, quote, ``in disarray,'' end 
quote, as the President claimed?
    Mr. Rosenstein. Congresswoman, everybody can reach their 
own independent subjective evaluation about anything they like. 
In my impression--I have worked with the FBI for many years. I 
have the utmost respect for the agents in the FBI. I know many 
of the agents and the supervisors personally. And I believe we 
can count on the FBI under the current leadership and under the 
future leadership to do an excellent job in defending the 
American people.
    Mrs. Lowey. Was there any discussion with the President 
after that comment was made? I would think it is pretty 
unfortunate that it was made. Do you want to comment on that?
    Mr. Rosenstein. I prefer not to, but I have not discussed 
it. I have not talked with the President about that after the 
comment was made.
    Mrs. Lowey. Okay. My time is almost up. But on May 11, 
Ranking Member Serrano and I wrote a letter to Attorney General 
Sessions, you were copied as well, with several questions 
regarding the firing of FBI Director Comey and his request for 
additional resources. We have not received a response, so I 
would like to clarify your policy on this issue generally.
    What is the policy at the Department with regard to 
responses to congressional inquiries?
    Mr. Rosenstein. So, first, if I may, I would welcome the 
opportunity to tell you that I have never rejected a request 
for resources for the Russia investigation or for any 
investigation, and I would not have done that, because it is 
important to me that that investigation be done properly.
    With regard to the policy concerning letters, I am aware of 
an opinion that was issued from the Department on the question 
of whether or not there was any obligation to respond to 
letters. And my recollection is that there is a reference in 
that letter, it may be in the final paragraph, that there is no 
prohibition on it. And so my hope is that we can be as 
forthcoming as reasonably possible.
    I know you appreciate that there are limits sometimes on 
what we can say and how quickly we can respond, based on the 
volume of correspondence, but I think it is important for us to 
provide as much cooperation as we can to you so you can do your 
important job in overseeing the Department.
    Mrs. Lowey. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Jenkins.

                             OPIOD EPIDEMIC

    Mr. Jenkins. Thank you, Mr. Chairman.
    Thank you so much for being here today. I want to talk a 
little bit about the opioid crisis. I appreciate your comments 
about it. I appreciate the chairman and the full committee's 
immediate past chairman about this critical issue.
    So many causes, so many lives lost, so many lives 
destroyed. In my district, we are literally ground zero, the 
Third Congressional District in West Virginia. DEA records that 
were really exposed as a result of an Eric Eyre article that 
was published, an investigatory report showed that over a 6-
year period, wholesale distribution of pain pills to my State, 
780 million pills, a population of 1.8 million people, 433 
pills for every man, woman, and child in West Virginia, over a 
6-year period, from 2007 to 2012.
    In the small town of Kermit, West Virginia, in Mingo 
County, a population of 392 people, 9 million hydrocodone pills 
were sent and dispensed out of one pharmacy in a town of 392 
people. Mingo County, the fourth highest prescription overdose 
rate of any county in the entire country.
    There was a very compelling article. This article was from 
The Washington Post. This article documented a period of former 
DEA agents and others who said, really beginning around 2011--
they called it shocking, stunning--a change of approach at the 
highest levels of the Department of Justice, basically slowing 
down and stopping many of the enforcement tools, the 
investigations, the prosecutions that the DOJ and the DEA and 
others were pursuing.
    My question is, as a result of this story from last year, 
The Washington Post, 2016, not unnamed sources but specific 
agents, former agents of the DEA talking about the 
administrative actions and directives that put a halt to the 
powerful tools that the DOJ has in its arsenal, has anybody 
looked into these allegations to explain why the DOJ and other 
agencies within its purview made these very dramatic changes, 
in light of this epidemic?
    Mr. Rosenstein. Congressman, I do not know the specific 
answer to your question as to whether anybody has looked into 
it. You know, I have been in this position about 6 weeks, but I 
can tell you that one of my top priorities is to figure out 
what we can do differently.
    And whether anybody was at fault for past decisions is not 
my primary concern. My primary concern is what can we do 
prospectively and cooperatively and collaboratively, in a 
bipartisan way, to address this problem. So that has been my 
focus. And I have met a couple of times with DEA Administrator 
Chuck Rosenberg, and I know it is a priority for him, and he 
understands it is a priority for me as well.
    As you point out, you know, Federal enforcement isn't just 
about criminal enforcement of drug dealers; it is also about 
regulating the prescription of regulated drugs. So I appreciate 
your raising that point with me. I will look into it. But what 
I can tell you today is that we are all going to be working 
together to try to develop a strategy that is more effective in 
the future than what we have unfortunately experienced in the 
recent past.

                            DEA QUOTA SYSTEM

    Mr. Jenkins. I sent a letter to the director about 4 or 5 
weeks ago, just as you referenced, doing a better job from a 
regulatory standpoint. My letter specifically asked for 
information relating to the quota system.
    You cannot manufacture a pill without the Federal 
authorities authorizing the chemical components and elements 
that go into that manufacturing to occur.
    And I have not got a response to what I think is another 
missed opportunity, flaw in the system--and in this particular 
case, it is the quota system--why the bells and whistles did 
not sound in such an alarming situation. And I am hoping to get 
a response to my request for information relating to the quota 
system.
    Mr. Rosenstein. Well, I will look into that, Congressman. I 
appreciate you are familiar with some of the details about how 
this operates. As you mentioned, there is an aggregate 
production quota that is set for Schedule I and II controlled 
substances each year, and there is an annual assessment of 
needs, and I am familiar with that generally. And I will take a 
look at that. I have not seen your letter, but I will make sure 
to review that and talk with Administrator Rosenberg to make 
sure we are doing everything we can.
    I am well aware of the issue in West Virginia. I spoke with 
your two Senators this morning. And, in fact, the Attorney 
General, I know, was visiting West Virginia just last month. We 
recognize how serious the problem is there, and we are going to 
make it a priority to figure out how to reverse the problem.
    [The information follows:]

    DEA appreciates your interest in production quotas and shares your 
concerns regarding the opioid epidemic. DEA contacted your 
[Representative Jenkins'] staff in late June to discuss an initial 
response and to set up a briefing on the quota process. DEA looks 
forward to briefing you and your [Representative Jenkins'] staff soon 
to address the questions in your letter.

    Mr. Culberson. Thank you, Mr. Rosenstein.
    I want to recognize the gentleman from Washington State.

                              OLC OPINION

    Mr. Kilmer. Thank you, Chairman.
    Thanks for being with us. I want to start where our Ranking 
Member Mrs. Lowey ended, and that is on the issue of access to 
information.
    Earlier this month, Senators Grassley and Feinstein sent 
the President a letter expressing concern over the 
administration's policy to not respond to Members of Congress 
in the minority party. And Senator Grassley noted in his letter 
that--and this is a quote--``Unless Congress explicitly tells 
the executive branch to withhold information based on committee 
membership or leadership position, there is no legal or 
constitutional basis for the executive branch to do so. For OLC 
to so fundamentally misunderstand and misstate such a simple 
fact exposes its shocking lack of professionalism and 
objectivity.''
    So my question to you is, as Deputy Attorney General, did 
you have any role in crafting the OLC's policy to not respond 
to oversight requests from Members in the minority?
    Mr. Rosenstein. I think it is important, Congressman, to 
recognize that OLC, my understanding of it--and I will have to 
go back and take a look at it. I don't have it with me. I will 
see if any of my staffers do. But what I believe it is is a 
legal judgment about whether or not there is any obligation to 
respond. And that is, as I say, a separate matter from whether 
or not it is appropriate to respond in any individual case.
    There are some things we are not supposed to be talking 
about publicly or revealing to Congress. But within the rules, 
when we receive a proper request, if we can answer it, I 
believe that letter says we do have discretion to answer it, 
and, as I say, with the caveat I don't have it in front of me. 
And I will review it, if you like, and I can get back to you 
after the hearing specifically.
    But my recollection is that it addressed the issue of 
whether or not there is an obligation, whether or not a letter 
from an individual Congressman represents an oversight request. 
That was my understanding of the issue.
    Mr. Kilmer. So just to clarify, to your knowledge, has the 
Department of Justice or the administration directed any agency 
not to respond to an inquiry from Members of Congress?
    Mr. Rosenstein. I do not know the answer to that. Nobody 
has directed me not to respond to any particular request. But, 
as I said, I can look into it and get back to you.
    [The information follows:]

    The Department respects the Congress' responsibility to provide 
effective oversight of the Agencies and Departments within the 
Executive Branch and the need to safeguard taxpayer monies. The Office 
of Legal Counsel's letter opinion did not direct anyone not to respond 
to an inquiry from members of Congress. Instead, it specifically 
acknowledged that agencies may respond to requests from individual 
members. We are aware of the Chairman's letter and I expect that the 
White House will respond. Please be assured of our commitment to 
working with the Congress, both majority and minority parties, to 
provide the information it needs will continue.

                             VOTING RIGHTS

    Mr. Kilmer. Let me shift gears. I want to ask about voting 
rights. In 2013, in Shelby County v. Holder, the Supreme Court 
essentially struck down section 5 of the Voting Rights Act, 
which required jurisdictions with a documented history and an 
ongoing record of race discrimination in voting to preclear any 
voting changes with either the Department of Justice or a 
three-judge Federal Court before their implementation.
    Following the Shelby decision, previously covered 
jurisdictions implemented changes to their voting laws which 
made it burdensome for millions of people around this country 
to participate in the process.
    Earlier this year, I led an effort with 70 of my colleagues 
in a letter to President Trump urging that any investigation 
that he conducts into alleged voter fraud also include an 
investigation of voter suppression. We never received a 
response to that letter. And just over a month ago, the 
President announced his Advisory Commission on Election 
Integrity, which intends to only investigate these 
nonsubstantiated allegations of widespread voter fraud.
    So my question to you is, in light of the President's newly 
formed commission, how do you plan to allocate Department 
resources to enforce the Voting Rights Act and combat the 
proliferation of voter suppression laws in Shelby County?
    Mr. Rosenstein. Congressman, it is my understanding that 
the commission you are referring to is not within the 
Department of Justice. And what I would like to do is reassure 
you, within the Department of Justice, we have responsibility 
for protecting the voting rights of all Americans, and we will. 
When voting rights and our election system are strengthened, 
our democracy is strengthened.
    So the Department of Justice continues to carefully 
investigate and review any claims of voter suppression or 
violation of the Voting Rights Act. And we will take 
appropriate actions to prevent and combat any such violations 
or voter suppression in all of its forms.
    The issue that you raised at the start of your question is 
a more complicated issue of how to respond when States 
implement what they view as appropriate ways to protect the 
integrity of the vote. And in some cases, those are challenged 
as to what the impact may be, and that litigation will play 
out. But that is a separate issue from the Department's 
commitment and responsibility to enforce violations of law with 
regard to people's voting rights.
    And so, as I say, we don't have a role, that I know of, 
with regard to the President's election integrity task force, 
but we do have a responsibility to protect people's rights to 
vote and will continue to do that.
    Mr. Kilmer. I want to, if I could, Chairman, ask one more 
question. Am I all right?
    Mr. Culberson. Thirty seconds.

                               MARIJUANA

    Mr. Kilmer. Washington State where I am from recently 
legalized marijuana. And in 2013, the former Deputy AG issued a 
memo, James Cole issued a memo, that laid out eight Federal 
enforcement priorities with respect to Cannabis. It was 
recently announced that Attorney General Sessions formed a task 
force to review the Department's Cannabis enforcement policies. 
In recent years, Congress's appropriation bills have reflected 
the Cole memo.
    Do you have any update on what the Department plans to do? 
Does it plan to update or rescind the Cole memo?
    Mr. Rosenstein. I do not have any update, Congressman. I 
can tell you--and I don't want to take too much time to do it, 
but, as you know, it is a very complicated issue for us. Under 
Federal law, as passed by the Congress and given the science 
concerning marijuana, it is a Schedule I controlled substance, 
so it is illegal under Federal law. That is a decision I have 
talked with Administrator Rosenberg about, and I am comfortable 
that that is the right legal and scientific answer, that it is 
illegal under Federal law.
    We have a situation where some States have taken a 
different approach and legalized or decriminalized marijuana 
for medical use, in some cases for recreational use. I am a 
parent of two teenagers, and for those of you who have been 
through that stage, you know how difficult these issues can be. 
So I have to deal with this issue, as many of our friends and 
colleagues do. The question, though, of whether it is illegal 
under Federal law is resolved because Congress has passed a 
law, and it is illegal and scientists have found that there is 
no accepted medical use for it.
    So Deputy Attorney General Cole, as you mentioned, adopted 
this memorandum. He made an effort to examine that issue and 
find a way forward for the Department where we could continue 
with our obligation to enforce Federal law and minimize the 
intrusion on States that were attempting to follow a different 
path.
    I was a U.S. attorney in the Obama administration operating 
under the Cole memorandum. And I know many of my colleagues who 
were in your State and other States that have decriminalized 
marijuana to some extent, they had to deal with that issue. 
They had to grapple with the consequences. And we are going to 
have to deal with that as well.
    So for the moment, that Cole memo remains our policy. There 
may be an opportunity to review it in the future. At the 
moment, I am not aware of any proposal to change it, but I 
think we are all going to have to deal with that in the future.
    Mr. Kilmer. Thank you. I yield back.
    Mr. Culberson. Thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you. Thank you, General, for being 
here. I want to switch gears a little bit.

                           PLANNED PARENTHOOD

    Mr. Aderholt. Thank you.
    Thank you, General, for being here. I want to switch gears 
a little bit. The House Select Panel on Infant Lives, has 
forwarded 15 regulation and criminal referrals to DOJ regarding 
blatant violations of Federal statutes by Planned Parenthood 
and affiliated organizations.
    Has the Department of Justice begun any follow-up 
investigation or taken any action regarding this?
    Mr. Rosenstein. Congressman, I do not know the answer to 
that. I am not certain whether I could tell you if I did. But I 
do not know the answer to that, but I will look into it. And if 
we can respond to you, I will.
    [The information follows:]

    The Select Investigative Panel of the House of 
Representatives Committee on Energy and Commerce (the Panel) 
has urged the Department of Justice (the Department) to take 
action on information it previously provided regarding several 
matters. We understand that the Panel also provided information 
about many other matters to other federal, state and local 
regulatory, civil, and criminal enforcement agencies.
    The Department's components with the relevant investigative 
and prosecutorial responsibilities are aware of the information 
provided by the Panel. However, consistent with established 
Department policy, the Department cannot confirm or deny, or 
comment upon, matters which may or may not be currently under 
investigation by the Department.

    Mr. Aderholt. Next question, Russia, but also other 
countries, would like to influence our national elections and 
it has been reported that Russian hackers infiltrated data 
systems such as campaign Web sites, and maybe even county voter 
rolls during the 2016 election. To your knowledge, is there any 
evidence that hackers infiltrated voting machines or were able 
to change any votes dating back to November 8th of last year?
    Mr. Rosenstein. Not that I am aware of, no.
    Mr. Aderholt. Okay. Thank you very much. I yield back.
    Mr. Culberson. Thank you, Mr. Aderholt. I recognize Mr. 
Cartwright.

                            SPECIAL COUNSEL

    Mr. Cartwright. Thank you, Mr. Chairman, and thank you Mr. 
Rosenstein for being here today, I understand you testified in 
the Senate this morning so I must say your voice is holding up 
well.
    Mr. Rosenstein, on May 17, you appointed Robert Mueller as 
special counsel to investigate the matters that Mr. Comey had 
been investigating. And your order speaks for itself. You have 
known Robert Mueller for about 30 years. Is that right?
    Mr. Rosenstein. I believe that is correct. I wouldn't call 
him a close friend, but I have known him for about 30 years, 
yes.
    Mr. Cartwright. Enough to know him to be a dedicated lawman 
through and through. Is that a fair statement?
    Mr. Rosenstein. Absolutely.
    Mr. Cartwright. Yesterday Christopher Ruddy, who is the 
friend and confidant of the President, and publisher of Newsmax 
media said he thinks President Trump is, quote ``Considering 
perhaps terminating the special counsel. I think he's weighing 
that option.'' unquote. You may have seen that, Mr. Rosenstein. 
Did you see that on the news?
    Mr. Rosenstein. I saw it in the media. Yes, I did.
    Mr. Cartwright. So now this morning when you were 
testifying in the Senate in response to a question from Senator 
Shaheen, now you said have you not seen evidence of good cause 
for Mr. Mueller to be fired. Am I correct in that?
    Mr. Rosenstein. Yes, that is correct.
    Mr. Cartwright. Mr. Rosenstein, you have a sterling 
reputation in the law, a wonderful career as a prosecutor, a 
superlative resume. Your immense body of work in the Department 
of Justice is appreciated, sir.
    Mr. Rosenstein. Thank you.
    Mr. Cartwright. And I can tell you are the kind of person 
who cares deeply about preserving your reputation for 
integrity. Is that a fair statement?
    Mr. Rosenstein. Well, I care about integrity. Preserving my 
reputation is a secondary concern, but I certainly do care 
about enforcing the rule of law.
    Mr. Cartwright. Thank you.
    This is my question, if you receive an order from President 
Trump to fire the special counsel, Robert Mueller, will you do 
that or will you follow the example of Elliot Richardson's 
integrity and refuse on principal to carry out such an order.
    Mr. Rosenstein. I am in a little bit different position 
than Elliot Richardson. I am familiar with the decision that he 
made the history of the Watergate special counsel. I have a 
Federal regulation and I am going to faithfully enforce that 
regulation. The regulation provides that a special counsel may 
be removed only for good cause and so it doesn't matter who 
gives me an order, what that order is. If there isn't good 
cause I would not fire the special counsel.
    Mr. Cartwright. Thank you for that answer.

                             VOTING RIGHTS

    Mr. Rosenstein, I want to follow up on questioning that my 
colleagues Mr. Kilmer from Washington State started about 
voting rights. You are in a peculiar situation in the 
Department of Justice these days because since the Shelby 
County decision, it is up to the Department of Justice to go 
out and prosecute violations of Voting Rights Act.
    Previous to that, and during I would say the great bulk of 
your career in the Department of Justice, the preclearance 
requirement meant that the Department of Justice didn't have to 
go out and start prosecutions of voting rights, irregularities. 
Here is what I am leading up to, my question is is there a lack 
of experience among prosecutors in the Department of Justice to 
go out and initiate prosecutions and civil actions to 
investigate and prosecute cases of voter suppression, the kinds 
of cases that did not have to be brought until the Shelby 
County decision? Do you understand my question?
    Mr. Rosenstein. Yes, Congressman. And I can assure you that 
we have quite a few highly qualified and capable attornies and 
I am confident we will have the expertise to investigate and if 
appropriate to prosecute any violations that arise.
    Mr. Cartwright. And is it your pledge, Mr. Rosenstein, to 
do that, to uphold the integrity of the American electoral 
process and to seek out voter suppression wherever it happens 
in the United States and put a stop to it?
    Mr. Rosenstein. Congressman, if any case has come to my 
attention in which there has been a violation of law relating 
to voting, then yes I would.
    Mr. Cartwright. Mr. Chairman, I yield back.
    Mr. Culberson. Thank you, Mr. Cartwright. I recognize Mrs. 
Roby.

                           HUMAN TRAFFICKING

    Mrs. Roby. Thank you, Mr. Chairman and thank you for being 
here today. We appreciate you taking the time to be with us.
    I want to talk about one criminal enterprise that doesn't 
necessarily always grab the front page or garner much light in 
the media, and worth every day conversations, and that is human 
trafficking and particularly, specifically child sex 
trafficking. We have to maintain a strong footing in law 
enforcement to combat, dismantle and remove criminals in that 
area from online websites, to messaging apps on phones, to 
international safe haven for this type of behavior, law 
enforcement agencies must have the tools and need the tools and 
resources to contest this horrific and unfortunate growing 
enterprise.
    We oftentimes think about human trafficking in other parts 
of the world. But we know that it is right here in our own 
backyards. So I am interested for you to expand a little bit on 
the programs that currently exist at DOJ to fight against these 
types of crimes.
    What partner agencies and programs do you work with? And 
how well informed you believe local law enforcement is in these 
areas? And how do you work in collaboration with them to make 
sure that they are well informed but also have the appropriate 
tools in place to combat these just horrible, horrible crimes.
    Mr. Rosenstein. I have been working on child exploitation 
cases for about 20 years. The first case I remember personally 
handling was about 20 years ago as an assistant U.S. attorney 
in Maryland. And I have continued to do that throughout my 
tenure as a United States Attorney. That is a very pry high 
priority for us. And I could talk about it a lot more than 2 
minutes and 57 seconds which all I have. But let me tell you 
that we consider it an extraordinarily high priority for the 
Department of Justice. And there are many aspects to it, you 
pointed out.
    The first thing that we do is we have a commitment of 
Federal resources. So from the perspective of the Department 
that includes assistant U.S. attorneys throughout the country. 
In my home district of Maryland for example, we have both a 
child exploitation coordinator, in fact we have two offices, 
two divisions within the U.S. Attorney's Office in Maryland so 
we had two child exploitation coordinators, plus a separate 
human trafficking coordinator. We would meet every two weeks to 
talk about relevant cases within the office and make sure they 
were all getting appropriate attention.
    In addition to that, though, we coordinated our efforts 
with State, local and Federal law enforcement. And so our child 
exploitation human trafficking coordinators would work with 
agents of our Federal, State and local agencies. Primarily on 
the Federal level it is FBI and ICE, Homeland Security, that 
work on child exploitation and sex trafficking cases, but we 
also work very closely with our State and local partners 
because cases often come to their attention first.
    And so in Maryland, to use that as an example, we have 
annual seminars where we gather together our partners from 
throughout all the counties of Maryland to talk about these 
issues and to make sure that we are using our State and Federal 
authorities most effectively.
    And there are many other aspects to this too. For example, 
there is international sex trafficking. And we have cases where 
people have been brought to the United States who have been 
trafficked. And we also have had cases and I had some in 
Maryland where people left America to abuse children overseas. 
And that is also a violation of Federal law.
    So it is a very important challenge and of course the 
internet makes it all the more difficult, because it allows 
people to communicate with like minded people and seek out 
victims from the privacy of their own homes. So it raises a lot 
of challenges, Congresswoman, and we are have committed to 
doing that, very committed to addressing those challenges.
    With regard to the budget in this fiscal year budget we are 
requesting $89.6 million and 252 positions, which includes $45 
million for the victims of trafficking programs grant, within 
the Office of Justice Programs. We also request nearly $50 
million specifically to combat sex tourism. It is a horrible 
phenomenon of people traveling to places where it is less--
where it is either not illegal or where it is less enforced, 
prohibitions against child sex abuse. We also maintain 
financial support and commitment to fund the Adam Walsh Act and 
there is $62.3 million committed to that.
    So I can commit to you it is a high priority or me. I have 
talked with Rachel Brand, our newly confirmed associate 
attorney general who is responsible for supervising the civil 
rights division. This is a civil rights issue as well. And we 
are going to work together do everything we can to combat child 
sex trafficking.
    Mrs. Roby. Mr. Chairman, if I might, I have the unique 
opportunity to not only serve on the Appropriations committee 
and this subcommittee, but I also served on the Judiciary 
Committee. So the funding is extremely important to make sure 
that our law enforcement and others have the tools that we 
need, these partnerships that you have already talked about.
    But I have already worked with the Department of Justice, 
we passed the Global Child Protection Act that did close some 
very significant loopholes as it relates to sex tourism.
    So I am committed to working on this issue with you, both 
on the appropriations side, but also on the policy side as 
well. So I hope that we can continue to have this conversation. 
This is a serious, serious matter that is happening in every 
single one of our districts all across this country and abroad 
and we need to do all that we can to continue to combat it.
    Thank you. I yield back.
    Mr. Culberson. Thank you, Mrs. Roby. I recognize the 
gentlelady from New York, Ms. Meng.

                          FBI DIRECTOR FIRING

    Ms. Meng. Thank you Deputy Attorney General Rosenstein for 
being here. I wanted to ask, you have previously met with then 
Senator Sessions last winter and discussed Director Comey's 
handling of the investigation of Secretary Clinton's emails. Is 
that correct?
    Mr. Rosenstein. I don't know that I specifically discussed 
the handling of emails, but we certainly discussed the general 
concerns about the importance of the FBI maintaining the 
confidence of the American people, which means maintaining the 
integrity of Federal investigations. Part of that is not 
talking about Federal investigations and respecting the 
policies and traditions of the Department of Justice.
    Ms. Meng. How many times have you discussed Director Comey 
with then Senator Sessions and then Attorney General Sessions 
from October 2016 through May 9th, 2017?
    Mr. Rosenstein. So I didn't meet then Senator Sessions. The 
first time I ever met him would be early December so it 
wouldn't go back as early as October. I couldn't put a firm 
number on it. And I took office approximately, I believe it was 
April 27th, and the decision to fire Director Comey was made 
less than 2 weeks after that, a week and a half, I believe. And 
so there may have been some conversations there. I just 
couldn't put a firm number on it for you.
    Ms. Meng. Has then Senator Sessions ever shared concerns 
about Director Comey's actions in any of your conversations?
    Mr. Rosenstein. In general I think yes. But I am not sure 
if that is what you are asking, but yes.
    Ms. Meng. Can you share any of that information?
    Mr. Rosenstein. The as I discussed earlier, with regard to 
the issue--maybe within the scope of the independent--the 
special counsel's investigation, I am not going to be able to 
comment on that publicly, so I can not talk about that.
    What I can tell you, and I hope I have been clear about 
this, is that from my perspective I wrote a memo that has been 
cited with regard to the decision to replace the FBI director. 
I was not motivated in any way by desire to interfere with any 
investigation. And I think Director McCabe, acting director 
McCabe, has clarified that there has been no interference with 
an investigation. So that is from my perspective.
    Ms. Meng. In October 2016, Senator Sessions went on TV and 
praised Director Comey for his handling of the Clinton 
investigation. Do you have any idea when he might have changed 
his mind about Director Comey?
    Mr. Rosenstein. I am not going to comment on what was in 
anybody else's mind. As I said, I can tell you from my 
perspective, my view about that issue has been consistent. It 
is simply an issue of principle, it is not a personal matter. 
It is my principle view. And I would have written the same memo 
no matter who was President, because it reflects my view about 
the appropriate role of the FBI.

                      ETHNICITY--VICTIMS OF CRIME

    Ms. Meng. Thank you. I want to switch gears for a second. 
Over the past several months I have received numerous 
complaints from constituents that there has been a spike in 
crime against members of the Asian American community in my 
congressional district and around the country.
    When looking into this problem I discovered that the most 
recent Bureau of Justice Statistics, criminal victimization 
report did not include an Asian American, Pacific Islander 
victim category as in years past. In fact, it is just described 
as others.
    There are categories for example for age, for White, Black, 
Hispanic, and then just an other. This hinders us from 
measuring whether or not there has been in fact a spike in 
crime within the API community. Can you commit to doing 
everything in your power to ensure that victims within the API 
community are counted in the same manner as other minorities 
this coming year?
    Mr. Rosenstein. You know, I will have to look into that, 
Congresswoman, I am not familiar with that issue.
    Coincidentally one of my first--actually maybe my first 
event after becoming Deputy Attorney General was to speak at 
the Asian American Pacific Islander event at the Department of 
Justice. It was a recognition of a month to commemorate that 
community that community, and I was proud to be there and we 
had a good showing of folks throughout the Department. But this 
issue I am not familiar with so I will look into it and get 
back to you but I just don't have an answer at hand.
    [The information follows:]

    The Office of Justice Programs/Bureau of Justice Statistics 
(BJS) expects to receive the 2016 data files for the National 
Crime Victimization Survey by the end June 2017. At that point, 
BJS will assess the impact of increased sample sizes to 
determine if it is possible to include violent crime estimates 
for Asian-American/Pacific Islander (AAPI) persons in the 2016 
Criminal Victimization report. If it is possible to provide 
statistically sound estimates of victimization within the AAPI 
community, BJS will report those estimates. In previous years, 
despite the large sample size of the survey, a relatively small 
number of people reported victimization. This makes it 
difficult to provide reliable victimization rates for 
demographic subgroups of the population.

    Ms. Meng. I would appreciate you getting back to me. This 
is really important so that public policymakers and law 
enforcement officers are aware of any increase in crime 
victimizations trends within the API community.
    I yield back.

                              IMMIGRATION

    Mr. Culberson. Thank you very much.
    It is my pleasure to recognize my friend and colleague from 
Texas, Judge John Carter.
    Mr. Carter. Thank you and thank you, Deputy Attorney 
General Rosenstein. I appreciate you being here. I apologize 
for being late, I was hosting the chief of staff of the Army in 
a classified briefing that I set up for Members of Congress. I 
couldn't break away until the last minute. I apologize for 
being late.
    I have a lot of interest in immigration because I have a 
lot of responsibility in the area of Homeland Security. In 
fiscal year 2015 and 2016 budgets we funded 80 new immigration 
judge teams. Yet the immigration court backlog continues to 
grow. The budget proposes an additional 75 new immigration 
judge teams, which I am all for.
    Does the DOJ have the infrastructure and courtrooms, in 
addition do you have the ancillary staff and lawyers to staff 
and place these judge teams? I have long been an advocate of 
placing immigration judge teams close to the fight on the 
border, place them with the men and women of the Customs and 
Border Protection that are down there in the fight. Where do 
you intend to place these teams? That is the beginning. I have 
more questions, but I would like to talk about that first.
    Mr. Rosenstein. Thank you, Congressman, Judge Carter. I 
think two responses, I did mention this earlier, but let me 
repeat it since I realize you weren't in the room. We have two 
issues with regard to staffing of our Executive Office of 
Immigration Review.
    The first is our budget request includes 75 new judges, and 
not just individual judges but teams. As you certainty know, a 
judge needs a support structure. So my impression is that the 
money that we are requesting, $75 million, will allow us to 
fund 75 judges and their teams, a total of 450 people. And 
certainly that would include space, office space, and 
equipment, and everything that they need in order to do their 
job. That is one issue.
    But the other issue, that you have highlighted, is that 
there are vacancies within the judges who have been already 
been authorized. In fact, we are currently working to fill 56 
vacancies for immigration judges. The reason we have those 
vacancies was there was some bureaucratic difficulties with the 
hiring process. And I worked with our administrative folks, 
some of them behind me, to improve that. And I think that we 
are much better off now. We have a more efficient system in 
place. So we will be able to bring people on board more 
quickly.
    We have already hired 38 immigration judges this year. And 
we plan to have 345 judges on board by the end of this year. 
And obviously if we are funded for additional judges, we will 
be able to bring those on board as well. That will help, but as 
you recognize the backlog just tremendous. I mean, the notion 
that we have well over half million cases that are unresolved 
and I understand it is maybe close to 600,000 cases now. We 
need to get that under control.
    So I have met with the new acting director of the Office of 
Immigration Review, the previous director left the Department 
just a few weeks ago. I met with the new acting director who 
happens to be a judge so he is very familiar with the system. 
He has been an immigration judge. And I have talked with him 
about this challenge, and it is a big challenge. But if we get 
the new people on board, we will be able I think to at least 
stop increase in the caseload and then hopefully begin to make 
progress on bringing it down, of.
    And of course another important aspect of bringing it down 
is to reduce the flow of new cases into the system. And if we 
are effective in doing that, then over time, we will be able to 
bring that under control. But it is a big challenge.
    You also asked me about where they are going, and the 
answer is we are going to send them where we need them most. 
That will be based upon an analysis of where those backlogs are 
most significant.
    Mr. Carter. Thank you for the answers. I met with a--he 
said he was a chief of immigration judges for our region along 
with about 5 district judges down in the valley. And they were 
telling real horror stories about not having a place to hang 
their hat, not having anybody to help them, not having 
courtrooms or spaces they could call a courtroom to be able to 
hold the hearings. So I am glad you are on top of that issue 
because you have a tremendous backlog.
    And about the backlog, my staff has visited immigration 
courts in Texas and reported on the frequent and repeated 
administrative closings of immigration cases, specifically 
stemming from the 2014 to 2016 surge of juveniles and family 
units pouring across our southern border. Does the DOJ have any 
intention of reopening any of these cases? This is a tremendous 
number of people.
    Mr. Rosenstein. Congressman, I am afraid I don't know the 
answer to that, but I will be happy to look into it and get 
back to you.
    [The information follows:]

    Administrative closure is used to temporarily remove a 
pending case from the active docket of an immigration judge or 
the Board of Immigration Appeals. Administrative closure does 
not terminate the case, withdraw an existing Notice to Appear, 
or result in a final order. As a result, administratively 
closed cases are not subject to reopening because only cases 
that have resulted in final orders may be reopened. Instead, 
cases that have been administratively closed must be re-
calendared and placed back on the adjudicator's active docket. 
Either DHS or a respondent may move to re-calendar a case that 
has been administratively closed, and immigration judges or the 
Board of Immigration Appeals will rule on such motions in 
accordance with applicable law. Whether immigration judges or 
the Board has the authority to sua sponte re-calendar an 
administratively closed case is a legal question that has not 
been resolved. Between October 1, 2013 and January 31, 2017, 
the Department administratively closed 16,521 priority surge 
cases.

    Mr. Carter. I would hope that we would be able to reopen 
those questions. I understand some of the compassion people 
have, but the reality was they used a loophole in the law to 
get into this country. And we need to at least have hearings to 
see if they really have a credible fear. It is very important.
    So thank you very much for what you do. And I look forward 
to working with you.
    Mr. Rosenstein. Thank you.
    Mr. Culberson. Thank you, judge. I understand the House 
will be voting between 3:30 and 3:45 so I will keep my question 
very short so I can pass it on to my good friend Mr. Serrano.

                            SOUTHWEST BORDER

    I was pleased to see the Attorney General in April say that 
he was going to make the southwest border ground zero in our 
law enforcement effort to curb drug trafficking, human 
trafficking.
    And I wanted to ask you Attorney General Rosenstein, what 
are the Department's short and long-term plans to deploy law 
enforcement and ramp up prosecutions on the southwest border? 
And what other changes will take place this year? And what do 
you expect will be needed in the 2018 appropriations for the 
Department of Justice to ensure that the law is enforced on the 
southwest border?
    Mr. Rosenstein. Well thank you, Congressman. In the short-
term we actually have surged resources by sending some 
additional immigration judges to the southwest border. And we 
have a plan to send assistant U.S. attorneys. It is primarily 
an issue of Homeland Security, which is responsible for 
policing the border and so they are responsible in the first 
instance for controlling that.
    But we do have programs within the Department, including--
our request includes $145 million to enhance border security 
and immigration, that includes additional immigration judges as 
we discussed, 70 more prosecutors, 40 deputy U.S. Marshals and 
27 additional attorneys in the civil and environmental 
divisions.
    We also have programs that are implemented in some 
districts, such as Operation Streamline, which is an effort to 
prioritize immigration enforcement in our U.S. attorneys 
offices. So I think all of those strategies, Congressman, will 
have an impact.
    As I said, the primary issue is to reduce the flow of 
illegal aliens so we don't need to deal with this issue, but we 
rely on Department of Homeland Security in the first instance 
to maintain the integrity of the border.
    Mr. Culberson. Operation Streamline was instigated in the 
Del Rio sector by Federal District Judge Alia Moses who I 
admire immensely, and she simply is enforcing existing law with 
a compassionate heart and good sense.
    She is using the tools at her disposal there to ensure 
people that cross the border illegally that there is some 
consequence. As the ICE director told us this morning, if there 
is no consequence for violating the law then you can expect the 
law is not going to be honored.
    And to make sure that Operation Streamline is implemented 
up and down the southwest border will you be asking for 
additional prosecutors? Have people moved to the staffing, 
prosecutors moved to the southwest border?
    Mr. Rosenstein. Yes, that is correct. We have already 
internally from existing resources. Over the next month I 
anticipate we will be moving at least 10 prosecutors as a 
short-term way to assist those border districts that have the 
most significant challenge with immigration cases.
    But in our budget we are requesting 70 additional border 
prosecutors that would allow us to staff up and manage those 
cases.
    Mr. Culberson. I want to also echo my support with what the 
Judge Carter is asking about, is to encourage you to expedite 
the hiring of immigration judges and moving them to the 
southwest border as soon as rapidly as possible.
    I will yield back the balance of my time in order to 
expedite this and help. I recognize my friend judge--Mr. 
Serrano from New York.
    Mr. Serrano. Judge? I played a judge once on Law and Order. 
It is a true story.

                          FBI DIRECTOR FIRING

    Mr. Rosenstein, last week former Director Comey testified 
that he shared his concerns with you regarding the President's 
meeting with him in asking him to let the Michael Flynn thing 
go. Director Comey said, quote, ``I spoke to the Attorney 
General and I spoke to the new Deputy Attorney General, Mr. 
Rosenstein, when he took office. And I explained my serious 
concern about the way in which the President is interacting 
especially with the FBI.'' end of quote.
    Did you have such a meeting with the then Director Comey? 
Did he share his concerns over the one-on-one meeting with you? 
And what was your response?
    Mr. Rosenstein. I did have meetings with Director Comey 
during our brief period in which we overlapped in this 
administration. And I am not sure exactly if that is what he 
said in his testimony, Congressman, but as I described earlier, 
I am not going to be testifying publicly at this time about any 
interactions I had that may be relevant to the Special Counsel 
investigation.
    I understand Director Comey did and I don't fault him for 
it. He is no longer a representative of the government. He has 
his own independent decision-making process, but for me, I 
think it would be inappropriate for me to discuss that in a 
public hearing at this time.
    Mr. Serrano. Okay. Former U.S. attorney for the Southern 
District of New York, Mr. Bharara recently revealed that 
President Trump called him directly three times during his 
first weeks in office and he was fired shortly after refusing 
the third call. This seems highly unusual to say the least.
    As a former U.S. Attorney from the State of Maryland, from 
2005 until earlier this year, were you every contacted directly 
by the President of the United States? Would you say that such 
contact with a U.S. attorney is unusual.
    Mr. Rosenstein. I would say it is unusual, that doesn't 
mean it is illegal or wrong. But yes, sir, I agree, it is 
unusual.
    Mr. Serrano. Prior to this statement by Mr. Bharara, were 
you aware that President Trump had directly contacted him? Why 
do you think the President would take such a step?
    Mr. Rosenstein. I don't have any opinion, Congressman, 
about why that occurred.
    Mr. Serrano. But your statement is still that it is 
unusual.
    Mr. Rosenstein. Yes.
    Mr. Serrano. Okay. Mr. Chairman if our colleagues get in 
the time they want, I would like to ask a very short question 
at the end.
    Mr. Culberson. Certainly.
    Mr. Serrano. I would love to ask it now, but that is going 
a little bit overboard.
    Mr. Culberson. Very good. Mr. Rogers.

                            OPIOID EPIDEMIC

    Mr. Rogers. Thank you, Mr. Chairman. General, let me get 
back opioids. When we had that terrible outbreak in my area 12, 
13 years ago, we put together finally an organization of people 
of faith, law enforcement, people in treatment, and so on. And 
created an organization with a three-pronged attack on the 
problem, the holistic approach, and called it UNITE, which 
stands for, Unlawful Narcotics Investigations Treatment 
Education.
    And that organization still is going full blast. They have 
put in jail some 4,500 pushers. It covers about half of the 
State of Kentucky, but it is not a governmental agency and it 
is quasi and it works. And it is able to do a lot of things the 
government can't do like involve churches, people of faith, law 
enforcement, people from the Sheriff's offices to the city 
police and Federal, State and local. A highly successful 
organization only because I think it was able to marshal a 
regional coalition, something much larger than a locality. And 
we drew information from all sorts of people thereby because it 
was this large regional outfit.
    The CARA Act, that we passed, now for the first time 
authorizes grants to regional organizations, not just 
localities, like UNITE. And I really strongly encourage that, 
because it is the only thing that I found in my experience that 
really works.
    Now we took UNITE to the national level that holistic 
approach. The UNITE organization decided hey, this thing works, 
lets expose it to a larger audience. And we started a national 
summit on prescription abuse in Orlando for 3 or 4 years. Now 
it has been moved to Atlanta.
    In April, the sixth annual summit we had some 3,000 people 
there from every State and seven countries. The session number 
5 we had the President, we will have the Attorney General, we 
will have governors, Senators, CDC, NIH and so on. All of the 
relevant players in one place, which is terribly important.
    Number one, I want to encourage you and the Department to 
take part in the summit next year, but more importantly to 
recognize these regional organizations, that now can be funded, 
can healthfully be funded, through the CARA Act.
    What do you think of that?
    Mr. Rosenstein. I agree with your approach, Congressman. 
Sometimes you hear people debate whether drug abuse is a law 
enforcement problem or a public health challenge. And I think 
that is a false choice, it is both. And we need support from 
law enforcement, and from public health providers, and from 
educators, and parents, and religious leaders. We need help 
from everybody to deal with this challenge.
    Because you describe the UNITE program in three steps, the 
three steps that I am accustomed to using are to talk about 
prevention, intervention and prosecution. And prosecution's an 
important part. It is what we do best and uniquely in the 
Department of Justice, but that is not the only solution to 
this problem. So I agree with you, I think a united approach, a 
comprehensive approach, what the DEA calls a 360 approach is 
critical if we are going to solve this problem.
    With regard to CARA, I would point out that we have 
requested for opioid abuse, we have requested $20 million this 
year as opposed to $13 million last year. So that budget does 
reflect that there are some cuts in some areas and it reflects 
an increase in the amount of money devoted to opioids.
    But this is not just a Federal issue before I came to D.C. 
we were working with the Governor in Maryland and his team, in 
developing strategy, and the Attorney General, without regard 
to politics because they are different parties, but we were all 
working together to try to come to terms with this because this 
is I believe a terrible epidemic that is a visiting tragedy on 
many American families.
    And we all do need to work together and get all hands on 
deck to address this from every perspective to make sure that 
we teach people to avoid this and we teach doctors to avoid 
getting people hooked, and we stop the criminals who are 
bringing these drugs illegally into our communities.
    Mr. Rogers. One of the big reasons why a regional coalition 
works for example, UNITE was able to get all 45 counties to 
join together into a single unit. And then authorized law 
enforcement to have jurisdiction, in all of those counties, so 
we could have a strike force where you had a small county with 
a sheriff and five city policemen, they can do nothing. But if 
we can bring in people from other counties, in mass numbers, 
and make the buys, and make the arrests, which we have done, 
then it works, only because we had this coalition of localities 
in a regional organization. So I strongly encourage that.
    In closing, Mr. Chairman, let me encourage also you to not 
cut the funding for the prescription drug monitoring programs, 
they really have made a big difference and now we are trying to 
get them all wired together and that takes money.
    So I hope that the grant programs for PDMPs, can be 
continued and that you will bring Missouri into the fold.
    Mr. Rosenstein. Congressman, that was an important issue 
for me in Maryland and I am very familiar with that and I 
worked on the opioid task force of the previous administration, 
and I worked with officials in Maryland in implementing a PDMP, 
a prescription drug monitoring program in Maryland. They varied 
throughout the country. And they are all called PDMP's but they 
vary in the extent to which they share information with law 
enforcement. But that can be a really valuable tool. In our 
current budget we are proposing $12 million to continue that 
effort nationally.
    Mr. Culberson. Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. With permission, I 
would like to yield to our ranking member.
    Mr. Culberson. You are recognized.

                         PUERTO RICO PLEBISCITE

    Mr. Serrano. I will try to make this as fast as possible, a 
totally different subject.
    My birth place Puerto Rico, we put in money and Mr. 
Culberson put in for us, $2\1/2\ million to hold a plebiscite 
in Puerto Rico. And the way the language read is that the 
ballot, voter education, and everything surrounding that 
election had to be approved by the Justice Department, we were 
thrilled with that because it would be the first time in 119 
years that Puerto Rico would have a Federally sponsored 
question on its status.
    The Justice Department came back in a bizarre moment, I 
think, and said, you must include the current status on the 
ballot. And people like myself said, but the current status is 
a problem. We are trying to change it to independent, 
statehood, something else, associated Republic, not the 
colonialism that we have now. So they did it they went back to 
the legislation and changed the ballot. The Justice Department 
never responded. They had to vote on Sunday, the turnout is out 
there--I mean, the results are out there.
    Question number one, as far as the money goes, is that a 
dead issue? Can with we do something interactively?
    And number two, will the Justice Department be in any way 
looking at those results or at least saying that the ballot--
not saying--I am sorry, looking to see if that new ballot met 
the requirements?
    Mr. Rosenstein. Thank you, Congressman, this issue came to 
my attention yesterday as I was preparing for this hearing. And 
my understanding based on the staffers that I have talked with 
is that as you describe they were required to make a review of 
the ballot. They made a determination with regard to the first 
version that there was in their good faith opinion a flaw in 
the ballot and they made a request to fix it.
    And then my understanding is that the Representatives of 
Puerto Rico came back with their proposed ballot and with a 
date for the plebiscite that was in the very immediate future. 
And we simply didn't have time to review it.
    Now my understanding from folks I talked with, Congressman, 
is that they were operating in good faith in their judgment. 
That is very unfortunate that it developed the way it did. I 
don't know what we can do now to remedy it, but I will commit 
to you--as I said, I just learned about it yesterday--But I 
will look into it and I will try to get back to you after the 
hearing when I have further information about it.
    [The information follows:]

    The Department appreciates your interest in the Puerto Rico 
plebiscite and responded to your letter (co-signed by Chairman 
Culberson) on July 19, 2017. Thank you for your patience as the 
Department worked to respond to the questions that you raised 
in your letter and to the Puerto Rico Governor's Office.

    Mr. Serrano. That is good enough for me. Thank you, sir.
    Mr. Rosenstein. Thank you.
    Mr. Serrano. And thank you.
    Mr. Culberson. You still have 2 minutes left, if you would 
like to ask a follow up.
    Mr. Kilmer. Thank you, Chairman. I will actually very 
briefly.

                           COPS GRANT FUNDING

    I was actually please to see that the budget proposed an 
increase in funding for the COPS program. We have seen great 
value in our neck of the woods with that program, and it is not 
just with regard to putting more law enforcements on the 
street, but also by pursuing more community policing 
opportunities. One of those very successful examples of that 
was the Project PEACE effort in Tacoma, which actually was a 
collaboration between the police department and community 
members.
    I would like to just get your sense of will the department 
continue to support the mission of the COPS program, and that 
work toward collaborative policing and improved community 
police relations? And moreover, do you think that the 
additional funds that are requested in this meet the level of 
demand for increased community policing?
    Mr. Rosenstein. Yes, Congressman, we will continue to 
support the COPS program. I met with the leadership at the COPS 
office, and I talked with them about my view of how important 
it is. And there are places in the country where we do need 
support for local law enforcement. And that COPS programs 
provides us with a valuable opportunity to support our State 
and local partners.
    I think you recognize, we all recognize that most of our 
law enforcement agencies are trying it do the right thing. 
Sometimes they don't have the training they need, sometimes 
they don't have the tools that they need. And sometimes there 
are willful violations, and when there are, we deal with them 
appropriately.
    But that COPS funding, which we have requested will allow 
us to help support State and local law enforcement to make sure 
that they are in compliance with Federal constitutional 
requirements. And I believe that that will help us in promoting 
public safety throughout the country.
    So with regard to your question about whether it is an 
appropriate amount, as we discussed, it is always a balance as 
to, you know, where it is appropriate to spend the money. But I 
can commit to you that with the request that we made, if that 
program is funded, we are going to make sure that money is used 
effectively to achieve those goals.
    Mr. Kilmer. Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. It looks like they are just about to call a 
vote on the floor. Mr. Jenkins.

                            DEA 360 PROGRAM

    Mr. Jenkins. Thank you, Mr. Chairman.
    Let me thank you for the DEA's work on the 360 program and 
I appreciate the fact that I think it has either been kicked 
off or one of the early designated locations as Charleston, 
West Virginia. So thank you for your investment and your 
attention to our State and the opioid epidemic.
    We do notice that and I have had some discussions with FBI 
officials about the fact that there are six residency agency 
locations in West Virginia, but only one of which is in the 3rd 
congressional district. And we had a discussion about the need 
for an additional location, potentially in Rowley County, 
Beckley. Do you have any information about the status of that 
request and what the FBI's potential investment or a new 
location in West Virginia might be?
    Mr. Rosenstein. From what I understand about that, 
congressman, is that it has been a number of years since the 
FBI has had an RA in Beckley, West Virginia. The Bureau's 
Pittsburgh field office currently oversees West Virginia and 
there are five RAs covering the entire State.
    But I do know the FBI routinely reevaluates its footprint 
to ensure its offices are adequately manned and resourced. The 
current RA, as I am sure you are aware, are in Wheeling, 
Huntington, Charleston, Martinsburg and Clarksburg. And I will 
talk with the acting director and once confirmed the new 
director about whether there with is a need for sixth. 
Obviously those are difficult decisions. I know from my own 
experience as a prosecutor we like to have them everywhere, but 
there are limits on our resources, number one.
    Number two, there are benefits to having our agents grouped 
together, rather than spreading them out too broadly, it is 
valuable to have teams or squads of agents who are co-located 
and work together. So there are a number of conflicting 
challenges there. The most important thing is we need to make 
sure we have appropriate resources to enforce Federal law in 
those areas, West Virginia, I will make sure that we do.
    Mr. Jenkins. I appreciate that. Clearly we have an area of 
need, high intensity area from a per capita. Virtually no place 
else in the country has as serious a problem. We need to put 
resources where the problem is and that is in my district in 
West Virginia.
    Thank you. I yield back.
    Mr. Culberson. Mr. Cartwright.

                          US PAROLE COMMISSION

    Mr. Cartwright. Thank you, Mr. Chairman. Mr. Rosenstein, I 
want to invite your attention to the issue of notification to 
families of victims of crime, notifications of parole hearings. 
We had this issue come up in my district and--let me see if I 
can find that--my constituent whose name is Thomas Halpin 
called my attention to the lack of timely notification of 
victims families before a parole hearing.
    Here is what happened, Mr. Halpin's sister and brother-in-
law were the victim of a brutal murder 30 years ago. The man 
who killed this couple is currently serving a life sentence 
with the possibility for parole. Mr. Halpin and his family 
vigorously oppose parole for their sister's murderer. And under 
the Crime Victims' Rights Act they have the ``right to 
reasonable, accurate, and timely notice of any public court 
proceeding or any parole proceeding involving the crime, or of 
any release, or escape of the accused.''
    Mr. Halpin informed me that he did not receive adequate 
notice in advance of the most recent parole hearing which 
occurred on March 7 of this year.
    The family has experienced a tremendous hardship every time 
parole comes up for the criminal. I believe the least we can do 
is provide them adequate notice so they can provide testimony 
in advance of the hearing. It is my understanding there is no 
standard timeframe for notifying victims and families in 
advance of parole hearings. Am I correct in that?
    Mr. Rosenstein. Congressman, I regret I do not know the 
answer to that, but I will certainly look into it for you.
    [The information follows:]

    There is no standard timeframe for notifying victims and 
families in advance of parole hearings specified by statute, 
legislation, or the Attorney General Guidelines for Victim and 
Witness Assistance (2012 edition). However, the United States 
Parole Commission (USPC) has internal procedural guidance that 
provides that notifications will be completed 45 to 60 days 
before the week of the scheduled parole docket.

    Mr. Cartwright. That is the right answer. I don't want you 
to guess.
    Can you explain the logistical decisionmaking process for 
determining when and under what circumstances such 
notifications might be made? And do you feel the commission has 
sufficient resources, that is what this committee is about, to 
provide reasonable notice to victims before hearings?
    Mr. Rosenstein. I agree with you 100 percent, it is 
important for us to make sure we do provide notice to victims. 
The parole commission, that is new to me, I didn't have 
responsibility for that in any of my previous positions in the 
Department. Patricia Smooth is currently the director, the 
acting director in the parole commission. I will talk with her 
about that or the chair.
    But I don't know hopefully that is an isolated case as 
opposed to evidence of a systemic problem I think even in our 
office where we made our best efforts. There would occasionally 
be a case where a mistake was made and for some reason we were 
unable to give appropriate notice of a matter where a victim 
had a right to notice.
    So what I can tell you is I will look into that general 
issue and that particular case. And with your permission we 
will get back to you after the hearing and I will let you know 
what we find out.
    [The information follows:]

    The United States Parole Commission (USPC) provides 
notification for its parole-related proceedings. This includes 
actions relating to release, change in offender status, changes 
on parole, and termination (when applicable). All persons 
identified as a crime victim or victim representative are 
eligible for notification. If a victim and/or representative is 
located, USPC attempts to contact the person by sending a 
notification letter. When a response is received, victims and/
or their representative may elect to participate in parole 
proceedings in person, by video teleconference, by audio 
statement or by written testimony.
    Attorneys, family members, relatives, friends, or other 
interested persons may submit written correspondence to the 
Commission at least 30 days before the scheduled docket, for 
consideration and inclusion in the hearing. There are instances 
where victims and/or representatives contact the USPC after 
this time period and Victim Services Program (VSP) along with 
the United States Attorney's Office makes every effort to 
ensure participation.
    When the USPC is scheduled to hold hearings, its Operations 
Division carries out a review of eligible cases and receives 
documentation from the Bureau of Prisons 60 days in advance of 
the scheduled docket. The VSP then reviews all cases to 
identify those that include a violent crime and/or fraud--to 
determine if notification is required and to identify the 
eligible victims or representatives. The VSP sends out 
notifications within 45 to 60 days of the scheduled docket 
week. In cases where there are no previously registered victims 
and/or representatives, the VSP must research contacts using 
original case records. If the information is outdated, the 
Commission then searches several proprietary record databases 
to locate current contact information for the victim and/or 
next of kin.
    The USPC has access to a wide range of resources that serve 
to aid victims that are involved in parole proceedings and 
continues to improve the services it provides.

    Mr. Cartwright. I will be obliged on behalf of the Halpin 
family and any other family so inconvenienced. I will 
appreciate working with you on the issue.
    I yield back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Cartwright. We are down to 
the 9\1/2\ minutes in the vote. I understand any additional 
questions we have we will submit for the record.
    Mr. Rosenstein, I want to thank you for your appearance 
here today and for your service to the country.
    The Subcommittee hearing is adjourned.
    Thank you very much.
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    
   
                                          Wednesday, June 21, 2017.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ANDREW G. MCCABE, ACTING DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. The 
Subcommittee is pleased to welcome today Acting Director Andrew 
McCabe to present the fiscal year 2018 budget request for the 
Federal Bureau of Investigation. The FBI is our premier Federal 
law enforcement and domestic intelligence agency which often 
makes headlines, whether the topic is terrorism, cyber threats, 
espionage, or international organized crime. The FBI leads 
antiterrorism, counter intelligence and national security 
efforts, while also combating gangs, financial fraud, human 
trafficking, and public corruption. It is the indispensable 
partner to State and local law enforcement agencies and our 
liaison with Federal law enforcement partners.
    We are very grateful that the FBI is leading the 
investigation into the Wednesday morning shooting at the 
congressional baseball practice. We are deeply grateful for the 
work that your officers do every day, and for looking into this 
terrible tragedy. We are very, very grateful for the work, the 
courageous work of the Capitol Police, the law enforcement 
officers of Alexandria who saved a lot of lives that morning, 
and for all the first responders who came out to help.
    Our thoughts and prayers are with our Whip, Majority Whip, 
Steve Scalise, Zachary Barth, Matt Mika, Special Agent David 
Bailey and Special Agent Crystal Griner, who are the victims of 
this senseless crime, and we pray for their quick recovery.
    The threats that face our country, Director, and the safety 
of all Americans appearing to be growing in range from 
terrorist groups such as al-Qaida, and ISIS, espionage, 
cybercrime, international organizations, who traffic in both 
humans and drugs in violent crime. I am particularly concerned 
about the terrible epidemic of human trafficking which, 
unfortunately, Houston, Texas and Interstate 10 has been a hub 
for too much of that. There are too many young women whose 
lives have been destroyed in this terrible traffic. I look 
forward to visiting with you about what the FBI can do and is 
doing, and what the Subcommittee can do to help support your 
work to fight human trafficking and exploitation of young 
women.
    Above all, we want the men and women of the FBI to know how 
immensely proud this Subcommittee is and the Congress is of 
their work, and that we will work together, Mr. Serrano and I, 
arm in arm, to support you, to help you with the resources that 
you need to continue your important work to protect this great 
Nation.
    We are, however, facing a difficult budget situation. Mr. 
Director, there is an unrelenting pressure to trim budgets. We 
have also to ensure our constituents that their hard-earned tax 
dollars are being spent wisely, and frugally, and effectively. 
We are immensely grateful to you, sir, for your service to the 
Nation, and pleased to have you here today.
    And before we proceed, however, I would like to recognize 
the ranking member of the Subcommittee, the gentleman from New 
York, Mr. Serrano, for his comments.
    Mr. Serrano. Thank you, Mr. Chairman. I would like to join 
you in welcoming Acting Director McCabe before the 
Subcommittee.
    This is a turbulent time for the Federal Bureau of 
Investigation, for reasons not of the Bureau's making. I think 
it is important, however, that we take a moment today to thank 
the rank and file of the FBI for their hard work and service to 
our Nation. Please, Mr. Director, pass along our gratitude to 
the FBI agents and professional staff around the Nation and 
abroad.
    As a career FBI employee, I am glad that the Acting 
Director has a chance to testify before us this afternoon. I 
believe that your insights into the agency in the wake of 
Director Comey's firing are vitally important in helping us to 
understand the impact of that action, and subsequent statements 
by the President on agency morale.
    The FBI's fiscal year 2018 budget request includes a slight 
reduction of $44.6 million from the amount in fiscal year 2017. 
This is somewhat ironic, given the fact that a majority of FBI 
budget falls under the Defense spending side of the ledger 
where the President has proposed a $54 billion increase. 
Apparently, none of that increase is for the FBI.
    Given your important role in protecting our Nation, this is 
very troubling. I am mostly concerned that the Justice 
Department is in the process of giving less priority to 
critical civil rights and voting rights protections that have 
long been upheld by the Department. The FBI plays a crucial 
role in investigating violations of our Federal civil rights 
laws, including under the Voting Rights Act, the Civil Rights 
Act, and the color of law violations. And it is important that 
your ability to maintain these important roles is maintained. I 
hope we can discuss your ongoing efforts today in the context 
of the policy changes being put forward by the Attorney 
General.
    Additionally, I am interested in discussing your execution 
of the NICS system which conducts criminal background checks 
for firearm purchases. You have requested 136 fewer personnel 
to conduct background checks in 2018. This is problematic 
because this reduction will increase delays, allow more sales 
to go forward after 3 days without the necessary check, and 
likely increase over time for an already overworked staff. This 
proposed cut seems like an unwise decision that will harm 
public safety.
    Lastly, I think it is important to discuss the ongoing 
investigation into Russia's interference into last year's 
election. I am curious about how your work in this area 
dovetails with the ongoing investigation by the Special 
Prosecutor, and whether any FBI personnel or resources have 
been detailed to Director Mueller.
    Thank you for your service, sir, as Acting Director and 
other parts of the Department. I look forward to your 
testimony.
    Mr. McCabe. Thank you.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    Director McCabe, we are delighted to have you with us 
today, and you are recognized for an opening statement. Your 
written statement will be entered into the record in its 
entirety without objection. And if you could keep your remarks 
to 5 minutes, we would be very grateful. Thank you for being 
with us today, sir.
    Mr. McCabe. Thanks, members of the Subcommittee, for having 
me here. Thank you for your support of the men and women of the 
FBI. We could have all the money in world, all the best 
technology, but without the amazing people of the FBI, we won't 
be able to keep the American people safe. I am proud of these 
individuals and I am grateful for their dedication and their 
hard work. We are all grateful for your continued support for 
our mission.
    As you know, the FBI is in a time of transition. It has not 
been easy on any of us. Director Comey was a thoughtful and 
inspiring leader. He fostered a number of priorities to make 
the FBI better and stronger, from improvements in the way we 
collect, use, and share intelligence, to our cyber programs, to 
leadership and diversity issues. We are going to do our best to 
make sure we continue to make progress in all of those areas.
    The threats we face are constantly evolving. We, too, must 
continuously examine the way we can do business to ensure that 
we are doing everything we can in the best way that we can. I 
firmly believe that the FBI maintains a sacred trust with the 
American people to protect them and uphold the Constitution. We 
do that with the precious resources that those people and this 
Committee give us. So, a fundamental element of that sacred 
trust is making sure that we are always good stewards of the 
taxpayers' money.
    We have tried to be good stewards of the funding provided, 
and we have been conservative in our budget requests. We ask 
for what we need, and when we need extra in certain areas, we 
do not hesitate to tell you. And, yes, I have a few of those 
extras to talk to you about today.
    The FBI's budget request this year proposes a total of $8.7 
billion for Salaries and Expenses. This will support 33,533 
positions: 12,484 of which are Special Agents; 2,950 of which 
are Intelligence Analysts; and 18,099 are Professional Staff. 
We need every single one of those people. They are the 
lifeblood of the FBI. They are, over and beyond everything 
else, our best and most impactful resource.
    Now to be clear, the fiscal year 2018 budget represents a 
decrease of more than $400 million from the fiscal year 2017 
levels. This will result in a net reduction of over 1,600 
positions and more than $44 million for Salaries and Expenses.
    So let me shift briefly to program enhancements. I would 
like to highlight a few of the things we requested. First and 
foremost in cyber, we asked for $41.5 million to build on our 
cyber capabilities. These are investigative capabilities, 
collection capabilities, and analytic capacity. The frequency 
and impact of cyber attacks on our networks has increased 
dramatically. We need to shift from reacting after the fact to 
preventing such attacks before they occur. We have to collect 
the best intelligence and we have to share it with our partners 
both in law enforcement and in the private sector in real time; 
and to do that, we have to hire and develop the best cyber 
talent.
    In the counterintelligence area, we are asking for $19.7 
million to counter threats from foreign intelligence services. 
We will also use these resources to focus on insider threats 
from trusted employees and contractors. In the area that we 
refer to as going dark, we have asked for $21.6 million to 
address this problem. And I can tell you, sir, this is more 
than just getting into locked devices or communications, which 
is certainly a part of the issue, but it is not the entirety of 
it. Going dark is impacting our ability to execute lawful court 
orders on electronic devices across the spectrum, and that is a 
growing problem.
    Of course, we still have our priority of violent crime. 
Violent crime remains one of our highest priorities, for good 
reason, and it is one of the things that challenges our 
partners at the State, local and tribal level every single day. 
We are asking for 33 positions and $3.4 million to implement 
recommendations from the Attorney General's Task Force on Crime 
Reduction and Public Safety. In the surveillance area, we have 
asked for an additional $8.2 million to sustain our 
surveillance capabilities.
    As you know, sir, that period of time within which a 
counterterrorism target proceeds from merely being radicalized 
to deciding to operationalize their intent has condensed over 
the last several years. We are most concerned with modalities 
that include vehicles and bladed weapons, some of which we have 
seen, in fact, earlier today in Michigan, which will further 
compress that time that we refer to as from flash-to-bang. One 
of our best tools against that threat is lawful surveillance.
    If you will give me just a minute, I will talk about one of 
our highest legislative priorities for this year, truly our 
most important legislative priority, and that is the 
reauthorization of FISA section 702.
    As you know, section 702 gives us the authority to collect 
foreign intelligence from foreign persons we believe to be 
outside the United States. And this intelligence is incredibly 
important to us. It is a tool the entire U.S. Government 
benefits from, and it is one that if we lose it, this country 
will be less safe. Without it, we do not have a window into the 
activities of the terrorists, spies, the weapons proliferators, 
and other foreign adversaries who may be coming after us. We 
don't know what they are planning, we don't know who they are 
recruiting. And we might not know what is coming our way.
    As you know, the program undergoes vigorous oversight from 
the executive, legislative and judicial branches, and that is 
just the way we want it to be.
    We are also asking for resources to disrupt transnational 
criminal syndicates, to process increased number of NICS checks 
per year, and to maintain our Biometrics Technology Center. 
These enhancements are important and necessary. And we know 
that we can always count on the resources we need to keep the 
country safe, and as I said, we are very grateful for that.
    In conclusion, our leadership has changed, but the 
fundamental things about the FBI will never change. Our 
commitment to keeping the American people safe, our fidelity to 
the Constitution and the rule of law, and our core values: 
respect, compassion, fairness, integrity, accountability, 
leadership and diversity, and, of course, adherence to the 
Constitution. These are the values that have made the FBI what 
it is today. We will stay focused on the mission, we will keep 
doing great work with your support, because the American people 
deserve no less.
    With that, I am happy to take your questions.
    Mr. Culberson. Thank you, Director McCabe.
    Your salaries and expenses request this year is $45 million 
below the enacted 2017 appropriation, although I know this is 
the result of the assumption that the OMB made that we would be 
under a continuing resolution, which fortunately did not 
happen, I do not want to get you crosswise with OMB, but the 
request appears to leave the FBI with a hole to fill and help 
us assist you with that. I wanted to ask, how would this 
reduction affect the FBI's ability to address terrorism and 
homegrown violent extremism? And how would it impact priority 
investigations?
    Mr. McCabe. Sure. So it will certainly impact us in many 
ways. It is a broad and deep enough reduction that it will 
touch every program. It will touch Headquarters and it will 
touch our Field Offices. It is a reduction that is not possible 
to take entirely against vacancies, it is a reduction that will 
touch every description of employee within the FBI. So we will 
lose Agent positions, we will lose Analyst positions, and, of 
course, Professional Staff.
    As you know, sir, we went through a period of sequestration 
a few years ago where we reduced 3,000 positions during the 
course of sequestration. It has taken us quite some time to 
hire our way back up to full strength. We are on target to be 
at very close to full strength by the end of this year, and the 
reductions that you have described will take us backwards a 
step.
    Mr. Culberson. Those, of course, just are recommendations. 
This subcommittee will have the final word on that. And you 
know how strongly we support your work and will do our very 
best to help you deal with that.
    Mr. McCabe. Thank you.
    Mr. Culberson. Make sure you do not have any adverse 
impact. The FBI requested an $8 million increase for 
surveillance of high-priority targets. Why is that a priority? 
And how is the FBI meeting your current surveillance needs?
    Mr. McCabe. So as I said, sir, we are in good shape right 
now. That $8 million is all personnel funding. It essentially 
enables us to protect about 78 positions that would likely have 
been added to the reductions that we have discussed. The 
demands we have placed on our surveillance teams over the last 
several years has just been enormous. As the number of 
homegrown violent extremists, the number of counterintelligence 
targets, and those folks that we need to keep a very close eye 
on grows, sometimes on a day-to-day, 24-hour basis, those 
resources become all the more important. So a reduction in that 
area is particularly tough for us.
    Mr. Culberson. As I mentioned in my opening statement, we 
have a real concern in the Houston area, it affects the whole 
country, but unfortunately, because of I-10 and Houston's 
location, we have a terrible problem with young women being 
exploited and sold into slavery. It is just a catastrophic and 
heartbreaking situation. Could you talk to us about the work 
the FBI it doing to help fight human trafficking?
    Mr. McCabe. Yes, sir. Particularly down in the southwest 
border area where we have, as you know, five field offices and 
11 RA's that address border issues. We have made a significant 
investment in terms of our safe streets task Forces and the 
work we do with our partners at DEA, DHS, CBP and others. 
Frequently, we find the same transnational organized crime 
groups that are engaged in narcotics trafficking are also 
engaged in human trafficking. So it is that combined work that 
we do in the task force environment that lets us be as 
productive and effective as we possibly can be. But we 
recognize that as a growing threat, and it is an area where we 
want to keep focused very closely and make sure that we have 
the right folks doing that work.
    Mr. Culberson. Is the budget request satisfactory in this 
regard? And what can the committee do to help ensure that--what 
additional resources do you need to really be--to beat back 
this terrible epidemic?
    Mr. McCabe. I think the most valuable thing for us at this 
point, sir, would be to try to restore those reductions that we 
are likely to sustain in 2017.
    Mr. Culberson. One of the main challenges the FBI is 
encountering is regarding the supply chain, particularly with 
the concern we all have on back doors or Trojan horses being 
built into hardware.
    Mr. McCabe. Yes. An incredibly important area right now and 
one that we have really tried to expand the amount of outreach 
that we are doing across the government and across the private 
sector. We are in a unique position to see those threats coming 
in from the work that we do on the counterintelligence side, 
particularly. And so we have tried to spread that word 
utilizing things like the best practices document that I know 
you are familiar with, to let folks know that these are the 
threats they need to be aware of, particularly across the 
government as they require high-tech infrastructure for their 
system.
    I think it is also important, and it has been great to see 
in the last several months, the new administration has a deep 
interest in addressing some of the things we have seen from the 
CFIUS program. I think there are a lot of ways we can be more 
effective in terms of monitoring foreign investment, 
particularly in our high tech industries.
    Mr. Culberson. Thank you, Director. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I am concerned that the special counsel you appoint to 
investigate the ties between the administration and Russia will 
not have adequate resources. Is the Special Counsel being 
provided with full access to all FBI resources needed for an 
investigation?
    Mr. McCabe. He is, sir, he is. I can assure you of that. I 
have had many, many interactions with the Special Counsel and 
his representatives. In fact, we are meeting in the next 24 
hours to discuss exactly that. We have a great number of folks 
who have already been detailed to that team. And I have assured 
Director Mueller that we will do everything necessary to 
deliver the resources and to meet the needs that he has to do 
that work.
    Mr. Serrano. Thank you for your answer. Is the FBI 
investigation continuing concurrently with the Special Counsel 
investigation, or have all resources and necessary personnel 
been transferred to Director Mueller's office?
    Mr. McCabe. All the resources necessary to conduct the 
investigation that Director Mueller is now responsible for have 
been assigned to that effort under Director Mueller. It is 
important to note, though, sir, that the FBI continues to 
maintain responsibility for counterintelligence issues writ 
large against all of our foreign adversaries, and certainly 
including our Russian adversaries. So we still do work in the 
Russia counterintelligence space, but we are careful to leave 
what is the Special Counsel's to the Special Counsel.
    Mr. Serrano. To make a lead-in as short as possible for my 
question, Director Comey had felt uncomfortable, he said, and 
told General Sessions about meeting with the President. So my 
question to you is, have you met President Trump? How many 
times? And when were those meetings? Who else attended it those 
meetings? And would you feel uncomfortable meeting alone with 
the President?
    Mr. McCabe. I have met with President Trump on very few 
occasions, and those have all been occasions where there were 
many other people present. I have not felt uncomfortable in 
those meetings. I am sorry, what was the rest of your question?
    Mr. Serrano. If you would feel uncomfortable meeting with 
the President alone?
    Mr. McCabe. So as you know, we have a well-developed and 
long-known White House contacts policy between the Department 
of Justice, the FBI and the White House. And I am aware of what 
that policy is, and I do everything I can to ensure that my 
contacts with the White House, be they with President Trump or 
anyone else, are within the scope of that policy. I have talked 
to the Deputy Attorney General about that, and any contact that 
I have would have with the President would be approved by the 
Deputy Attorney General first.
    Mr. Serrano. These are questions that have to be asked 
because they are on the public's mind, and we need to know. 
Have you been asked for loyalty oath by the President? If not, 
what would you do if you were?
    Mr. McCabe. So I will answer the second part first if that 
is okay. I have taken an oath already to the United States of 
America to protect and defend the Constitution. That is the 
only oath I will take. So that is not really an issue for me. 
Regarding specific conversations that I have had with the 
President, I don't think it would be appropriate for me to 
discuss in this forum.
    Mr. Serrano. Okay. One last question because my time is 
running out, is something that came up the other day, and we 
were thinking when Mr. Rogers from Kentucky was chairman of the 
committee, and I was his ranking member right after 9/11, he 
gave a lot of money to the FBI.
    Mr. McCabe. Thank you, sir.
    Mr. Serrano. Rightfully so, I went along with it. It was a 
lot of money. Year later, I asked Director Mueller at another 
hearing, do you think--I have to word this properly, because 
terrorism is our main focus--did we play more heavily on the 
terrorism part and give a pass maybe to white collar criminals, 
to drug dealers, to public corruption and so on? At that time, 
he said there had been an overemphasizing on the part of 
terrorism. He said it carefully because we knew what he meant, 
but are we back to a situation where you can handle both where 
the Department can deal with both so that the guys selling 
drugs in my community or supplying the drugs to my community is 
not getting away with it?
    Mr. McCabe. So I think I can best answer your question, 
sir, by saying, I think we are in the right place now in terms 
of the emphasis and the resources we put on those very 
divergent programs. There is no question that our criminal 
threats continue to bedevil this country in the same way they 
do the FBI. We exercise constant vigilance against those 
threats, and we are constantly reprioritizing where we need to 
put our precious resources and our personnel. Could we do more 
with more? Sure, but we understand that the resources are 
finite, and that the committee has many different agencies and 
programs they have to support.
    So at the same time, I think that period that you referred 
to after 9/11, we were standing up, really, our capability as 
an intelligence organization and our response to the terrorism 
threat, which really required a very quick and a broad and deep 
evolution in our approach to it. I feel pretty comfortable to 
say that we have done that hard work. We are in a very 
different place today than we were about 10 or 15 years ago.
    Mr. Serrano. Well, rest assured I will support the chairman 
in making sure that you continue to have the resources to be 
able to do both, because they are both important.
    Mr. McCabe. They are, sir, they are.
    Mr. Culberson. Thank you, Mr. Serrano.
    I recognize the former chairman of the full committee, the 
gentleman from Kentucky, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Former chairman of 
this committee, which I thoroughly enjoyed.
    Mr. Director, welcome.
    Mr. McCabe. Thank you.
    Mr. Rogers. I want to talk to you briefly about 
transnational criminal organizations, and the impact of those 
groups on the flood of narcotics coming into our country by way 
of Mexico, primarily. What can you tell us about what you are 
doing to try to disrupt those criminal organizations and the 
finances that are generated thereby to allow them to do bad 
criminal things?
    Mr. McCabe. Yes, sir. Yes, sir. So we see it the same way 
that you do. We are looking at----
    Mr. Rogers. Use the microphone there.
    Mr. McCabe. Is that better?
    Mr. Rogers. I cannot hear you.
    Mr. McCabe. Is it working? I will try to speak a little 
louder. It is late in the day, maybe I am a little hoarse.
    So we see it the same way that you do. We think that is the 
place for FBI resources to focus in this fight. There is a lot 
of work being done across the country, particularly by our 
State and local colleagues, but the place where we can add the 
most value is by bringing our enterprise theory of 
investigation to those sorts of transnational organized crime 
groups. We have done that by doubling the number of task forces 
that we have working that work. We have done that by bringing 
our white collar experts into this fight by having agents 
specifically addressing the abuse of prescription opioids and 
how that leads to heroin abuse and overdoses that are plaguing 
so many of our cities. We have done that by activating our 
Legats in places like Mexico City and other places on the other 
side of the border to help us to better liaison and interact 
with our colleagues where some of these groups are emanating 
from.
    Mr. Rogers. Well, it is not working.
    Mr. McCabe. Yes, sir.
    Mr. Rogers. It is estimated that these illegal profits from 
transnational criminals is $322 billion a year and growing. And 
we all know the narcotics problem is exploding in this country, 
practically all of which is coming to us through Mexico. And 
including Fentanyl from China is coming through the same gangs 
in Mexico. What can you tell us that would encourage us to 
believe that you will get control of this thing?
    Mr. McCabe. Sir, what I can tell you is this is a problem 
and an issue that we will not police our way out of. It is 
going to require a whole-of-government effort. But I can tell 
you what the FBI has to contribute to that, and it is the 
investigative experience. It is the connections with foreign 
partners. It is the ability to bring our Federal law 
enforcement and State and local law enforcement together in 
that fight.
    There are border security issues, there are diplomatic 
issues, there is a lot tied up in that problem right now. That 
is how we see our part of it.
    Mr. Rogers. Well, you are correct, you are only a part of 
the solution there. You have got the DEA, and we have got the 
State Department and numerous other agencies that are working 
on pieces of the problem. But it is a bad problem.
    Mr. McCabe. Yes, sir.
    Mr. Rogers. And it is eating this country alive. And we 
have to redouble our efforts.
    Let me quickly, Mr. Chairman, switch briefly to another 
topic, and that is cybercrime.
    Mr. McCabe. Yes, sir.
    Mr. Rogers. Cyber attacks. According to CNBC, a cybercrime 
costs the global economy $450 billion annually. In 2016, over 2 
billion personal records were stolen; over 100 million 
Americans had their medical records stolen; five out of every 
six large American companies were targeted by cyber attackers 
in 2014, a 40 percent increase over the year before. At the 
same time, 60 percent of all targeted attacks strikes small- 
and medium-size businesses, which typically have fewer 
resources to invest in cybersecurity.
    An enormous problem. Cybercrime in the public and private 
sector continues to pose an enormous risk to our economy, not 
to mention our national security. Forbes reports that 
cybercrime costs to the economy quadrupled from 2013 to 2015, 
and may again quadruple by 2019. As the lead Federal agency in 
this space, what are you doing to get in front of these 
threats?
    Mr. McCabe. Yes, sir. So it is a great question. Cyber is 
the issue that challenges us the most deeply. It hits every 
program that we are in, and it changes every day. So cyber, as 
you know, we have the lead designation for threat response. We 
are the folks who will go in, of course, with our partners, to 
figure out who did it and where it came from. In order to do 
that, I need the right people, with the right background, the 
right talent and technology to put on that problem set, and 
that is what we are doing right now to ensure that our folks 
have the tools they need, we are hiring the right people, we 
are able to keep them on board and on target.
    The second thing that we are focused on is taking those 
cyber investigative skills, tools, and capabilities, and making 
sure that we are pushing that out across our other operational 
programs. So I need my criminal investigators to be looking at 
social media, doing network analysis, understanding cyber 
threats; I need my CT and CI folks to be doing the same thing. 
So we are engaged and constantly rethinking how we are 
approaching the cyber target set. I think we have a strategy 
that we have been deriving for the last year or so. We have the 
right people on it. But this is a threat that continues to 
change and we have to be agile to stay in front of it.
    Mr. Rogers. Godspeed to you.
    Mr. McCabe. Thank you, sir.
    Mr. Culberson. Thank you, Mr. Rogers. Mrs. Lowey.
    Mrs. Lowey. Acting Director McCabe, I am very concerned 
about the morale at the FBI in the wake of the proposed budget 
cuts and the disparaging comments made by President Trump. In 
your opinion, was the FBI, quote, ``in disarray,'' end quote, 
as the President claimed prior to firing Director Comey? Did 
Director Comey have the support of FBI leadership and workforce 
prior to his dismissal?
    Mr. McCabe. He did, ma'am.
    Mrs. Lowey. Thank you.
    Mr. McCabe. It is not my opinion that the FBI was in the 
state of disarray. It is my opinion, and has been my 
observation over the last several years, that Director Comey 
enjoyed a deep and positive relationship with the men and women 
of the FBI.
    Mrs. Lowey. Thank you.
    In June 2015, we saw the lethal consequences of the 
incomplete background checks when critical information was not 
discovered within the 3-day limit and a firearm was purchased 
by Dylann Roof. He later went on to kill nine people during a 
prayer service at the Emanuel African Methodist Episcopal 
Church in Charleston, South Carolina. He should never have had 
that gun. Your budget proposes reductions to the staffing for 
background checks at the FBI.
    In the bipartisan omnibus spending bill, we provided an 
increase in funding, part of which went to hiring 136 
additional workers to conduct background checks. This budget 
would cut those additional staff. This is inconsistent with 
this administration's claims to prioritize violent crime 
reduction. How would this budget impact the ability to complete 
background checks within the 3-day limit? Does this jeopardize 
the ability of NICS examiners to confidently identify any 
disqualifying records?
    Mr. McCabe. The short answer, ma'am, is yes. Having fewer 
people to do NICS checks will make it harder to get the NICS 
checks done within the 3-day requirement. As you know, the 
numbers for 2018 are significantly behind where we were in 
2017. We are experiencing historic rises in the level--in the 
number of NICS checks every year. We have every reason to 
expect that that will continue. So, fewer resources will hurt 
our folks there. We try to cover the increases in work by 
extending large amounts of overtime and things of that nature, 
but that it is not a sustainable way to keep the workforce on 
target.
    Mrs. Lowey. Following up on that, because it has concerned 
me for quite a while and I would love your opinion as an 
experienced person at the FBI. What percentage of cases, 
background checks, do you wish you had more than 3 days, 4 
days, 5 days? I have heard some of the experts say they would 
even include the number 9 days. Could you comment to us on 
this?
    Mr. McCabe. Ma'am, I do not know if I can give you that 
percentage right off the top of my head, but I certainly will 
take that back and get back to you. I think folks don't 
understand that the logistical challenge of corresponding with 
many different jurisdictions where you have to reach out to 
confirm arrest histories, and conviction histories, and 
dispositions of criminal charges and things of that nature. And 
it just takes longer many times than 3 days to get responses on 
some of that work. So by definition, some percentage of that 
work lapses past the 3-day period and, you know, we would be 
better off if we could get that done.
    Mrs. Lowey. I appreciate that. If you could get back to us, 
I think it is important when we are making policy to understand 
the hard work that the FBI does. And it was my understanding at 
a previous hearing that in many cases, 3 days just is 
inadequate. So you are agreeing that 3 days may not be adequate 
and you will get back to us, on what percentage of the case you 
need more time, and more staff to do the work?
    Mr. McCabe. Yes, ma'am.
    [The information follows:]
           percentage of nics checks that go more than 3 days
    Approximately 3 percent of all NICS Federal firearm background 
checks enter the ``delayed'' status after three business days have 
elapsed and a final determination has not been made.

    Mrs. Lowey. So cuts certainly are not going to help us when 
it comes to background checks.
    Mr. McCabe. That is right.
    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Ms. Lowey. The individual's name 
stays in the system if something pops up after you run a check 
and they have a problem, ATF is directed to go after them and 
get the weapon, correct?
    Mr. McCabe. They are. So we have I think it is 88 days. Is 
that right? Eighty-eight days to continue to look at those 
files that go past the 3-day mark. And if we get the response 
within that period and the gun has already been delivered, my 
understanding is a referral is made to ATF to recover it.
    Mr. Culberson. It is important to recognize there is an 88-
day safety net to catch any mistakes, because we are all 
humans. Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. Acting Director 
McCabe, welcome. I am glad to have you here.
    Mr. McCabe. Thank you.
    Mr. Carter. Homeland Security has developed the southern 
border and approach campaign, to concentrate resources on 
transnational criminal organizations responsible for the 
majority of crime along the border. In this budget, you have 
requested funding for hybrid squads to bring a threat based 
view of these dynamic multifaceted criminal enterprises. How do 
these hybrid squads operate? And are you working together with 
Homeland Security on this? And in addition, to the border 
liaison officers along the southwestern border, what has been 
the most effective means to combat transnational criminal 
organizations along the border? And what can this committee do 
to help you on that issue?
    Mr. McCabe. Yes, sir. So as you know, in that vein, we have 
asked for $6.8 million in this budget, all personnel to restore 
65 positions to do exactly that work. The hybrid squads are the 
ones--I do not know that I can describe it much better than you 
already have. It is an ability to bring our intelligence folks 
together with our case officers, our Special Agents, and our 
task force partners, which invariably include many different 
elements from the Department of Homeland Security, as well as 
State and local officers. All for whom the criminal issues at 
the border have an impact on their communities, and on the 
folks that they protect. So that is true in all the work we 
do--in the counterterrorism area and every other area--we are 
stronger through partnership. So having the right folks in 
those places to link up with our partners and do that work, is 
the way forward for us. And so, to have the people to do that 
is really the biggest way that you can help.
    And I cannot overstate the importance of having a robust, 
well-trained, stable population in our Legat offices, 
particularly in Mexico City, because you can't work 
transnational organized crime just from within the borders of 
the United States; you have to be able to build relationships 
and work those issues with your partners overseas.
    Mr. Carter. I agree with that. I agree with Henry Cuellar, 
my colleague on Homeland Security. We need to push deeper and 
deeper from the border, the first lines of defense should not 
just be the border.
    Mr. McCabe. That is right.
    Mr. Carter. So I agree with that.
    Any resources needed--as to your role in coordinating these 
groups, you all work together and you are the coordinating 
agent?
    Mr. McCabe. That is right, that is right. It is. And, of 
course, we think we are well-positioned with the resources we 
have. That is why, you know, cuts that will touch our field 
offices and our headquarters elements the way the 1,600 cut for 
2018 is likely to do, is where things start to get tough for 
us.
    Mr. Carter. Well, let us know what you need.
    Mr. McCabe. Thank you, sir.
    Mr. Carter. Another issue that you mentioned in your 
opening statement, going dark. In this budget, you have 
requested $21.6 million in funding for operational technology 
investments to counter what is called ``going dark.'' And as I 
understand, that is encryption, dealing with encryptions.
    Mr. McCabe. In large part, yes, sir.
    Mr. Carter. I understand the FBI has limited access to 
3,000 mobile devices linked to various crimes that you are 
unable to search, even though you have court-ordered legal 
authority to do so. Could you elaborate on how the FBI plans to 
reduce these barriers? How these barriers affect your ability 
to conduct counterterrorism investigations? And how can this 
committee help you on that? And please tell me more about the 
80 new positions you plan to create to combat this going dark 
issue, will these new positions specifically support 
intelligence analysis to combat the problem?
    Mr. McCabe. Yes, sir, they will. Let me touch on the going 
dark issue to clarify some of the facts that you have referred 
to. So far, in fiscal year 2017, we have received approximately 
7,000 devices with court authorization. The requests come most 
times from our partners to help them open up the devices they 
need primarily for their criminal cases in cities and towns 
across this country.
    We are currently able to get into about 48 percent of those 
devices. So a little less than half. As incredibly effective 
encryption becomes more well-known, easier to get and easier to 
use, that number, that 48 percent, will continue to decline. 
That is probably the best example of that piece of the going 
dark problem.
    The resources that we have asked for will be folks who will 
specifically face those challenges. So we are talking about 
some Special Agents; we are talking about some electronic 
engineers; we are talking about computer scientists; and we are 
talking about what we refer to as CART agents, folks out in the 
field who have the ability to have the tools and the training 
to help try to get into those things and assist our partners on 
site.
    So that is where those resources are going. It will also go 
to help us maintain systems that we now depend upon to allow 
our investigators to conduct the work they need to do on the 
internet in a way that is not attributable to the FBI. Because, 
obviously, we have to be as good as our adversaries. We have to 
be on the dark web. We have to be in all those places where we 
are going to find the threats that face us. So going dark is a 
multifaceted problem, it is one that will call for pretty tough 
choices across society in terms of balancing security and 
privacy. It will call for pretty substantial work, I think 
ultimately here from Congress, addressing some of the legal 
frameworks that we have to work with. But day to day, it 
impacts my investigators and analysts in that way.
    Mr. Carter. I find that a real challenge.
    Mr. McCabe. It is, sir.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Judge Carter. Mr. 
Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman, and thanks for being 
with us, many thanks to the men and women who work for the 
Bureau.
    Mr. McCabe. Thank you, sir.
    Mr. Kilmer. In recent months we have seen an unprecedented 
rise in hate crimes. According to one report we saw 1,800 hate 
crimes in the U.S. between November of last year and March of 
this year. I notice that the FBI budget request does not 
explicitly mention any additional funding on this front. I also 
would point out in May, I received a letter from the Department 
of Justice stating that the Attorney General has directed the 
formation of a hate crimes subcommittee of the violent crimes 
task force to highlight the importance of these efforts.
    So my questions for you are, one, what funds or resources 
will the FBI allocate to combat the rise in hate crimes? Does 
the FBI have a role in that hate crime subcommittee? And if you 
can give me any indication of the status of how the FBI is 
engaging with affected communities that are dealing with this 
proliferation of hate crimes.
    Mr. McCabe. So our folks do an enormous amount of work 
dealing with the communities that are touched by hate crimes. 
It is one of the requirements that I put on all of our Special 
Agents in Charge to build those sorts of relationships into the 
communities that are going to put us in a position to be able 
to help them in many ways, but certainly in that one. Hate 
crimes are a very big part of our civil rights approach to 
include color of law issues, clinic access issues and many 
others. So it is a vital and ongoing effort that we remain 
completely committed to.
    With respect to the DOJ Subcommittee, that one I will have 
to take back to get you the exact details of our participation 
in it. I would expect that we are playing a key role, but I 
will have to get back to you with those details.
    Mr. Kilmer. Is the civil rights division, is that where the 
funds lie to address this issue or--I notice that there was not 
any sort of specific language on this in the budget request, so 
I was just curious whether there are any funds specifically 
dedicated to combat this?
    Mr. McCabe. So we do not rely on funding from the civil 
rights division, but obviously, we work the cases with the 
civil rights division at DOJ. And our funding, of course, is 
part of our overall criminal program. How we divide those funds 
up within the criminal program is up to the Assistant Director 
of the criminal program. And it is in the base resources 
request.
    [The information follows:]

              FBI PARTICIPATION IN HATE CRIME SUBCOMMITTEE

    In February 2017, Attorney General Sessions established the 
Department of Justice Task Force on Crime Reduction and Public 
Safety. The Task Force will accomplish its work through five 
subcommittees, including one specifically set forth to address 
hate crimes. Attorney General Sessions asked Mr. Tom Wheeler 
(the Acting Assistant Attorney General of the Department's 
Civil Rights Division) to serve as the Subcommittee Chairman of 
the task force's hate crimes subcommittee, which includes 
representatives from the U.S. Attorney's community, the DOJ 
Community Relations Service (CRS), the FBI, the Community 
Oriented Policing Office (COPS), Office of Victims of Crime 
(OVC) and the Criminal Division. The Subcommittee has sought 
feedback from communities nationwide and during the 2017 Hate 
Crimes Summit held in Washington, DC in late June. Attorney 
General Sessions has asked the Subcommittee to explore ways to 
expand and improve training for federal, state and local 
prosecutors and investigators on hate crimes; how we can work 
better with affected communities and our state and local law 
enforcement partners; and how we can improve our data 
collection on hate crimes. The Department of Justice is taking 
action and has prosecuted a number of high-profile hate crimes 
cases this year as we seek to bring criminals to justice. 
Finally, Attorney General Sessions has directed all federal 
prosecutors to make fighting violent crime a top priority, 
including hate crimes.

    Mr. Kilmer. I wanted to follow up on the question from 
Chairman Rogers around cybersecurity. We certainly hear about 
that a bunch. Congress passed the Cybersecurity Act in 2015, 
and a big focus of that was on information sharing between 
industry and law enforcement. I think one of the pieces of 
feedback that we get from industry, large and small, they 
comment around small businesses I agree with, is a concern that 
that sometimes feels more like a one-way street where industry 
may feedback what they are dealing with, but don't necessarily 
get a lot back from the government. I guess I would love to 
just get your sense of how you assess the progress of that law 
in bringing industry stakeholders to the table with information 
that could prevent cyber attacks from happening. And then in 
the other direction, what is the FBI doing to strengthen the 
flow of information to industry stakeholders?
    Mr. McCabe. So it is a great question, and it is one that 
we get very often as well. I think in summary, I would say we 
are better than we have been, but we are clearly not good 
enough. We have all the traditional challenges that we always 
face in sharing information, particularly in the cyber area, 
when so much of it comes to us through classified channels. It 
is hard and slow to cull out that which we can share to be 
effective. And so often, our sharing is not timely, and the 
private sector moves at a much quicker pace. So that is really 
where we need to work.
    I think the interactions that we have with the private 
sector are more productive today than they were 2, 3, 4, 5 
years ago, but we still have a long way to go. There are many 
reasons why our private sector partners don't wish to share 
with the FBI or anyone else for obvious economic, and 
productivity, and reputational reasons.
    So it has been a slow, kind of chipping away at some of 
that resistance. And also, adapting our own approaches to be 
able to get on site, to help them handle a crisis or an issue 
in a way that is as discreet as we can possibly be. So I think 
those are the areas we have to work on. I think the legislation 
gives us good footing to start, but we clearly have a lot of 
work to do.
    Mr. Kilmer. Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you, Mr. Kilmer.
    Mr. Jenkins.
    Mr. Jenkins. Thank you, Mr. Chairman. Director, thank you 
for being here. I am from--represent southern West Virginia, 
and like Chairman Rogers from Appalachia, the drug epidemic has 
just ravaged many of the communities.
    Mr. McCabe. Cities.
    Mr. Jenkins. You raised a point ago when asked about the 
southern border, and you specifically talked about five field 
offices. And I think you were sending the message that we kind 
of have a footprint where boots on the ground where it is most 
needed.
    Mr. McCabe. Yes, sir.
    Mr. Jenkins. I think four, if I am accurate, four of the 
highest overdose counties in the entire country are in my 
district. We don't have a field office of the FBI really down 
deep in the hardest hit areas of West Virginia. And through a 
discussion with Special Agent Johnson, I understand there is, 
at least, some willingness and openness of the FBI to look at 
putting a field office in the hardest-hit impacted areas. Can 
you update me on your assessment of that? And is that a 
possibility, because I certainly hope it will be?
    Mr. McCabe. Yes, sir, it is, certainly a possibility. And 
it is one that we are discussing actively right now. Because 
you know, we formally had not had a field office, but a 
resident agency, which is kind of a satellite of a field 
office. In this case, it would be a satellite out of our 
Pittsburgh Field Office. We had one in your area, and we went 
through a process years ago, but ended up folding that office.
    We are back in that process now. We are actively discussing 
reopening that RA. Once we have made our decision, we 
communicate that, of course, to DOJ and work with OMB to get 
that done. And so, I can assure you that we will continue to 
push. But we recognize the significant challenges that your 
constituents are facing with the opioid epidemic. We also know 
there is no presence of other Federal law enforcement agencies 
in the area, and we see that as a massive gap.
    Mr. Jenkins. I appreciate your interest and the sincerity 
to attack crime where it is happening. And this tragic opioid 
epidemic has just ravaged our area.
    I was looking at your going dark testimony, and I was 
struck by the emphasis on talking about crimes and identities 
that lay behind our--behind layers of anonymity, relating to 
online pedophiles. And when I was a State legislator in West 
Virginia, and this was the old days, back when really Facebook 
was the existence of social media, we had a sex offender 
registry, like probably every other State. But I lead the 
effort to actually require sex offenders, once convicted, to 
turn over to the registry their online screen names, passwords, 
et cetera. And our State database created a system where a 
parent, empowered to try to go in and say, here is a user name 
or a screen name that is communicating with my son or daughter, 
to identify whether or not that was in the database.
    I am all about trying to create tools, whether it be at the 
State level or Federal level, to empower parents to help 
protect their children. We are struggling in this world as you 
talk about online pedophiles. What, at the FBI level, what sort 
of tools that you can talk about that are in place to take 
these, even convicted sex offenders, and make sure we empower 
parents and try to protect our kids?
    Mr. McCabe. Yes, sir, great question. That is a threat and 
a space within which the threat operates that is more 
challenging every day with the profusion of anonymity through 
things like the onion router, and the use of encrypted 
communications. All of those same things that challenge us in 
the other areas of our business challenge us there. And it is 
one that impacts us so deeply, not only as FBI agents, but as 
parents ourselves. So we remain absolutely committed to doing 
everything we can. Unfortunately, that has required, in the 
last several years, a new cutting-edge technical approach to 
many of those problems. And so it gets back to the same 
challenge that we have in the cyber area, in the CT area, in 
the CI area. And it is getting the right talented computer 
scientists and very highly skilled folks engaged in that fight 
to help us get through the walls of anonymity so we can 
actually see who is on the other side interacting with our 
children in damaging ways. So we are absolutely committed to 
that work, but it is getting tougher and tougher as the ways in 
which people communicate over the internet become more 
protected and more remote.
    Mr. Jenkins. I look forward to working with you in addition 
to the investigatory identification work that you are engaged 
with. I am looking for those tools to empower parents to also 
do what we can as engaged parents to try to help create a safe 
environment. We know it is a challenging world, we appreciate 
your commitment to it.
    Thank you, Mr. Chairman.
    Mr. Culberson. Ms. Meng. The gentlelady from Long Island.
    Ms. Meng. Thank you, Director McCabe. On June 27, 2016, the 
DOJ announced a new department-wide training to help agents and 
prosecutors learn how to recognize and address unconscious 
biases, those subtle associations that some individuals might 
make between groups of people and stereotypes about certain 
groups. What is the status of these trainings at the FBI? And 
what percentage of your agents have received this training? And 
when can we expect these trainings to be completed?
    Mr. McCabe. Yeah. So I will have to get back to you with 
the numbers and the exact percentages and when those are 
completed. I know that we have done a lot of work in the last 
year on getting that training out to our folks. I know that it 
has been mandatory for all of our folks. I know that it was 
mandatory for executives--I know it because I attended it with 
our entire 7th floor team a few months ago. So it is out, and 
our folks are getting it, but I will just have to get back to 
you with the numbers.
    [The information follows:]

                       UNCONSCIOUS BIAS TRAINING

    The FBI began delivering Unconscious Bias Training to its 
workforce in July 2014, with a target audience of supervisors 
and managers. In October 2015, the FBI amended its target 
audience to all new employees, including new Special Agents. 
Currently, training has been provided to employees in 39 of the 
FBI's 56 Field Offices and 11 of the FBI's 22 Headquarters 
Divisions. As of June 2017, over 6,800 FBI employees have been 
trained. Based on resource availability, the FBI plans to 
continue to deliver training to all FBI employees, with the 
eventual goal of having the entire FBI workforce trained in the 
next few years.

    Ms. Meng. Thank you. Last September, former Director Comey, 
while testifying in front of the House and the Senate, 
committed to the creation of a nationwide database to gather 
information on police-involved shootings. He committed to 
seeing this project through for the length of his term as FBI 
Director. And he stated that the database should be up and 
running in a year or two.
    What is the status of this database, and when can we expect 
it to be up and running?
    Mr. McCabe. So we have continued to do that work with the 
Use of Force Task Force, and it is moving along well. We, in 
fact, just stood up the pilot of the database that you referred 
to, I think just within the last few weeks, if I have that 
correct. So our commitment to that effort continues as does our 
commitment to the NIBRS, National Incident-Based Reporting 
System.
    We across the law enforcement community need better data. I 
think most people recognize that now. It is a little bit 
challenging in terms of resources and commitment to get folks 
to sometimes to do the work that we need to get there, but we 
are committed to staying on that timeline and having this done 
by 2021.
    Ms. Meng. Thank you. I yield back.
    Mr. Culberson. Thank you, Ms. Meng. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And thank you for 
being here, Mr. McCabe. I want to ask a question about the--
kind of the authority and independence of the FBI.
    Mr. McCabe. Yes, sir.
    Mr. Cartwright. I would be interested on your take on the 
matter. While the FBI operates as part of the Justice 
Department, of course, due to the nature of its work, it has 
historically been seen as relatively independent. The FBI 
Director is also considered one of the most independent 
officials in the Federal Government. Would you agree with that?
    Mr. McCabe. Yes, sir.
    Mr. Cartwright. Mr. McCabe, several measures have been put 
in place to preserve the independence of the FBI, including the 
10-year term for the Director. My first question is: Do you 
believe that maintaining a relatively independent FBI is 
important to the integrity of the work that you conduct?
    Mr. McCabe. Yes, I do.
    Mr. Cartwright. The constitutional reality is that if a 
Government official is appointed within the executive branch, 
that official serves at the pleasure of the President. But 
unofficial norms emphasize that law enforcement should be 
politically neutral. What is your take on how you reconcile 
those two realities, Director?
    Mr. McCabe. Well, I think we have a long history of 
pursuing our work at the level of professionalism and an 
independence from political influence. I have no reason to 
believe that that approach will discontinue. I believe, as you 
stated, it is vitally important to have a politically 
independent FBI, and I have no reason to believe that that 
won't be the case.
    Mr. Cartwright. Are you aware if it is written down 
anywhere, what the conditions would be under which the 
President would relieve the FBI Director of his or her duties 
before the 10-year term is up?
    Mr. McCabe. Well, I don't know where it is written down 
specifically, but it is my understanding it is the President's 
privilege to relieve any political appointee when he chooses to 
do so.
    Mr. Cartwright. Do you have a view about what conditions 
would be appropriate for the President to relieve the FBI 
Director before the 10 years is up?
    Mr. McCabe. Well, again, sir, I don't really have a view on 
that. I am not going to weigh in on Presidential privilege and 
how the President decides to remove his appointees.
    Mr. Cartwright. Well, you look like a smart man.
    Mr. McCabe. Looks can be deceiving.
    Mr. Cartwright. I know the dedicated public servants in the 
FBI will continue to do their work regardless of political 
pressures and turnover in the Director position, and whoever 
happens to be in the White House. But I want to ask you, how 
has the removal of James Comey affected morale at the FBI, if 
you can comment on that?
    Mr. McCabe. So, as I said at the beginning of our hearing, 
Director Comey enjoyed a great relationship with the men and 
women of the FBI. So his removal took many, many people by 
surprise. It was a shock. It is something that we have all had 
to come to terms with. However, as the organization responsible 
for upholding the Constitution and being dedicated to nothing 
other than the rule of law and protecting the American people, 
we understand the rules and how they work, and we understand 
that it is the President's privilege to remove the FBI Director 
or any appointee whenever he chooses to do so. He has chosen to 
do that. We know we are getting a new FBI Director. It has been 
my challenge to keep folks focused on the mission during this 
time of transition, and to prepare the ground for the new 
Director whenever he or she gets there.
    Mr. Cartwright. So other than morale, what other effects do 
you think that removal has had on the ability of the FBI to 
carry out its crucial functions?
    Mr. McCabe. The FBI continues to carry out its crucial 
functions, and we will continue to get that work done. You have 
my word on that.
    Mr. Cartwright. I will take it. Thank you, Director. Mr. 
Chairman, I yield back.
    Mr. Culberson. Thank you, Mr. Cartwright. They have called 
votes. There is about 8 minutes left. I want to just very 
quickly ask you, Director McCabe, if you could--insider threats 
are very dangerous, leaks of classified information can be 
immensely damaging to this country as we saw with Edward 
Snowden. I was very pleased to see an NSA contractor, Reality 
Winner, being prosecuted.
    Would you please speak directly to everyone in the Federal 
Government and tell everyone out there how serious a crime is 
it if you leak information about an ongoing investigation, and 
give us the assurance that the FBI will pursue every one of 
these leakers, and seek their prosecution to the fullest extent 
of the law.
    Mr. McCabe. Yes, sir. Leaking of classified information is 
a Federal crime, and it is one that we have the jurisdiction to 
investigate. And I assure you we will do so in every single 
case that gets referred to the FBI by the Department of 
Justice. That is, of course, how that process works. It is 
absolutely vital to the safe functioning and the national 
security of this country to be able to handle classified 
information in a responsible manner in the way that it was 
designed to be handled. When we have folks who are mishandling 
or leaking or sharing classified information in ways they 
should not, we will investigate those matters as they should be 
investigated.
    Mr. Culberson. How many years in prison can people face?
    Mr. McCabe. Oh, that is a good one. I think, it depends. 
Most of the cases either come down to mishandling cases or 
actual espionage cases, so there is a wide range there. 
Espionage, of course, can get you life in prison. Mishandling 
cases, I am not sure exactly what the sentencing range is.
    Mr. Culberson. It is a long time?
    Mr. McCabe. It is longer than you would want to be there.
    Mr. Culberson. And you are going to hunt them down?
    Mr. McCabe. Yes, sir, we will.
    Mr. Culberson. Aggressively. Thank you very much.
    Mr. McCabe. Yes, sir.
    Mr. Culberson. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. If I could submit 
this letter from [inaudible] for the record.
    Mr. Culberson. Certainly.
    [The information follows:]
    
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Mr. Serrano. Thank you. The Attorney General has taken some 
troubling actions in the past few months, in my opinion, to 
undermine the civil rights responsibilities of the Justice 
Department, this includes reducing the use of consent decrees 
and limiting the priorities of the civil rights division.
    Has there been any instruction given to the FBI to limit 
investigations into the certain civil rights-related 
complaints? What about into certain voting rights complaints?
    Mr. McCabe. No, sir. We have not received any direction 
like that.
    Mr. Serrano. None on either one?
    Mr. McCabe. No, sir.
    Mr. Serrano. How many civil rights investigations has the 
FBI opened this year, and how does that compare to the last 5 
years?
    Mr. McCabe. You know, sir, I would have to take a look at 
those numbers and get those back to you.
    [The information follows:]
           civil rights investigations over the past 5 years
    The FBI has primary responsibility for investigating all alleged 
violations of federal civil rights laws. These laws protect the civil 
rights of all citizens and persons within the U.S., and include four 
major areas: Hate Crimes, Color of Law, Human Trafficking, and Freedom 
of Access. The FBI takes this responsibility seriously and investigates 
these violations to the fullest extent possible.
    The number of Civil Rights cases pursued by the FBI have been 
fairly consistent over the past five years. In FY 2012, the FBI opened 
over 800 new civil rights cases. In FY 2016, the FBI opened 768 new 
cases and ended the year with 1,414 pending cases. However, the number 
of cases the FBI has open at any given time may not be the best 
representative of the level of effort the FBI dedicates to combatting 
civil rights violations. A singular case could involve multiple 
subjects and even an organized enterprise. The number of arrests has 
increased over the past five years from 66 in FY 2012 to almost 400 in 
FY 2016, and as of June 2017, already has 475 arrests in FY 2017. The 
FBI will continue to dedicate resources to address the Civil Rights 
threats facing the nation and endeavors to pursue tools and techniques 
that would make the FBI more effective and efficient in this arena.

    Mr. Serrano. That is all I have, Mr. Chairman.
    Mr. Culberson. Director, we sincerely appreciate your 
service to the country. We will have other questions that we 
will submit for the record. I, again, want to thank you and all 
the men and women of the FBI for what you do to keep this 
Nation safe. This subcommittee will work together to make sure 
that you have the resources you need to continue to do your 
job. We thank you very much for being with us here today, sir.
    Mr. McCabe. Thank you too, sir. And, again, thank you for 
all the support the Committee has given us over the years and 
we look forward to working together with you.
    Mr. Culberson. Thank you. Thank you very much. The 
subcommittee stands adjourned.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
